<html>
<title> - NASA'S FISCAL YEAR 2010 BUDGET REQUEST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        NASA'S FISCAL YEAR 2010
                             BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-28

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
49-551                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY


                            C O N T E N T S

                              May 19, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    17
    Written Statement............................................    18

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    19
    Written Statement............................................    20

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    21

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    21

                                Witness:

Mr. Christopher J. Scolese, Acting Administrator, National 
  Aeronautics and Space Administration (NASA)
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    34

Discussion
  ISS Re-supplying...............................................    35
  Negative Effects of Insufficient Funds.........................    36
  Budget Plan for 2020 Goal......................................    36
  ITAR and Export Controls.......................................    37
  Transition From the Shuttle to Constellation...................    39
  NASA Perspective on Review Panel...............................    40
  International Competition......................................    40
  Mars and Moon Programs.........................................    41
  Glenn Research Center..........................................    42
  Moon Program and Cyber Security................................    43
  NASA's Education Efforts.......................................    45
  Climate Change and Asteroids...................................    46
  Russian Cooperation............................................    47
  Shuttle Program Future.........................................    48
  Benefits of NASA...............................................    49
  Aeronautics....................................................    50
  NASA Workforce During Gap......................................    51
  Current NASA Budget Increase...................................    53
  Orbiting Carbon Observatory....................................    54
  Workforce and Funding Gap......................................    55
  U.S. Space Industrial Base.....................................    56

              Appendix: Answers to Post-Hearing Questions

Mr. Christopher J. Scolese, Acting Administrator, National 
  Aeronautics and Space Administration (NASA)....................    60


                 NASA'S FISCAL YEAR 2010 BUDGET REQUEST

                              ----------                              


                         TUESDAY, MAY 19, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:05 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2010

                             Budget Request

                         tuesday, may 19, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Tuesday, May 19, 2009 at 2:00 p.m., the Committee on Science and 
Technology will hold a hearing on the National Aeronautics and Space 
Administration's (NASA) Fiscal Year 2010 Budget Request, NASA's 
proposed Fiscal Year 2009 Operating Plan, and use of funds provided 
through the Recovery Act.

Witness:

Mr. Christopher Scolese
Acting Administrator
National Aeronautics and Space Administration

BACKGROUND INFORMATION

Overview
    The National Aeronautics and Space Administration (NASA), which was 
established in 1958, is the Nation's primary civil space and 
aeronautics R&D agency. The projected civil service workforce for FY 
2009 is 17,900 employees. NASA has ten field Centers, including the Jet 
Propulsion Laboratory (JPL), a Federally Funded Research and 
Development Center (FFRDC). NASA conducts research and development 
activities in a wide range of disciplines including aeronautics, 
astrophysics, heliophysics, planetary science, Earth science and 
applications, microgravity research, and long-term technology 
development. NASA also operates a fleet of three Space Shuttles and is 
assembling and operating the International Space Station (ISS). NASA is 
undertaking an exploration initiative with the goals of developing a 
new human space transportation system for both low-Earth orbit and for 
missions beyond low-Earth orbit, returning American astronauts to the 
Moon by 2020, and carrying out a broad program of human and robotic 
exploration of the solar system. NASA also maintains a space 
communications network that supports both NASA missions and other 
federal agency requirements. As of 2007, the most recent date for which 
complete data are available, about 82 percent of NASA's budget was for 
contracted work. In addition, a number of NASA's scientific and human 
space flight activities involve collaboration with international 
participants.

Budgetary Information
    NASA's proposed budget for FY 2010 is $18.7 billion, an increase of 
5.1 percent over the enacted FY09 appropriation for NASA. The FY10 
budget projection for NASA beyond FY10 is essentially flat through 
FY13. Attachment 1 summarizes the FY10 budget request and its five-year 
funding plan. In addition, The American Recovery and Reinvestment Act 
[P.L. 111-5], included $1 billion for NASA's Earth science, aeronautics 
exploration programs, cross-agency support, and Inspector General. 
Recovery Act funds are to be expended by September 30, 2010.
    The President's request for FY10 continues the budgetary structure 
that was introduced for the FY09 budget and is presented in seven 
accounts--Science; Aeronautics; Exploration; Space Operations; 
Education; Cross Agency Support; and Inspector General. As part of the 
budget restructuring that was introduced with the FY09 President's 
request, NASA shifted from a full-cost budget, in which each project 
budget included overhead costs, to a direct cost budget. All overhead 
budget estimates are now consolidated into the Cross Agency Support 
budget line. The direct cost budget shows program budget estimates that 
are based entirely on program content. Individual project managers 
continue to operate in a full-cost environment, including management of 
overhead costs.
    Attachment 2 compares the NASA budget plan that accompanied the 
Vision for Space Exploration introduced by President Bush in 2004 with 
the actual funds requested for NASA. As can be seen, previous budget 
requests for NASA have been significantly less (i.e., typically on the 
order of a half-billion dollars or more in the early years) than what 
was projected as being needed to carry out the Exploration initiative 
and NASA's other core missions. The cumulative shortfall over that 
period is in excess of $4 billion. The additional funding provided in 
the FY09 appropriation and the FY10 budget request help to redress that 
shortfall. However the FY10 budget request does not project growth for 
the NASA budget beyond FY10, and the disparity between the 2004 budget 
projections for FY11-FY14 that the Agency was planning against and the 
budgets that are now being proposed through FY 2014 is shown in the 
chart. In addition, the impact of the budgetary shortfalls since 2004 
has been exacerbated by the requirement to absorb the cost of the 
Shuttle's return-to-flight following the Columbia accident, the 
additional cost associated with the under budgeting of Shuttle 
transition and retirement that occurred in the FY05 budget plan, and 
the under budgeting of ISS program support that also occurred in the 
FY05 budget plan, which NASA indicates resulted in an unfunded lien 
against the Agency's budgets of about $6.5 billion through FY10
    To put the FY10 budget request into context, NASA has been tasked 
with flying the Shuttle safely until the end of the decade and then 
retiring the Shuttle fleet; completing assembly of, operating, and 
utilizing the International Space Station; completing the development 
of a new Crew Exploration Vehicle/Crew Launch Vehicle by 2015; 
returning American astronauts to the Moon by 2020; and conducting 
science and aeronautics programs. The NASA Authorization Act of 2008 
[P.L. 110-422] authorized an FY09 funding level for NASA of $20.21 
billion; the FY09 NASA budget request was $17.61 billion and the 
appropriation for FY09 was $17.78 billion. The Committee is planning to 
move a multi-year reauthorization of NASA this year.

Acquisition Management
    Problems of cost growth and schedule delay in NASA's programs were 
addressed in the past two NASA Authorization Acts. Specifically:

        <bullet>  Provisions in the NASA Authorization Act of 2005 
        [P.L. 109-155] were enacted to help NASA and Congress spot 
        potential cost growth and schedule problems early in the 
        development phase of a major program. Under the 2005 Act, a 
        Baseline Report is required whenever a major program completes 
        required reviews and is approved to proceed to implementation. 
        After completing the Baseline Report, the Act requires NASA to 
        report periodically on a major program through an Annual 
        Report, which is provided as part of the annual agency budget 
        submittal to the Congress, until the program enters operation. 
        The provision defines a major program as an activity with a 
        life cycle cost estimate greater than $100 million. Having 
        established the baseline, the 2005 legislation sets thresholds 
        that, if exceeded, require agency action.

        <bullet>  Concerns regarding the increasing number of Earth and 
        space science missions that were exceeding the 15 percent 
        threshold established in the NASA Authorization Act of 2005 
        prompted a requirement in the NASA Authorization Act of 2008 
        [P.L. 110-422] for an independent review of the situation. The 
        Act directs the NASA Administrator to arrange for an 
        independent external assessment to identify the primary causes 
        of cost growth in large, medium, and small space and Earth 
        science spacecraft mission classes.

    NASA's submission provided in conjunction with the FY 2010 budget 
indicates that five of eleven projects included in this year's report 
have had schedule growth in excess of six months from their baseline. 
Three of these five projects have reported cost growth of 15 percent or 
more from their baseline. The Mars Science Laboratory reported a 68 
percent increase from its baseline development cost estimate, from $969 
million to $1.63 billion, and a 26 month delay.
    With respect to NASA's contract management practices, NASA remains 
on the General Accountability Office's (GAO)'s ``high risk'' list for 
its contract management practices. Regarding financial management, an 
independent audit was unable to provide ``an opinion on NASA's 
financial statements for the fiscal years ended September 30, 2008 and 
2007.'' Although the audit found that NASA had improved its internal 
controls, the auditor (Ernst & Young LLP) disclaimed an opinion due to 
``continued significant weaknesses in NASA's financial management 
processes and systems, including issues related to internal controls 
for property accounting.'' NASA will need to address other ``material 
weaknesses'' identified in the audit.
    NASA has taken actions to improve its cost estimating and budgeting 
process for its space mission acquisitions, and has been recognized by 
the GAO for its progress in those areas. Acquisition management is an 
area that the Committee will continue to watch closely. The 
Subcommittee on Space and Aeronautics held a hearing in March 2009 on 
NASA's acquisition management and will continue to conduct oversight of 
this issue.

PROGRAM AREAS

Earth Science
    The President's budget for FY10 requests $1.4 billion in direct 
dollars for Earth science research, applications, Earth observing 
missions, education and outreach, and technology development, and 
increase of about $25 million over the FY09 enacted budget. In 
addition, Earth science received $325 million in Recovery Act funds. 
When taken together, the Earth Science account represents an increase 
of over $1.2 billion for the FY09-FY13 period over the previous NASA 
budget plan, including the Recovery Act funds. The budget proposal for 
Earth science reflects the Administration's commitment to fund ``space-
based research that supports the Administration's commitment to deploy 
a global climate change research and monitoring system.'' The budget 
increases for Earth science are aimed at accelerating the development 
of missions recommended in the National Academies' Earth Science 
Decadal Survey and on completing development of Earth science 
``foundational'' missions.
    Thus far, the Soil Moisture Active-Passive (SMAP) has entered its 
formulation phase and the Ice, Cloud, and Land Elevation Satellite 
(ICESat II), will soon enter its formulation phase. The other two 
missions in the Decadal Survey's first tier of priority, the Climate 
Absolute Radiance and Refractivity Observatory (CLARREO) and the 
Deformation, Ecosystem Structure, and Dynamics of Ice (DESDynI) 
projects are in the pre-formulation stage (concept study). The FY10 
budget also includes $12.9 million in FY10 and about $233 million over 
FY10-FY13 for Venture-class missions, which will support a program for 
competitive sub-orbital, airborne, and small satellite projects that 
was recommended in the Decadal Survey. The augmentation for Earth 
science has been done, in part, with the goal of accelerating work on 
the Decadal Survey missions. An issue for the hearing is how much 
``acceleration'' is this funding buying?
    NASA has allocated at least $100 million of Recovery funds to 
support ``foundational missions'' that are currently in the formulation 
and implementation phases of development. These missions include the 
Global Precipitation Measurement (GPM) Mission, the Landsat Data 
Continuity Mission, and Glory. The FY10 budget proposal does not 
include funds to re-fly an Orbiting Carbon Observatory (OCO) satellite 
(or a similar sensor), which was lost due to a launch failure in late 
February 2009. NASA is analyzing options to re-fly the satellite or a 
similar sensor and expects to have a decision by late June. NASA would 
need to reallocate funding among its programs in order to replace the 
OCO satellite. If NASA were to fund an OCO replacement using funds 
allocated to SMAP and ICESat II, those satellite mission developments 
could be expected to slip by roughly two years or more, according to 
NASA officials.

            Other Changes to Earth Science Program Areas
    The proposed FY10 provides increases for research and computing 
over the FY10-FY13 period, as compared to the FY09 enacted budget, but 
makes modest cuts to technology, Applied Sciences, and multi-mission 
operations budgets. NASA's Applied Sciences program, involves the 
development of decision support tools that apply the research results 
of NASA's Earth science missions to support other federal agency and 
institutional missions in the areas of climate, ecosystems, 
agriculture, water, disaster management and other areas that benefit 
society. How NASA's plans to support decision support tools for 
stakeholders, especially in the area of climate change, is a potential 
issue to explore in the hearing.

            Research to Operations
    The 2005 NASA Authorization Act and the 2008 NASA Authorization Act 
directed NASA to coordinate with the National Oceanic and Atmospheric 
Administration (NOAA) and report on plans for transitioning research 
sensors and satellites into operational service. In addition, the 2008 
Authorization Act directed the Office of Science and Technology Policy 
(OSTP) to develop a process and to coordinate agency budget requests to 
enable the transitions. NASA and NOAA have continued to coordinate 
plans to address climate measurements that were eliminated in the 
restructuring of the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program, to acquire the Geostationary 
Operational Environmental Satellite System (GOES)-R weather spacecraft 
and instruments, and to plan for Earth science decadal survey missions. 
NASA has not provided details on the level of resources required to 
enable effective planning and transition of its sensors and satellites 
into operations. The hearing could explore this question, especially 
given the importance for long-range planning on climate monitoring.

Space Science
    The President's FY10 budget requests $3.07 billion in direct 
program dollars (not including Earth science) to fund NASA's space 
science programs, including Heliophysics, which seeks to understand the 
Sun and how it affects the Earth and the solar system; Planetary 
Science, which seeks to answer questions about the origin and evolution 
of the solar system and the prospects for life beyond Earth; and 
Astrophysics, which seeks answers to questions about the origin, 
structure, evolution and future of the universe and to search for 
Earth-like planets. The budget request for space science is about 
$126.3 million less than the FY09 enacted budget (including the 
transfer of funding for the lunar precursor robotic program to space 
science from the Exploration Systems budget). Over the FY10-FY13 
period, the Astrophysics budget remains essentially flat, the Planetary 
Science program is reduced by approximately $100 million, and the 
Heliophysics budget decreases by about $35 million, as compared to the 
FY09 budget projection for FY10-FY13.
    Space Science topics and issues related to the FY10 budget request 
include the following:

            Program Readjustments to Reflect Budgetary Outlook
    While the previous FY09 budget request included new initiatives 
including a Mars Sample Return mission, an Outer Planets Flagship 
mission, and a Joint Dark Energy mission, among others, that could not 
realistically be accommodated within the FY09 budget proposal, the FY10 
budget plan for space science no longer includes these or other major 
new initiatives. For example, NASA selected the Europa Jupiter System 
target as the focus of an Outer Planets Flagship mission, but elected 
to proceed with technology development, further definition, and 
discussions on a potential partnership with the European Space Agency 
(ESA) on a potential future mission. The FY10 budget plan for planetary 
sciences does not include a Mars Sample Return mission. NASA officials 
have indicated their interest in working more closely with ESA on 
potential Mars missions for the 2016 and 2018 launch opportunities. In 
addition, NASA is sustaining technology development on potential 
exosolar planet detection and dark energy missions. NASA has reported 
that it will base its decisions on which missions to initiate on the 
results of the National Academies decadal surveys for astronomy and 
astrophysics and for planetary science that are expected to be finished 
in 2010 and 2011 respectively.

            Research
    The FY10 request for Planetary Sciences restructured the program to 
include a new Lunar Quest budget line, which organizes planetary 
activities in lunar science, a lunar atmosphere and dust mission, and 
an International Lunar Network activity into a single program. The FY10 
budget request for Lunar Quest is $103.6 million. The status of the 
International Lunar Network activity is pending the outcome of the 
Human Spaceflight Review that is described in a later section of the 
Charter.

            The Mars Exploration Program
    The FY10 budget requests $416 million for the Mars Exploration 
Program, an increase of about $116 million over the FY10 request in the 
previous budget submission. The NASA budget requests an increase of 
$431.3 million for Mars Exploration over the FY10-FY13 period, as 
compared to the FY09 budget request, in large part to complete work on 
the Mars Science Laboratory (MSL) mission. NASA moved MSL's launch date 
from 2009 to 2011 due to technical problems with the mission. The 
Management and Performance section of the FY10 budget request reports 
that MSL experienced a 68 percent cost growth. NASA has stated its 
interest in cooperating with ESA on future Mars missions. According to 
NASA officials, the Agency has initiated a review of the Mars 
architecture.

Aeronautics Research
    For FY 2010, NASA is requesting $507 million for aeronautics 
research, $143 million less than that enacted in FY 2009 (The FY 2009 
enacted level includes $150 million appropriated by the Recovery Act). 
The requested FY 2010 level is about $60 million greater than that 
projected for FY 2010 in last year's budget submission.
    NASA's aeronautics research directly supports the goals and 
objectives of the National Aeronautics Research and Development Policy 
signed by the President in December 2006. The budget request funds 
activities that include (1) foundational research across a number of 
core competencies that support aeronautics and space exploration 
activities; (2) research in key areas related to the development of 
advanced aircraft technologies and systems, including those related to 
aircraft safety, environmental compatibility, and fuel efficiency; and 
(3) research that supports the Next Generation Air Transportation 
System (NextGen). NextGen is a joint effort between the Federal 
Aviation Administration (FAA), NASA, and the Departments of Defense, 
Homeland Security and Commerce that will transform the entire national 
air transportation system, gradually allowing aircraft to safely fly 
more closely, reduce delays, and providing benefits for the environment 
and the economy through reductions in carbon emissions, fuel 
consumption, and noise. The aeronautics budget also funds the 
Aeronautics Test Program which encompasses the critical suite of 
aeronautics test facilities needed to conduct aeronautics research.
    In FY 2010, the Aeronautics Research Mission Directorate plans to 
realign its NextGen work to distinguish research conducted on concepts 
and technologies from that focused on systems analysis, integration, 
and evaluation. In addition, in FY 2010, NASA plans to establish a 
program of integrated, system-level focused activities, the first of 
which will be the Environmentally Responsible Aviation (ERA) Project. 
ERA's research goal will be the reduction of environmental impacts of 
aviation in terms of noise and emissions.

Human Space Flight
    NASA's Human Space Flight activities to be funded in FY 2010 
encompass completing construction of the International Space Station 
(ISS), retiring the Space Shuttle fleet upon completion of the ISS and 
delivery of the AMS to the ISS, stimulating development and 
demonstration of commercial space transportation vehicles that may 
support NASA's ISS cargo and potentially its crew requirements, and 
continuing the development of systems to deliver people and cargo to 
the ISS and the Moon and to explore other destinations. Along with the 
budget release, the Administration also announced the establishment of 
an independent review of NASA's human space flight activities. Results 
from that review will support a planned August 2009 decision on how the 
Nation's human space flight will proceed. OSTP Director John Holdren's 
May 7, 2009 letter to NASA's Acting Administrator and a recent 
communication to the Committee from NASA concerning the Human Space 
Flight Review are attached as Attachments 3 and 4 respectively.

            Space Shuttle
    NASA is requesting approximately $3.16 billion for the Space 
Shuttle Program, an increase of about $175 million over that enacted in 
FY 2009 and an increase of about $173 million from that projected for 
FY 2010 in last year's budget submission. Requested funding will enable 
the Agency to conduct an additional Shuttle mission to transport the 
Alpha Magnetic Spectrometer (AMS) per the direction of the NASA 
Authorization Act of 2008 [P.L. 110-422]. Following return of the 
Hubble servicing mission currently underway, eight Space Shuttle 
flights will remain to be flown. NASA believes these flights can be 
accomplished by the end of 2010, after which the Shuttle fleet will be 
retired.
    According to NASA, it has accounted for Shuttle transition and 
retirement costs in projected budgets for the Shuttle Program in FY 
2011 ($383 million) and FY 2012 ($88 million). This is a significant 
reduction from the multi-billion dollar cost estimate projected by NASA 
two years ago.

            International Space Station
    NASA is requesting approximately $2.27 billion for the ISS, an 
increase of about $207 million over that enacted in FY 2009 and a 
decrease of about $10 million from that projected in last year's budget 
submission for FY 2010. Since the first component of the Station was 
put in orbit in November 1998, the ISS has grown into a fully 
functioning laboratory that will shortly house an increased crew size 
of six. The recent additions of the final set of solar arrays and a 
replacement Distillation Assembly for the water recycling system make 
this increased crew size possible. NASA plans to complete assembly of 
the ISS in 2010, including the additional research capability provided 
by the AMS.
    NASA and its Russian, Japanese, European, and Canadian ISS partners 
are nearing completion of their goal of being able to conduct various 
types of research on a Space Station in Earth orbit. Some of NASA's 
work is focused on increasing knowledge of the effects of long-duration 
human space flight, which is critical for the design and operation of 
future human space vehicles to return U.S. astronauts to the Moon and 
explore other destinations. Other non-exploration-related research is 
also being conducted, as described in the next section. At present, the 
U.S. has made no final decision on whether or not to operate and 
utilize the ISS after 2015; however, the international partners have 
indicated a desire to conduct research beyond that time. The question 
of whether to operate and utilize the ISS beyond 2015 will be addressed 
by the aforementioned Human Space Flight Review.
    The ISS Cargo Crew Services budget request for FY 2010 is $628 
million, an increase of about $323 million over that enacted for FY 
2009. It is worth noting that the ISS Cargo Crew Services budget is 
projected to reach about $1.14 billion in FY 2012. This activity 
consists of International Partners and commercial purchases. NASA has 
contracted with Russia's Roskosmos to purchase cargo transportation 
through 2011 and crew transportation through the spring of 2012. NASA 
recently made awards to SpaceX and Orbital Sciences to provide cargo 
and return services beginning in 2011 under the Commercial Resupply 
Services contract.

            International Space Station Utilization
    The ISS is intended to serve as an on-orbit facility where R&D in 
support of both human exploration and non-exploration purposes and 
other exploration technologies is to be conducted. To that end, NASA is 
conducting research on the effects of long-duration space flight on 
humans, as well as examining potential countermeasures. NASA is also 
using the ISS to demonstrate advanced communications networking. For 
example, NASA is testing Disruption Tolerant Networking (DTN) software, 
a ``deep space communications network modeled on the Internet,'' 
according to a November 2008 press release issued by NASA and JPL. NASA 
is also using the ISS to experiment with Communication, Navigation and 
Networking re-Configurable Testbed (CoNNeCT), which will use software 
reprogrammable radios that can be used to support long-duration space 
exploration missions. In addition, the ISS is currently testing and 
demonstrating technologies critical for long-term exploration, such as 
various life support system technologies.
    The International Space Station National Laboratory activity allows 
other federal agencies and commercial partners to utilize research 
capacity on the ISS. NASA has signed memoranda of understanding with 
the National Institutes of Health and the USDA Agricultural Research 
Service for their potential research utilization of the ISS. A 
commercial company has been conducting research on Salmonella that is 
directed at developing a Salmonella target vaccine. According to NASA, 
non-NASA partners will be required to pay for the transportation of 
their research experiments to and from the ISS.
    The FY10 budget request for ISS research, which is bookkept in the 
Exploration Systems (ESMD) budget has been cut by about $20 million 
from the FY09 enacted budget and is projected to be relatively flat in 
the out years. The status of the research community and investigations 
that are ready to fly on the ISS will be an issue for any potential 
plans to increase the utilization of the ISS. Previous budget cuts to 
space life sciences and physical sciences research have drastically 
reduced the number of principal investigators working in these areas of 
research since FY 2004. In addition, the number of post-doctoral 
students, Ph.D., Master's and Bachelor of Science students has dropped 
precipitously since FY 2004.
    In the near future, NASA expects to increase the ISS crew from 
three to six, which will increase the crew time available for research, 
according to NASA officials. In addition, following the planned 
retirement of the Space Shuttle, opportunities to ferry research 
supplies, hardware, and samples to and from the ISS will depend on the 
availability of commercial and international cargo resupply services.

            Exploration Initiative
    President Bush proposed an exploration initiative in 2004 that 
envisioned a broad program of human and robotic exploration of the 
solar system, including completion of the ISS, development of a new 
human space transportation system, a human landing on the Moon by 2020, 
and exploration of other solar system destinations. The Congress 
authorized the exploration initiative in the NASA Authorization Act of 
2005 (P.L. 109-155) and the NASA Authorization Act of 2008 (P.L. 110-
422).
    The President's proposal for NASA's FY 2010 budget provides $3.96 
billion for Exploration Systems to fund Constellation Systems, which 
includes the development, demonstration, and deployment of the Orion 
Crew Exploration Vehicle (CEV) and the Ares I Crew Launch Vehicle (CLV) 
as well as associated ground and in-orbit infrastructure; Advanced 
Capabilities, which includes human research to support ISS and future 
exploration; a lunar precursor robotic program; microgravity research; 
and technology development to support Orion and other exploration 
programs. The funding requested for FY 2010 is an increase of about $58 
million over that enacted for FY 2009 and is about $225 million greater 
than that projected for FY 2010 in last year's President's budget 
request.
    According to NASA, its requested FY 2010 funding level of $3.50 
billion for Constellation Systems, coupled with an enacted FY 2009 
funding level of $3.43 billion, puts it in a position to achieve the 
projected Initial Operational Capability (IOC) date of March 2015 for 
the Orion/Ares I. The Orion crew exploration vehicle ($1.38 billion) 
and Ares I crew launch vehicle ($1.42 billion) form the bulk of the 
Constellation FY 2010 budget request. The FY 2010 budget request for 
the Ares V cargo launch vehicle ($25 million) and its run-out budget 
for FY 2011 through FY 2014 ($100 million total) is insufficient to 
initiate full scale development of the heavy-lift launch vehicle that 
is designed to support exploration missions beyond low-Earth orbit. In 
addition, the five-year budget plan contains no significant funding for 
the Altair lunar lander.

            Cargo and Crew Transportation
    Once the Shuttle fleet is retired, NASA will rely on a variety of 
sources to transport cargo and crew to the ISS. The Agency's Commercial 
Crew and Cargo Program, whose goal is to spur private industry to 
provide cost-effective cargo delivery to the ISS, requests about $39 
million in FY 2010; with the infusion of Recovery Act funds, the FY 
2009 enacted level was $303 million. Flight demonstrations to the ISS 
are being planned by SpaceX and Orbital Sciences for May 2010 and March 
2011 respectively. The Crew and Cargo Program is administered by the 
Exploration Systems Mission Directorate under Constellation Systems. 
The demonstration program ends in 2011.

            Human Space Flight Review
    As part of the submission of its FY 2010 NASA budget request, OSTP 
Director John Holdren announced that the Obama Administration was 
asking Mr. Norman Augustine to chair an independent review of NASA's 
planned human space flight activities. The stated goal of the review is 
``to ensure that the Nation is pursuing the best trajectory for the 
future of human space flight-one that is safe, innovative, affordable, 
and sustainable.'' The panel is to report its results by August of this 
year. According to Dr. Holdren's May 7th letter to NASA's Acting 
Administrator:

         ``The review should aim, specifically, to identify and 
        characterize a range of options that spans the reasonable 
        possibilities for continuation of U.S. human space flight 
        activities beyond retirement of the Space Shuttle. Results and 
        supporting analysis should be provided to involved 
        Administration agencies and offices in sufficient time to 
        support an August 2009 decision on the way forward. The 
        identification and characterization of options should be 
        cognizant of-and should address the implications for-the 
        following objectives: (1) expediting a new U.S. capability to 
        support utilization of the International Space Station; (2) 
        supporting missions to the Moon and other destinations beyond 
        low-Earth orbit; (3) stimulating commercial space flight 
        capabilities; and (4) fitting within the current budget profile 
        for NASA exploration activities.''

Space Communications
    The President's FY10 budget requests $496.6 million for Space 
Communications and Navigation, about $86 million less than the FY09 
enacted budget. The budget reflects the fact that NASA has largely 
completed acquisitions to replenish aging Tracking and Data Relay 
Satellite System (TDRSS) spacecraft, which are used to support 
``tracking, data, voice, and video services to the International Space 
Station (ISS), Space and Earth science missions, as well as other 
government agency users.''
    The FY10 budget request includes plans for NASA's Space 
Communications and Navigation program to demonstrate optical 
communications, which provide higher data rates and involve lower 
weight, space, and power requirements on spacecraft. Optical 
communications will help enable more science data to be transmitted to 
Earth more efficiently. NASA is planning to use a lunar dust and 
atmosphere mission, anticipated to launch in 2012, to conduct the first 
optical communications demonstration.
    The Deep Space Network (DSN) ``consists of three facilities spaced 
approximately 120 degrees apart on the globe to enable continuous 
communications to spacecraft as the Earth rotates.'' The DSN is aging 
and the GAO has raised concerns about its fragility and continuing 
ability to service a mounting workload. NASA's FY10 budget does not 
include funds for an upgrade. NASA will construct a new 34-meter beam 
waveguide antenna in Australia and maintain the existing DSN system 
while completing an analysis to support a plan for a new phased-array 
DSN system.

Education
    The President's budget proposes $126.1 million in FY10 to support 
NASA's Education program. Although the proposed FY10 budget represents 
no change in the request for FY10 made in the previous budget plan, it 
reflects a reduction of about $43 million from the FY09 enacted budget.
    The FY10 budget reflects some reorganization of education projects 
into three program areas:

        <bullet>  The Higher Ed STEM Education program includes the 
        Minority University Research and Education Program (MUREP), 
        Space Grant, and Experimental Program to Stimulate Competitive 
        Research (EPSCoR).

        <bullet>  The K-12 STEM Education program is aimed at engaging 
        and retaining students in STEM disciplines through flight 
        opportunities, hands-on science and engineering activities, and 
        the use of NASA content in teacher development resources.

        <bullet>  Informal STEM Education supports NASA Center 
        activities that respond to requests from community and other 
        informal education providers that use NASA content to engage 
        participants in STEM activities. This program also supports 
        museums, science centers, planetariums, and other venues that 
        help ``the American public understand NASA's exploration 
        mission.''

    In addition to the programs included in NASA's Office of Education, 
the Science Mission Directorate, the Aeronautics Mission Directorate, 
the Exploration Systems Mission Directorate, and the Space Operations 
Mission Directorate as well as the NASA Centers all fund educational 
projects. How NASA is coordinating education among the Office of 
Education, the Centers, and the mission directorates on education 
activities and whether that coordination is effective are potential 
issues for the hearing.

Facilities and Maintenance
    NASA's institutional investments are intended to ensure that 
facilities and field installations can meet the Agency's mission 
requirements in a safe, secure and environmentally sound manner. NASA 
is requesting $355.4 million in FY 2010 for institutional investments. 
Of that amount, about $284 million is for construction of facilities 
which provides for the construction, repair, rehabilitation, and 
modification of basic infrastructure and institutional facilities. 
Replacement and renewal projects replacing old, inefficient, and 
deteriorated buildings with energy efficient buildings will reduce 
utility usage. The remaining $71 million requested for FY 2010 is for 
environmental compliance and restoration which provides the personnel, 
services, and activities necessary to complete the cleanup of hazardous 
materials and wastes that have been released to the surface or 
groundwater at NASA installations. These activities are mandated under 
a variety of federal and State environmental laws and regulations, as 
well as legally enforceable orders and agreements.
    NASA has recently undergone a comprehensive review of its 
facilities and is developing plans to reduce and renew these critical 
assets. It is worth noting that NASA's estimate of backlogged 
facilities and maintenance requirements totals $2 billion. So while 
projected budget requests for construction and facilities rise from FY 
2011 ($326 million) to FY 2014 ($397.4 million), it is unlikely that 
such projected levels will appreciably reduce the backlog in the near 
future.
    In the 2008 NASA Authorization Act (P.L. 110-422, Section 1022), 
the Committee had expressed concern over the need for adequate 
maintenance and upgrading of NASA's facilities In that legislation, the 
NASA Administrator was directed to determine and prioritize the 
maintenance and upgrade backlog at each of NASA's Centers and 
associated facilities and ``develop a strategy and budget plan to 
reduce that maintenance and upgrade backlog by 50 percent over the next 
five years.'' The Administrator is to deliver those reports to Congress 
concurrent with the delivery of the FY 2011 budget request.

Earth-Bound Applications of NASA-Developed Technologies
    Technologies and devices developed by NASA to enable space missions 
and aeronautics research can provide societal benefits when transferred 
to terrestrial applications. For example:

        <bullet>  A resin developed by NASA for space applications was 
        licensed to a medical technology company who in turn 
        incorporated the material into its design for a left-heart 
        lead. The left-heart lead, which was recently approved by the 
        Food and Drug Administration, delivers electrical impulses 
        directly to the heart from a pacing device implanted in a 
        patient's chest. The NASA-developed resin is highly flexible, 
        resistant to chemicals, and can withstand extreme hot and cold 
        temperatures. The ``super plastic'' is biologically inert, thus 
        making it suitable for medical use, including implantable 
        devices. The NASA-developed insulation material enabled the 
        company to develop one of the thinnest left-heart leads 
        available.

        <bullet>  An electronic nose developed for monitoring air 
        quality on the International Space Station has shown promise as 
        a new weapon against brain cancer. The electronic nose, 
        developed by NASA to automatically monitor the station's air, 
        is able to detect contaminants within a range of one to 
        approximately 10,000 parts per million. In a series of 
        experiments, researchers used NASA's device to ``sniff'' brain 
        cancer cells and cells in other organs. Their data demonstrated 
        that the electronic nose can sense differences in odor from 
        normal versus cancerous cells. These experiments will help pave 
        the way for more sophisticated biochemical analysis and 
        experimentation.

    Transfer of NASA technology to the private sector is performed by 
NASA's Innovative Partnerships Program. The agency's view is that 
advancing technology through partnerships enables it to address its own 
needs and apply NASA-derived technology to a range of applications that 
can provide broad benefit to the public. The program consists of three 
elements: Technology Infusion, Innovation Incubator, and Partnership 
Development. For FY 2010, NASA is requesting $184.8 million for the 
Innovative Partnerships program, an increase of about $25 million over 
that enacted in FY 2009 and an increase of about $3 million from that 
projected for FY 2010 in last year's budget submission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. This hearing will come to order, and good 
afternoon, and welcome. Mr. Scolese, we are glad you are here, 
and Mr. Hall is here, too. We are--just to let everyone know, 
at 2:30 or hopefully more of a quarter until votes will start 
on the Floor we are told, and there will be a series of them, 
so it goes for awhile, and so what we are hoping to do is be 
able to have a good hearing here before so we don't hold 
everybody up. And Mr. Hall concurs, and we are glad of that.
    So before I go any further I would just like to take a 
moment and express my appreciation for your service over these 
past few months. You were handed a very challenging job when 
you were asked to serve as our Acting Administrator for NASA, 
and by all accounts you have handled your responsibility with 
distinction as you have done your previous jobs there. It is a 
clear reflection of your competence and skill, but it is also I 
think an indication of the high caliber of civil service 
employees at NASA.
    And so we have seen the competence on display over the past 
few days as a crew of seven NASA astronauts has worked to 
service the Hubble Space Telescope to the extent its ability to 
conduct productive science. At the same time three crew members 
are operating overhead in the International Space Station with 
their own set of complex tasks to carry out, and we have seen 
multiple examples of the value of NASA science research that 
has helped us to better understand both climate change here on 
Earth and events in the far reaches of the universe.
    And we have seen NASA-funded aeronautics R&D transform the 
Nation's commercial and military aviation capabilities over the 
past five decades, yet it has become clear in recent years that 
resources given to NASA haven't kept pace with the tasks that 
the Nation has asked it to carry out.
    That is why this committee and ultimately Congress as a 
whole passed the NASA Authorization Act of 2008, which 
authorized a significant increase in funding for NASA, and I am 
very pleased that the Obama Administration has responded to 
that Congressional consensus by supporting augmented funding 
for NASA in both the Recovery Act and the fiscal year 2010, 
budgetary request.
    It is a welcome recognition that NASA is relevant to 
address the Nation's societal needs and is an important 
contributor to our scientific and technical competitiveness. 
That is good news.
    However, more needs to be done if the positive steps taken 
by this Administration are going to be sustained. For example, 
it is clear that the flat-funded proposal for NASA after fiscal 
year 2010 would make it very difficult to make progress on a 
number of important programs, including the Exploration 
Initiative that was endorsed by Congress in the last two NASA 
Authorizations Acts.
    And while I hope and expect that the human space flight 
review that is going to be conducted under the very able 
leadership of Norm Augustine will help clarify what is needed 
to keep that important initiative on track, I think the basic 
situation is already clear. Either the Nation is going to have 
to give NASA enough funding to meet the dual challenges of 
carrying out its current and planned missions and of 
revitalizing the Agency's human and physical capital, or the 
Nation is going to have to agree on what it wants NASA to cut.
    As the overwhelming bipartisan support of--for the NASA 
Authorization Act of 2008 demonstrates, Congress believes that 
NASA is an important contributor to America's future, well-
being, and worthy of our increased investment in it. At the 
same time I don't view investing in NASA as a blank check. This 
committee is going to be vigilant in seeking to ensure that 
NASA is a good steward of taxpayer dollars.
    Indeed, the first hearing of Chairman Giffords' Space and 
Aeronautics Subcommittee earlier this year was on NASA's cost 
management practices, and I have no doubt the Committee will 
continue our oversight on these issues in the months ahead.
    So we are going to go forward with the Reauthorization of 
NASA this year, and we need to have a good understanding of the 
issues and opportunities facing the Agency in the wake of the 
President's budget request. Today's hearing is the first step 
in that progress--in that process, and I, again, want to 
welcome Acting Administrator Scolese for your participation and 
look forward to your testimony.
    And now I recognize Mr. Hall for an opening statement.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good afternoon, and welcome Mr. Scolese.
    Before I go any further, I'd just like to take a moment to express 
my appreciation for your service over these past several months.
    You were handed a very challenging job when you were asked to serve 
as Acting Administrator of NASA, and by all accounts you have handled 
your responsibilities with distinction.
    That's clearly a reflection on your competence and skill.
    But it's also an indication of the high caliber of the civil 
service employees we have at NASA, of which you are one.
    We've seen that competence on display over the past few days as a 
crew of seven NASA astronauts has worked to service the Hubble Space 
Telescope to extend its ability to conduct productive science.
    At the same time, three crew members are orbiting overhead in the 
International Space Station, with their own set of complex tasks to 
carry out.
    We're seeing multiple examples of the value of NASA scientific 
research that has helped us better understand both climate change here 
on Earth and events in the far reaches of the universe.
    And we've seen NASA-funded aeronautics R&D transform the Nation's 
commercial and military aviation capabilities over the past five 
decades.
    Yet it's become clear in recent years that the resources given to 
NASA haven't kept pace with the tasks that the Nation has asked it to 
carry out.
    That's why this committee and ultimately Congress as a whole passed 
the NASA Authorization Act of 2008, which authorized a significant 
increase in funding for NASA.
    I'm very pleased that the Obama Administration has responded to 
that congressional consensus by supporting augmented funding for NASA 
in both the Recovery Act and in the FY 2010 NASA budget request.
    It's a welcome recognition that NASA is relevant to addressing the 
Nation's societal needs and is an important contributor to our 
scientific and technical competitiveness.
    That's good news.
    However, more needs to be done if the positive steps taken by this 
Administration are going to be sustained.
    For example, it is clear that the flat-funding proposed for NASA 
after FY 2010 would make it very difficult to make progress on a number 
of important programs, including the exploration initiative that was 
endorsed by Congress in the last two NASA Authorization Acts.
    While I hope and expect that the Human Space Flight Review that is 
going to be conducted under the very able leadership of Norm Augustine 
will help clarify what is needed to keep that important initiative on 
track, I think the basic situation is already clear.
    Either the Nation is going to have to give NASA enough funding to 
meet the dual challenges of carrying out its current and planned 
missions and of revitalizing the Agency's human and physical capital . 
. ..
    Or, the Nation is going to have to agree on what it wants NASA to 
cut.
    As the overwhelming bipartisan support for the NASA Authorization 
Act of 2008 demonstrated, Congress believes that NASA is an important 
contributor to America's future well-being, and worthy of our increased 
investment in it.
    At the same time, I don't view investing in NASA as a blank check--
this committee is going to be vigilant in seeking to ensure that NASA 
is a good steward of taxpayer dollars.
    Indeed, the first hearing of Chairwoman Giffords' Space and 
Aeronautics Subcommittee earlier this year was on NASA's cost 
management practices, and I have no doubt the Committee will continue 
our oversight of those issues in the months ahead.
    We are going to be reauthorizing NASA this year, and we need to 
have a good understanding of the issues and opportunities facing the 
Agency in the wake of the President's budget request.
    Today's hearing is the first step in that process, and I again want 
to welcome Acting Administrator Scolese's participation.
    We look forward to your testimony.

    Mr. Hall. Mr. Chairman, in the interest of time I will not 
present my entire statement. I ask unanimous consent that it be 
put in the record.
    I just want to thank you. You have pretty well--you have 
very well covered the opening statements for both of us, but I 
want to thank you for holding this hearing. And 2010, as you 
know and we all realize, is a very pivotal year for our Space 
Program, and this is a very important opportunity to hear from 
NASA and seek answers to a lot of questions.
    I would like to also welcome our witness, Acting NASA 
Administrator. Chris, thank you. You have been doing a 
difficult job under challenging circumstances, and thank you 
for your dedication.
    I will skip on over and just say NASA is one area of the 
federal budget where I think some increases are justified. 
Three percent sounds like a lot to a lot of people, but that is 
a very small budget for anything as important as NASA is to 
this country. We may just defend the next war out of space. We 
have got to be ready for those things, and NASA is so very 
important to us. The Administration has called for an 
independent review of human space flight to be chaired by Norm 
Augustine, and the President couldn't have picked a better 
person for that, a more knowledgeable person for it. I had a 
visit with him this morning, and I am sure that he visited the 
Chairman before he came to my office, but he is a great 
American and outstanding person to make that study for you, and 
let me tell you, he will call it like it is, and he will call 
it like he sees it. So we are very lucky to have him doing 
that.
    And NASA is still on the path to complete the remaining 
Shuttle missions, including an additional flight to deliver the 
Alpha-Magnetic Spectrometer. Hell, I can't say anything. And 
then retire the Shuttle without having developed a new 
capability to get independently to and from the ISS. That is 
one of the major problems, and we are hoping that Norm is going 
to give us some answers to that.
    And I am very concerned that the budget has deleted nearly 
all of the out-year funding for the lunar landing, and for the 
heavy-lift Constellation launch vehicle that is necessary to 
get us out of the lower orbit. The Exploration Program needs 
stability in growth and can't be--has to be properly funded, 
which I don't think they are.
    I just close by saying American companies have until 
recently led the world in the production of leading-edge 
technology and aviation communications, surveillance and 
navigation services. I am aware that under-investing in these 
disciplines are going to be--and I don't know how many years to 
say, but really come home to haunt us. We are making a mistake. 
I hope you can lead us out of that mistake.
    Look forward to hearing you. Thank you, Mr. Chairman. I 
yield back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    Mr. Chairman, I want to thank you for holding this hearing on 
NASA's Fiscal Year 2010 Budget Request. 2010 is a pivotal year for our 
space program, and this is an important opportunity to hear from NASA 
and seek answers to a wide-range of questions.
    I would also like to welcome our witness, Acting NASA Administrator 
Chris Scolese who has been doing a difficult job under challenging 
circumstances. Thank you for your dedication and commitment.
    NASA gives our country so much to be proud of. Right now, 350 miles 
up, Shuttle astronauts are wrapping up an extraordinary mission. They 
salvaged a multi-billion dollar Space Science mission by repairing the 
Hubble Space Telescope during a series of complicated and dangerous 
spacewalks. This mission showcases the unique capabilities of the Space 
Shuttle which will be lost after it is retired. This is a very daring 
mission, and the men and women we send into space put their lives on 
the line. They deserve our support, and they deserve the best equipment 
and training we can provide.
    NASA is one area of the federal budget where I think some increases 
are justified. While we do not need to add more money to the ballooning 
deficit, we should prioritize federal spending on programs that yield 
great returns--and NASA is one of those programs. I am encouraged that 
NASA's FY 2010 budget request of $18.7 billion is about five percent 
above last year's appropriation, but as I said to Dr. Holdren last 
week, I am very concerned that priorities may be shifting away from 
human space exploration at a very critical time. The Administration has 
called for an independent review of Human Space Flight to be chaired by 
Norm Augustine that is expected to make recommendations later this 
summer. There are many questions that should be answered including 
about whether to extend the International Space Station beyond 2016. 
The ISS is a valuable National Laboratory and we should be seeking new 
and innovative research to perform there well into the future.
    NASA is still on a path to complete the remaining Shuttle missions, 
including an additional flight to deliver the Alpha-Magnetic 
Spectrometer (AMS) to the ISS, and then retire the Shuttle without 
having developed a new capability to get independently to and from the 
ISS. In the resulting gap we stand to lose a highly skilled workforce 
and a number of accompanying parts suppliers and other contractors that 
we cannot afford to lose--as we did between Apollo and Shuttle.
    Mr. Chairman, I am also very concerned that this budget has deleted 
nearly all the out-year funding for the Lunar Lander and for the heavy-
lift Constellation launch vehicle that is necessary to get us out of 
low-Earth orbit. The Exploration program needs stability and growth and 
cannot be the bill-payer for the rest of the Agency.
    Moreover, NASA's science and aeronautics programs, like the 
Agency's top line, show little growth, with the exception of Earth 
Science and Heliophysics. Just like human space flight, these important 
research programs are financially stressed, experiencing cost growth 
that far exceed increases in their respective budget lines. We are at 
risk of launching fewer and fewer research missions, and I am concerned 
we will lose the research infrastructure that has been so important to 
NASA, but is also a source of important new technologies for American 
commerce, especially for our satellite and aerospace industries. 
American companies have, until recently, led the world in the 
production of leading-edge technologies in aviation, communications, 
surveillance, and navigation services. I worry that under-investing in 
these disciplines will--in 10 to 15 years time--really come back to 
haunt us.
    Mr. Chairman, we have a lot of issues to discuss today. I look 
forward to a productive hearing.

    Chairman Gordon. Thank you, Mr. Hall. I certainly concur 
with your comments.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the NASA Fiscal Year 2010 (FY10) Budget Request.
    NASA has requested $18.7 billion in funding for FY10, an increase 
of 5.1 percent over Fiscal Year 2009 (FY09). I am pleased to see that 
the FY10 budget request continues to address the budget shortfalls NASA 
saw during the previous Administration and to make steps towards 
fulfilling the Vision for Space Exploration introduced by President 
Bush in 2004. However, the budget projects relatively flat funding 
through Fiscal Year 2013, which may negatively impact NASA's ability to 
fulfill its complex, important, and broad-ranging mission. I look 
forward to discussing how NASA can continue to fulfill its mission 
under this projected budget.
    I have three specific concerns about the NASA budget request for 
FY10. First, as a strong supporter of STEM education, I was concerned 
to see a $43 million reduction in funding for STEM programs. I support 
NASA's decisions to reorganize and streamline STEM education projects 
into three program areas, and I am pleased to see that NASA will 
continue to contribute to STEM projects at every level of education. 
However, I believe these programs need more financial support than 
requested in the FY10 budget. I would like to hear from Administrator 
Scolese how this committee can work with NASA to ensure that this 
decrease in funding does not impact access to STEM education for 
American students.
    Second, as the Chairman of the Aviation Subcommittee, I am pleased 
to see that NASA will continue to invest in aeronautics research, 
particularly the Next Generation Air Transportation System (NextGen). 
In particular, I support NASA's decision to redesign its research 
efforts and distinguish between technology development and research on 
integration and evaluation. However, the FY10 budget proposes a $143 
million decrease in funding for NASA's work on NextGen. I do not 
support reducing this funding, in particular because NASA contributes 
vital research on aviation safety and environmental impact to the 
program. I would like to hear from Administrator Scolese how the 
decrease in the Aeronautics budget will impact NASA's role in NextGen.
    Third, I am concerned about the continued cost growth and schedule 
delays that plague NASA projects. NASA remains on the GAO watch list 
for agencies at a high risk for contract management, and despite 
efforts to improve the budget process within the Agency, an independent 
auditor could not come to any conclusion on the Agency's financial 
statements because of serious problems in its financial reporting. 
These problems make NASA inefficient, and as we discussed in an Energy 
and Environment Subcommittee hearing last month these continued delays 
and cost increases limit the Agency's ability to update technology and 
remain on the cutting edge of space exploration and research. I would 
like to hear from Administrator Scolese what long-term and short-term 
strategies NASA has in place to address these problems.
    I welcome Administrator Scolese, and I look forward to his 
testimony.
    Thank you again, Mr. Chairman.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Today we will discuss NASA's Fiscal Year 2010 Budget Request, 
NASA's proposed Fiscal Year 2009 Operating Plan, and use of funds 
through the American Recovery and Reinvestment Act.
    NASA conducts vital research and development projects that help us 
learn about our surroundings.
    Arizona State University, which is located in my District, is home 
to researchers who work on many of these important NASA research 
projects.
    To maintain America's competitiveness in science and technology, we 
must do more than merely keep up. We must lead, and commit ourselves to 
providing the resources necessary to keep us at the forefront of this 
kind of cutting edge research and development.
    I look forward to hearing more from our witnesses.
    I yield back.

    Chairman Gordon. Where we are is that the votes have 
started earlier than we thought, so Mr. Scolese, I think the 
thing to do is for you to go forward, make your statement, and 
then we will try to make you comfortable here while we go vote 
and come back as quickly as we can.
    And so let me now call upon our witness today, Mr. 
Christopher Scolese, who is the Acting Administrator, as well 
as the Associate Administrator, of the National Aeronautics and 
Space Administration.
    And you are recognized for five minutes or the time you may 
consume.

STATEMENT OF MR. CHRISTOPHER J. SCOLESE, ACTING ADMINISTRATOR, 
      NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Mr. Scolese. Okay. Thank you, sir. Chairman Gordon, Ranking 
Member Hall, and Members of the Committee, thank you for 
inviting me here today to discuss the President's fiscal year 
2010 budget request for NASA. The President's request of 
$18.686 billion for NASA represents an increase of $903.6 
million above the fiscal year 2009 Omnibus Appropriation.
    First, let me note that NASA's fiscal year 2009 budget is 
$18.784 billion or about $1.17 billion above the fiscal year 
2009 request, which reflects and increase of $168.2 million in 
the regular appropriation and about $1 billion in the Recovery 
Act. NASA is appreciative of the support of this committee and 
Congress for the NASA Authorization Act of 2008 full funding of 
the fiscal year 2009 request, and for the additional Recovery 
Act funds which will enable NASA to meet critical priorities.
    The President's fiscal year 2010 request includes $4.5 
billion for science. In Earth science, NASA is continuing to 
work aggressively to implement the recommendations of the 
Decadal Survey. The first four Decadal missions will be 
accelerated, and NASA will issue its first venture class 
announcement of opportunity later this year.
    Over the next year we plan to launch the Glory and Aquarius 
missions and the GOES-R mission for NOAA and complete the 
NPOESS Preparatory Project. Further, we will continue 
development of the foundational missions, including the Global 
Precipitation Mission, the Landsat Data Continuity Mission, and 
initiate work on the Thermal Infrared Sensor. NASA is further 
assessing options to recover from the disappointing loss of the 
Orbiting Carbon Observatory and will keep you informed of our 
findings and plans.
    In planetary science, we are continuing the exploration of 
the solar system with the Juno Mission to Jupiter and the Mars 
Science Laboratory and the MAVEN Scout Mission.
    In astrophysics, I am pleased to report that the final 
Hubble Servicing Mission, EBA, was completed yesterday, and 
this morning the Space Shuttle successfully released a 
revitalized Hubble Space Telescope. We look forward to the safe 
return of the crew and to many more years of discovery from 
Hubble.
    Development continues on the James Webb Space Telescope, 
which passed its confirmation review in 2008, and has an agency 
commitment to launch in 2014. NASA's fleet of Heliophysics 
Missions strategically placed throughout the solar system is 
providing researchers the first ever solar system-wide view of 
solar influences on Earth and other planets. The fiscal year 
2010 request of $507 million renews NASA's commitment to a 
strong national program in aeronautics that will continue to 
contribute to the economic wellbeing and quality of American--
of life of American citizens through strong partnerships with 
industry, academia, and government.
    In exploration, the President's fiscal year 2010 budget 
request is $3.963 billion, an increase of $457.6 million above 
the fiscal year 2009 Omnibus Appropriations level and $225.4 
million above last year's plan. This increased budget will 
support continued progress in NASA's efforts to advance the 
development of the Next Generation Human Space Flight System to 
carry American crews and supplies to space and work to return 
Americans to the Moon.
    Specifically, the Lunar Reconnaissance Orbiter and the 
Lunar Crater Observation Sensing Satellite Spacecraft are ready 
for launch next month. Later this year, two major test flights 
will be conducted; the Ares I-X developmental test flight from 
Kennedy Space Center and the Orion Pad Abort 1 test at White 
Sands.
    At the request of the director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of 
U.S. human space flight plans to be conducted by a blue ribbon 
panel of outside experts chaired by Norm Augustine. The review 
will examine ongoing and planned NASA human space flight 
development activities, as well as potential alternatives and 
present options for advancing safe, innovative, sustainable, 
and affordable human space flight program in the years 
following the retirement of the Space Shuttle. It will also 
evaluate options for extending the life of the ISS beyond 2016 
and present its results by August, 2009.
    During the review, the NASA workforce will continue to work 
on all current exploration projects including Ares I. The 
President's budget request includes $6.176 billion for space 
operations, which funds safe flight of the Space Shuttle to 
complete the eight remaining scheduled flights to the ISS and 
then retire the Shuttle. We believe these flights can be 
accomplished by the end of 2010.
    This month ISS will host its first six-person crew and next 
month will deliver the third and final component of the 
Japanese Kibo Laboratory. Last December, NASA awarded two 
commercial re-supply services contracts to develop vehicles 
needed to deliver supplies and experiments to the ISS.
    Finally, the 2010 request supports NASA's education program 
to continue developing a future aerospace technical and 
scientific workforce, improving the technological 
competitiveness of our nation's universities and attracting and 
retaining students in science, technology, engineering, and 
mathematics disciplines. This request also funds NASA's cross-
agency support programs, which provide critical mission support 
activities necessary to ensure the efficient and effective 
operation and administration of the Agency and its centers.
    Chairman Gordon, thank you again for your support and that 
of this committee. I would be pleased to respond to any 
questions that you may have.
    [The prepared statement of Mr. Scolese follows:]

              Prepared Statement of Christopher J. Scolese

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today to discuss the President's FY 2010 budget 
request for NASA. The President's FY 2010 budget request for NASA is 
$18.686 billion. The FY 2010 request represents an increase of $903.6 
million above the amount provided for NASA in the FY 2009 Omnibus 
Appropriations Act (P.L. 110-8). The FY 2010 budget does a number of 
things: it supports the Administration's commitment to deploy a global 
climate change research and monitoring system; it funds a strong 
program of space exploration involving humans and robots with the goal 
of returning Americans to the Moon and exploring other destinations; 
and it supports the safe flight of the Space Shuttle to complete 
assembly of the International Space Station by the Space Shuttle's 
planned retirement.

Highlights of the FY 2010 Budget Overview

    With the FY 2010 budget request, NASA advances global climate 
change research and monitoring. The NASA investment in Earth science 
research satellites, airborne sensors, computer models and analysis has 
revolutionized scientific knowledge and predictions of climate change 
and its effects. Using the National Research Council's recommended 
priorities for space-based Earth science research as its guide, NASA 
will develop new space-based research sensors in support of the 
Administration's goal to deploy a global climate research and 
monitoring system. NASA will work to deploy these new sensors 
expeditiously while coordinating with other federal agencies to ensure 
continuity of measurements that have long-term research and 
applications benefits.
    The FY 2010 NASA request funds a robust program of space 
exploration involving humans and robots. NASA's astronauts and robotic 
spacecraft have been exploring our solar system and the universe for 
more than 50 years. The Agency will create a new chapter of this legacy 
as it works to return Americans to the Moon by 2020. NASA also will 
send a broad suite of robotic missions to destinations throughout the 
solar system and develop a bold new set of astronomical observatories 
to probe the mysteries of the universe, increasing investment in 
research, data analysis, and technology development in support of these 
goals.
    With the FY 2010 request, NASA will complete the International 
Space Station (ISS) and advance the development of new space 
transportation systems and the unique scientific research that can be 
conducted on-board the ISS. The FY 2010 budget request funds for the 
safe flight of the Space Shuttle to complete the ISS, incorporates an 
additional flight to deliver the Alpha Magnetic Spectrometer (AMS) to 
the ISS, and then retires the Shuttle. NASA is committed to completing 
these nine remaining scheduled Shuttle flights, including the current 
mission underway to service the Hubble Space Telescope, which we 
believe can be accomplished by the end of 2010. Funds freed from the 
Shuttle's retirement will enable the Agency to support development of 
systems to deliver people and cargo to the ISS and the Moon and explore 
other destinations. As part of this effort, NASA will stimulate 
private-sector development and demonstration of vehicles that may 
support the Agency's human crew and cargo requirements for ISS. In 
addition, the Agency will continue to utilize the ISS, the permanently 
crewed facility orbiting Earth that enables the Agency to develop, 
test, and validate critical space exploration technologies and 
processes, and to conduct microgravity research. NASA also will 
continue to coordinate with international partners to make this 
platform available for other government entities, commercial industry, 
and academic institutions to conduct research.
    At the request of the Director of the Office of Science and 
Technology Policy, NASA is initiating an independent review of planned 
U.S. human space flight activities, with the goal of ensuring that the 
Nation is on a vigorous and sustainable path to achieving its boldest 
aspirations in space. This review will be conducted by a blue-ribbon 
panel of outside experts chaired by Norman R. Augustine. The panel will 
present its results in time to support an Administration decision on 
the way forward by August 2009. This Review of U.S. Human Space Flight 
Plans will examine ongoing and planned NASA human space flight 
development activities, as well as potential alternatives, and present 
options for advancing a safe, innovative, affordable, and sustainable 
human space flight program in the years following completion of the 
current Space Shuttle manifest and retirement. The independent review 
panel will seek input from Congress, the White House, the public, 
industry, and international partners. In addition, the review will 
examine the appropriate amount of R&D and complementary robotic 
activities needed to make human space flight activities most productive 
and affordable over the long-term, as well as appropriate opportunities 
for international collaboration. It will also evaluate what 
capabilities would be enabled by each of the potential architectures 
considered. And it will evaluate options for extending International 
Space Station operations beyond 2016. We will keep the Congress 
informed, as appropriate, with the progress of the review.
    It is important to note that the President has submitted a FY 2010 
budget request for NASA Exploration Systems of $3.963 billion, an 
increase of $457.6 million above the FY 2009 Omnibus Appropriations 
level. During the review, the NASA workforce will continue to focus on 
the safe flight and operation of the Space Shuttle and ISS, and 
continue to work on all current exploration projects, including Ares I, 
Orion, and Commercial Crew and Cargo efforts.
    The President's FY 2010 budget request includes $507 million for 
Aeronautics Research, renewing NASA's commitment to cutting-edge, 
fundamental research in traditional and emerging disciplines to help 
transform the Nation's air transportation system and to support future 
aircraft. NASA research will increase airspace capacity and mobility, 
enhance aviation safety, and improve aircraft performance while 
reducing noise, emissions, and fuel consumption. The Integrated Systems 
Research Program, a new program beginning in FY 2010, will conduct 
research at an integrated system-level on promising concepts and 
technologies and explore, assess, and demonstrate the benefits in a 
relevant environment.
    Finally, consistent with Administration priorities, NASA is 
developing plans to stimulate innovation and increase investments in 
technologies for the future while ensuring that nearer-term Agency 
commitments are met.

NASA Initial FY 2009 Operating Plan and Recovery Act Funding

    Before I highlight key accomplishments and plans for activities 
across the Agency, I would like to summarize NASA's initial FY 2009 
Operating Plan, including Recovery Act funding, as recently submitted 
to the Committee. The initial FY 2009 Operating Plan is $18,784.4 
million, or $1,170.2 million above the President's FY 2009 request, 
which reflects an increase of $168.2 million in the regular 
appropriation and $1,002.0 million in the Recovery Act. NASA is 
appreciative of the action by the Committees on Appropriations and 
Congress in providing regular appropriations for the Agency with full 
funding for Science, Aeronautics, Exploration, Space Shuttle, ISS, and 
Education. This total FY 2009 appropriations level, with minor 
adjustments within the total, will enable NASA to meet critical 
priorities, in accordance with the direction from the Congress and the 
President. NASA also appreciates the efforts by the Committees to 
include funding for NASA in the Recovery Act. This funding will help 
NASA achieve programmatic goals in Science, Exploration and 
Aeronautics, and repair damage done to the NASA Johnson Space Center 
during Hurricane Ike, and support national recovery goals.
    NASA has allocated the $1,002.0 million in Recovery Act funds as 
follows:

        <bullet>  Science, $400.0M

                  Earth Science, $325.0M

                  Astrophysics, $75.0M

        <bullet>  Aeronautics, $150.0M

        <bullet>  Exploration, $400.0M

                  Constellation Systems, $250.0M

                  Commercial Crew & Cargo, $150.0M

        <bullet>  Cross Agency Support, $50.0M

        <bullet>  Inspector General, $2.0M

    I would be happy to address the objectives to which NASA is 
applying the Recovery Act funds in detail.

Science

    NASA's Science Mission Directorate continues to expand humanity's 
understanding of our Earth, our Sun, the solar system and the universe 
with 57 science missions in operation and 31 more in development. The 
Science budget funds these missions as well as the research of over 
3,000 scientists and their students across the Nation. The President's 
FY 2010 request for NASA includes $4,477.2 million for Science.
    The Science budget request includes $1,405.0 million for Earth 
Science in FY 2010, and steadily increases Earth science funding in the 
outyears. NASA's 15 Earth Science missions in operation provide a large 
share of the global observations used for climate change research in 
the United States and elsewhere. This year, NASA's Earth Science 
satellites enabled research to understand how changes both in the 
tropics and in Arctic sea ice are changing ocean biology globally. NASA 
also recently conducted the first Ice Bridge aircraft campaign to 
demonstrate a new airborne laser capability to bridge the gap in time 
between ICESats 1 and 2. In FY 2010, NASA plans to launch the Glory 
mission to map atmospheric aerosols and continue the long record of 
solar influences on climate, and the Aquarius mission to provide the 
first global measurements of sea surface salinity. NASA will complete 
development of the NPOESS Preparatory Project and continue development 
of the Global Precipitation Mission and the Landsat Data Continuity 
Mission (LDCM). The request fully funds development of a Thermal Infra-
red Sensor (TIRS) at a total cost of approximately $150-175 million. A 
decision whether to fly TIRS on LDCM or another spacecraft will be made 
this summer; meanwhile, funding for TIRS is carried within the LDCM 
budget. The launch vehicle failure of the Orbiting Carbon Observatory 
(OCO) was a significant loss to the climate science communities, and 
NASA is assessing options to recover from that loss; we will inform the 
Congress of the results of these studies when they become available. 
NASA is continuing to work aggressively to implement the 
recommendations of the National Research Council Decadal Survey for 
Earth Science. The first two Decadal Survey missions, SMAP and ICESat-
II, will continue formulation in FY 2010, and the next two, DESDynI and 
CLARREO, will be accelerated and transition to formulation. NASA also 
expects to issue its first Venture-class Announcement of Opportunity 
later this year, implementing another important decadal survey 
recommendation.
    The FY 2010 Science budget request includes $1,346.2 million for 
Planetary Science. NASA's Planetary Science missions continue to return 
images and data from the far reaches of the Solar System. This year, 
the Mars Phoenix Lander completed its mission, conducting the first 
chemical test providing evidence of water ice on another planet. 
MESSENGER returned stunning imagery of portions of the planet Mercury 
never before seen. The Cassini spacecraft continues to provide un-
paralleled science of the Saturnian system; the spacecraft flew within 
25km of Enceladus viewing the ejecting plumes and surface, and data 
from 19 fly-bys of Titan enabled creation of a radar map showing 3-D 
topography revealing 1,200-meter (4,000-foot) mountain tops, polar 
lakes, vast dunes, and thick flows from possible ice volcanoes. 
Development is continuing on the Juno mission to Jupiter for launch in 
2011. NASA and ESA jointly announced they will work together on a 
Europa Jupiter System mission as the next outer planets flagship 
mission. The rovers Spirit and Opportunity continue to study the 
Martian surface and have exceeded their fifth year of successful 
operations. NASA is continuing development of the Mars Science 
Laboratory (MSL) for launch in 2011 and selected MAVEN, a Mars aeronomy 
mission, as the next Mars Scout mission for launch in 2013. NASA has 
integrated its lunar science research program with the Lunar Precursor 
Robotic Program into a single Lunar Quest Program under the Science 
Mission Directorate, which includes the LADEE mission, the U.S. nodes 
of the ILN, and a new virtual university research collaboration called 
the NASA Lunar Science Institute. The Moon Mineralogy Mapper (M3) was 
launched aboard Chandrayaan-1 and has begun making scientific 
observations of the Moon's composition. Development is continuing on 
the GRAIL mission to map the Moon's gravity field for launch in 2011. 
NASA has issued an Announcements of Opportunity for the next New 
Frontiers mission, and will do so for the next Discovery mission later 
this year.
    The FY 2010 Science budget request includes $1,120.9 million for 
Astrophysics. 2009 is the International Year of Astronomy, and NASA's 
Astrophysics program will deploy exciting new capabilities for studying 
the cosmic frontier. The Kepler mission, launched in March, is NASA's 
first mission dedicated to the search for Earth-like planets in our 
galaxy. ESA will launch the Herschel and Planck missions in April, 
carrying several NASA instruments, to study the far-infrared sky and 
the cosmic microwave background. The final Hubble Space Telescope 
serving mission aboard STS-125, currently in progress, is upgrading the 
observatory to its peak scientific performance. Late this calendar 
year, NASA plans to launch the Wide-field Infrared Survey Explorer 
(WISE) as part of its highly successful Explorer Program, following on 
the recent successes of the Fermi Gamma-ray Space Telescope (launched 
as GLAST in July 2008), which has provided the best-ever view of the 
gamma-ray sky revealing energetic sources in our solar system, our 
galaxy, and galaxies billions of light-years away. Development is 
continuing on the James Webb Space Telescope, which passed its 
Confirmation Review in 2008 and has an Agency commitment to launch in 
2014. Development continues on the NuSTAR mission to study black holes 
for launch in 2011, along with a Soft X-ray Spectrometer to fly on 
Japan's Astro-H mission in 2013. Development continues on the airborne 
Stratospheric Observatory for Infrared Astronomy or SOFIA, which will 
conduct open door flight tests in 2009 and early science flights in 
2010, with planned full operational capability in 2014. Conceptual 
design is continuing for ambitious future mission concepts to 
investigate the origins of planets, stars, and galaxies; to search for 
Earth-like planets around nearby stars; and to examine the nature of 
dark energy, dark matter, gravity waves, and black holes. These and 
other mission concepts are currently under consideration by the NRC's 
decadal survey for Astrophysics, or Astro2010, which will be completed 
during 2010, and will provide recommendations to NASA on the science 
community's highest priority science questions and strategic missions 
for the next decade.
    The FY 2010 Science budget request includes $605.0 million for 
Heliophysics. The fleet of NASA Heliophysics missions strategically 
placed throughout the solar system is providing researchers the first 
ever solar system-wide view of solar influences on the Earth and other 
planets, and the dynamic structures of space itself. This virtual 
``Great Observatory'' is in place and functioning for the next solar 
magnetic activity cycle, and has already detected the first signs of a 
new solar maximum anticipated for 2011-2012. Late this year or early 
next, the launch of Solar Dynamics Observatory will add to this fleet 
the capability to observe the solar atmosphere to a depth one-third of 
the Sun's radius to study the flow of plasmas that generate magnetic 
fields and the sudden changes that produce coronal mass ejections that 
we experience as space weather. Also this year, NASA plans to select 
two Small Explorer (SMEX) missions in response to an Announcement of 
Opportunity issued in 2008, which could be either Heliophysics or 
Astrophysics missions depending on the proposals selected. Development 
of the Radiation Belt Storm Probes mission to study the interactions of 
space weather events with Earth's magnetic field is continuing for 
launch in 2012. The Magnetosphere Multi-Scale mission to observe the 
processes of magnetic reconnection, energetic particle acceleration, 
and turbulence in Earth's magnetosphere will undergo a Confirmation 
Review this year for a planned launch in 2014. Finally, NASA is 
continuing early formulation work on the Solar Probe-Plus mission that 
will travel into, and sample, the near-Sun environment to probe the 
origins of the solar wind.

Aeronautics Research

    NASA's FY 2010 budget provides $507 million for Aeronautics 
Research. Over the past year, the Aeronautics Research Mission 
Directorate has continued to pursue long-term, innovative, and cutting-
edge research that develops revolutionary tools, concepts, and 
technologies to enable a safer, more flexible, environmentally 
friendly, and more efficient national air transportation system. NASA 
Aeronautics Research also plays a vital role in supporting NASA's space 
exploration activities.
    A primary goal across Aeronautics Research programs is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements (SAAs) for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas. To date, 68 SAAs have 
been established with industry partners across all programs and 375 
NRAs have been awarded to academia, industry and non-profit 
organizations. NASA Aeronautics has continued to collaborate with the 
Joint Planning Development Office (JPDO), Federal Aviation 
Administration (FAA), U.S. Air Force, Army, and other government 
organizations.
    New for FY 2010, $62.4 million has been provided for the Integrated 
Systems Research Program (ISRP) to conduct research at an integrated 
system-level on promising concepts and technologies and explore, 
assess, or demonstrate the benefits in a relevant environment. The 
research in this program will be coordinated with on-going, long-term, 
foundational research within the three other research programs, and 
will be closely coordinated with other Federal Government agency 
efforts. The project within ISRP will be the Environmentally 
Responsible Aviation (ERA) Project, a ``green aircraft initiative,'' 
that will explore and assess new vehicle concepts and enabling 
technologies through system-level experimentation to simultaneously 
reduce fuel burn, noise, and emissions. The ERA project will transfer 
knowledge outward to the aeronautics community so that aircraft and 
propulsion system manufacturers can confidently transition these 
technologies into new products, as well as transfer knowledge inward to 
the Fundamental Aeronautics Program when the need for further 
development at a foundational level is identified.
    NASA's Airspace Systems Program (ASP) has partnered with the JPDO 
to help develop concepts, capabilities and technologies that will lead 
to significant enhancements in the capacity, efficiency and flexibility 
of the National Airspace System. For FY 2010, ASP has been reorganized 
from the NextGen Airspace and NextGen Airportal projects into the 
NextGen Concepts and Technology Development project and the NextGen 
Systems Analysis, Integration and Evaluation project. The distinctions 
between airport operations, terminal-area operations and en-route 
operations were sometimes confusing, leading to time expended 
determining the line of demarcation between the responsibilities of the 
two projects. A more significant distinction is the development of air 
traffic management concepts and the technologies that enable air 
traffic management improvements and the evaluation of these concepts 
and technologies at a system level. The previously planned work on 
airspace concepts, technologies and systems will continue. This new 
project structure is better aligned to the nature of the work being 
performed. A notable accomplishment for ASP is the successful 
completion, by NASA researchers in collaboration with academia and the 
FAA, of a series of human-in-the-loop experiments that explored 
advanced concepts and technology for separation assurance, which 
ensures that aircraft maintain a safe distance from other aircraft, 
terrain, obstacles, and certain airspace not designated for routine air 
travel. The technology being developed by NASA and its partners is 
critical to relieving air-traffic controller workload, a primary 
constraint on airspace capacity that is expected to increase in coming 
years. In the future, this Program will continue to develop new 
technologies to solve important problems such as surface traffic 
planning and control, and initial algorithms for airport arrival and 
departure balancing as well as developing traffic flow management 
concepts for increased efficiencies at the regional and national levels 
for different planning intervals.
    NASA's Fundamental Aeronautics Program (FAP) conducts research in 
all aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. For FY 2010, all ARMD research 
into planetary entry, descent and landing (EDL) has been consolidated 
into the Hypersonics project in FAP. EDL is an integral part of many 
space missions and is not easily divided into distinct hypersonic and 
supersonic phases. This change will provide more focus to technical 
developments and will also yield technical management efficiencies. The 
FAP program has supported the testing of various new concepts that will 
help enable much improved capabilities for future vehicles. For 
example, wind-tunnel testing was conducted for several promising 
powered lift concepts. Powered lift concepts increase lifting force on 
an aircraft at slow speeds (e.g., at take-off and landing) without 
increasing drag under cruise conditions. Successful use of the concepts 
will enable short take-off and landings on runways less than 3,000 
feet, which will increase next-generation air transportation system 
capacity through the use of shorter fields and improved low-speed 
maneuverability in airport terminal areas. Testing was also completed 
for a Smart Material Actuated Rotor Technology (SMART) helicopter 
rotor, which offers the potential for significant noise and vibration 
reduction in rotorcraft. Future work includes technologies and advanced 
tools to evaluate the trades between noise, emissions, and performance 
of future aircraft entering service in the 2012-2015 timeframe. 
Additionally, with the transfer of technologies to be matured to 
system-level within ISRP, the Subsonic Fixed Wing (SFW) project is 
streamlining its research content. This is enabling new efficiencies 
across the foundational disciplines remaining in the project. The 
integrated system-level research in this program will be coordinated 
with on-going, long-term, foundational research within the three other 
research programs, and will focus specifically on maturing and 
integrating technologies in major vehicle systems and subsystems for 
accelerated transition to practical application.
    NASA's Aviation Safety Program (AvSP) continues to develop tools 
and technologies to improve on today's incredibly safe air 
transportation system, while ensuring that future technologies can be 
safely incorporated to the system. Examples of advances that support 
this development include NASA's ongoing and new research into aircraft 
icing. For example, with current knowledge we cannot extrapolate how 
ice forms on a straight wing such as found on a turbo-prop to how it 
will form on a swept wing, or a radically new aircraft configuration. 
The Aviation Safety Program is tackling this with a combination of 
computational models and experiments in NASA's Icing Research Tunnel. 
We are establishing that, in high and cold flight conditions, ice can 
form deeper in jet engines than previously understood. NASA is working 
collaboratively with the FAA, industry and international partners, such 
as the National Research Council of Canada, to conduct tunnel tests of 
the underlying physics, to fly our instrumented S-3 Viking into such 
engine icing conditions, and design upgrades to our Propulsion System 
Lab in which jet engines may be tested in detail. Additional future 
work in Aviation Safety includes addressing gaps in validation and 
verification of critical flight software, developing new data-analysis 
capabilities to mine aviation operational data for safety issues, 
examining the safety of new vehicle systems and structures, and 
tackling the biggest human factors issues in the NextGen flight deck.
    NASA's Aeronautics Test Program (ATP) is focused on ensuring a 
healthy suite of facilities and platforms to meet the Nation's testing 
needs including the development of new test instrumentation and test 
technologies. As part of its continuous efforts to improve facility 
operational efficiencies, ATP initiated the National Force Measurement 
Technology Capability, to address the severe erosion of NASA's 
capability to utilize strain gage balances in wind tunnel testing. The 
National Partnership for Aeronautics Testing, a strategic partnership 
between NASA and the Department of Defense (DOD), recently commissioned 
a study of government-owned, mid-to-large supersonic facilities 
necessary to fulfill future air vehicle test requirements. The Program 
will continue to develop a long-term strategic approach that aligns the 
NASA and DOD facilities to meet future requirements with the right mix 
of facilities and appropriate investments in facility capabilities.

Exploration Systems

    Human space flight is important to America's political, economic, 
technological and scientific leadership. In the span of a few short 
years, NASA has already taken long strides in the formulation of 
strategies and programs to develop a robust program of space 
exploration. These critical steps will allow our nation to build the 
next-generation space flight vehicles that will carry humans and 
deliver cargo to the ISS and the Moon, and on to other destinations in 
our solar system. The President's FY 2010 budget request for 
Exploration Systems is $3,963.1 million, an increase of $457.6 million 
above the FY 2009 appropriation and $225.4 million above the planned FY 
2010 level in last year's request. Based on the Recovery Act funds and 
the President's increased budget request for FY 2010, the Exploration 
Systems budget plan includes about $630 million more in FY 2009 and FY 
2010 than the previous plan. At this critical juncture, full funding at 
the President's requested level is essential for expediting development 
of new U.S. human space flight systems to support the International 
Space Station and explore the Moon and other destinations beyond low-
Earth orbit.
    The Constellation Program will apply additional Recovery Act funds 
to critical activities related to the successful completion of the 
Orion, Ares I and Ground Operations projects. The Commercial Crew and 
Cargo Program plans to use Recovery Act funds to stimulate efforts 
within the private sector in order to develop and demonstrate 
technologies that enable commercial human space flight capabilities--
efforts that are intended to foster entrepreneurial activity leading to 
job growth in engineering, analysis, design, and research, and to 
economic growth as capabilities for new markets are created.
    Following the Review of U.S. Human Space Flight activities, the 
Administration will provide an updated request for Exploration 
activities, as necessary. In the meantime, NASA is proceeding as 
planned with current Exploration activities, including Ares I, Orion, 
Commercial Crew and Cargo efforts, and lunar systems.
    During the past year, NASA Exploration Systems continued to make 
significant progress in developing the next-generation U.S. human space 
flight vehicles and their associated ground and mission support 
systems. In the next several weeks, the first lunar robotic mission, 
the Lunar Reconnaissance Orbiter and the Lunar Crater Observation 
Sensing Satellite spacecraft, will be launched from the Cape Canaveral 
Air Force Station aboard an Atlas V, which will help NASA scout for 
potential lunar landing and outpost sites. Later this year, two major 
test flights for the Constellation Program will be conducted: Ares I-X 
is the first developmental test flight to support the design of the 
Ares I Crew Launch Vehicle; and the Pad Abort 1 (PA-1) is the first 
test of the Launch Abort System to be used on the Orion Crew 
Exploration Vehicle. NASA will continue to work with other nations and 
the commercial sector to coordinate planning, leverage investment, and 
identify opportunities for specific collaboration on Exploration 
activities.
    The Constellation Program continues to complete the formulation 
phase of its projects--in particular Ares I, Orion, and major ground 
facilities. Major development work is underway, contracts are in place; 
and we have a dedicated group of civil servants and contractors who are 
all working hard to accomplish the Constellation Program's objectives. 
So far, NASA engineers have conducted about 6,500 hours of wind tunnel 
testing on sub-scale models of the Ares I to simulate how the current 
vehicle design performs in flight. These wind tunnel tests, as well as 
the Ares I-X test flight, will lay the groundwork for maturing the Ares 
I final design prior to its Critical Design Review (CDR). When launched 
later this year from NASA's Kennedy Space Center in Florida, the Ares 
I-X will climb about 25 miles in a two-minute powered test of the First 
Stage performance and the First Stage separation and parachute recovery 
system. Work on the Orion Project also continues to advance. Recently, 
NASA conducted testing of the water recovery process for the Orion 
capsule, and NASA also selected the material for Orion's heat shield. 
Later this year, Orion's PA-1 test will take place at White Sands 
Missile Range, New Mexico. PA-1 will demonstrate the Launch Abort 
System's ability to pull crew to safety should there be an emergency 
while the Orion and Ares I stack is still on the launch pad.
    In September 2008, Ares I completed a key milestone with its 
Preliminary Design Review (PDR). PDR is the final step of the initial 
design process, and thereby a crucial milestone during which the 
overall project verifies that the preliminary design can meet all 
requirements within acceptable risk limits and within cost and schedule 
constraints, and identifies technical and management challenges and 
addresses approaches for eliminating or mitigating them. This fall, the 
Orion is expected to have progressed to the point of completing PDR, 
and obtaining Agency approval to proceed to Critical Design Review 
(CDR). Current plans call for Ares I to progress to the point of 
obtaining Agency approval by early 2010 to proceed to CDR.
    As part of the Commercial Crew and Cargo Program and its associated 
Commercial Orbital Transportation Services (COTS) cargo projects, NASA 
is completing its promised $500 million investment to the two funded 
COTS partners, Space Exploration Technologies Corporation (SpaceX) of 
El Segundo, California, and Orbital Sciences Corporation (Orbital) of 
Dulles, Virginia. Recently, SpaceX successfully operated the full 
complement of the first stage engines of the Falcon 9, the SpaceX 
launch vehicle. Orbital continues to progress in achieving engineering 
milestones, and completed its PDR earlier this month. In addition, NASA 
has two non-funded COTS partners.
    The transition of NASA facilities, infrastructure, property, and 
personnel from the Space Shuttle Program to the Constellation Program 
continues to be a major activity. This joint effort between the Space 
Operations and Exploration Systems Mission Directorates includes the 
utilization and disposition of resources, including real and personal 
property; personnel; and processes in order to leverage existing 
Shuttle and Space Station assets for NASA's future Exploration 
activities.
    NASA's Advanced Capabilities programs include the Human Research 
Program (HRP) and the Exploration Technology Development Program 
(ETDP). These programs continue to reduce risks for human explorers of 
the Moon and beyond by conducting research and developing new 
technologies to aid future explorers. HRP focuses on the highest risks 
to crew health and performance during exploration missions while also 
developing and validating a suite of human health countermeasures to 
facilitate long-duration space travel. For example, NASA is conducting 
research to better understand the effect of space radiation on humans 
and to develop effective mitigation strategies. This year, HRP 
delivered a space radiation risk assessment tool, provided cockpit 
display design requirements for the Orion spacecraft, and provided 
design requirements for the new Constellation Space Suit System. HRP is 
also conducting research on-board the ISS with regard to: the cardiac 
structure and function of astronauts; radiation shielding technologies; 
and, the effect that certain pharmaceuticals may have on the prevention 
of bone loss during long-duration missions. ETDP will conduct a range 
of activities, including testing cryogenic hydrogen and methane 
propulsion systems for future missions; developing a small pressurized 
rover for transporting astronauts on the lunar surface; and 
demonstrating the capability to produce oxygen from lunar soil. ETDP 
also is conducting experiments on the Space Station to investigate the 
behavior of fluids and combustion in microgravity, and operating 
instruments to monitor atmospheric contaminants on the Space Station.

Space Operations

    The FY 2010 budget request includes $6,175.6 million for Space 
Operations.
    It is an exciting time for NASA's Space Shuttle Program. At this 
moment, the astronauts of Shuttle Atlantis are in orbit on STS-125, the 
final mission to service the Hubble Space Telescope. We anticipate that 
the work they are doing, which includes upgrading the Hubble's 
instruments, should extend the observatory's operational life several 
years. The President's FY 2010 budget funds the safe flight of the 
Space Shuttle to conduct its remaining missions, including the AMS 
flight and completing assembly of the ISS. NASA is committed to 
completing the eight remaining scheduled Shuttle flights, which we 
believe can be accomplished by the end of 2010. These Shuttle flights 
will leave the ISS in a configuration to support a broad portfolio of 
research and to receive and be maintained by commercial cargo services. 
The FY 2010 budget request includes $3,157.1 million for the Space 
Shuttle Program.
    NASA and its Russian, European, Canadian, and Japanese 
International Space Station partners are working together to realize 
one of the most inspiring dreams of the last 50 years: the 
establishment of a station in Earth orbit for the conduct of various 
types of research. We are now approaching two significant milestones. 
In May, the ISS will host its first six-person crew. The recent 
delivery of the Station's final set of solar arrays and other equipment 
by the crew of STS-119 represents the final step toward this goal. In 
June, the STS-127 mission will deliver the third and final component of 
the Japanese Kibo laboratory--the Kibo Exposed Facility. The addition 
of the Exposed facility enables the Kibo laboratory, with the European 
Columbus module and the U.S. Destiny module, to complete the three 
major international science labs on ISS, setting the stage for 
utilization of ISS as a highly capable microgravity research facility. 
The President's FY 2010 budget request includes $2,267.0 million for 
the ISS.
    The ISS will represent both an unparalleled international 
cooperative effort and a U.S. National Laboratory in orbit. Scientists 
will be able to conduct biomedical and engineering research from a 
unique vantage point. Some of the work will increase our knowledge of 
the effects of long-duration human space flight, which is critical for 
the design and operation of future human space vehicles, including 
those being developed under the Constellation Program to return U.S. 
astronauts to the Moon and explore other destinations. Other research 
will not be focused on space exploration at all, but may have 
significant applications right here on Earth. Medical research, for 
example, may be applicable to the development of vaccines; NASA's 
research into Salmonella aboard the Space Shuttle and ISS has already 
increased our knowledge in this area. In the key areas of energy and 
the environment, the ISS serves as a daily demonstration of ``green'' 
technologies and environmental management techniques. The ISS receives 
120kW of power from its solar arrays to operate the Station and run 
experiments. The ISS environmental system is designed to minimize the 
amount of mass that has to be launched from Earth to support the 
Station, so recycling is a must. STS-119 supplied ISS with a 
replacement Distillation Assembly for Station's water recycling system, 
which is key for supporting a full six-person crew for extended periods 
of time. Given the central role science and technology play in our 
society, it is important that the United States maintain a leadership 
role in these fields. The availability of a research laboratory in the 
microgravity environment of space will support this aim.
    Another benefit from Space Shuttle missions and ISS research is 
reflected in the programs' ability to inspire the next generation of 
Americans. This was reflected recently in the delighted faces of 
students who participated in the up-linked phone call between President 
Obama and the crews of the ISS and STS-119 on March 24. The ISS will 
support the President's goal of making math and science education a 
national priority by demonstrating what can be accomplished through 
science and engineering, and by inspiring both teachers and students.
    NASA is relying on U.S. industry to develop vehicles to deliver 
supplies and experiments to the ISS. In December 2008, the Agency 
awarded two Commercial Resupply Services (CRS) contracts for the 
provision of this critical capability. Cargo resupply is important for 
the continued viability of ISS. In addition, the vendors involved will 
gain valuable experience in the development and operation of vehicles 
that can 1) fly to the ISS orbit; 2) operate in close proximity to the 
ISS and other docked vehicles; 3) dock to ISS; and, 4) remain docked 
for extended periods of time.
    The FY 2010 budget request includes $751.5 million for Space and 
Flight Support, which supports Space Communications and Navigation, 
Launch Services, Rocket Propulsion Testing, Crew Health and Safety, and 
the new Human Space Flight Operations programs.

Education

    The FY 2010 budget request for Education totals $126.1 million and 
furthers NASA's commitment to Science, Technology, Engineering, and 
Mathematics (STEM) education. NASA will continue its successes in 
developing a future aerospace workforce, improving the technological 
competitiveness of our nation's universities, attracting and retaining 
students in STEM disciplines, and engaging the public in NASA's 
missions. NASA will accomplish these goals by offering competitive 
research grants to universities, providing targeted educational support 
to Minority Serving Institutions, and strengthening curricula at two-
year community colleges. NASA's plans to streamline and centralize 
internship and fellowship application processes will realize cost 
savings and facilitate student access to information while attracting a 
wider, more diverse participant base. The Agency is also seeking new 
opportunities for student involvement in current space and aeronautics 
research missions and flight projects, including those using high 
altitude balloons, sounding rocket payloads, airborne sensors, and 
space satellites. NASA will further these efforts through a new 
project, Innovation in STEM Education, which will allow the Agency to 
investigate and offer opportunities for student and faculty to 
participate in NASA-related research. In coming months, the Agency will 
complete award announcements for competitive grant programs in K-12, 
global climate change, and informal education, and revise and issue new 
solicitations using FY 2009 funds.
    NASA will further pursue a goal to attract and retain students in 
STEM disciplines in the upcoming fiscal year. Last year, the 
Interdisciplinary National Science Program Incorporating Research & 
Education (INSPIRE) program engaged over 200 high schools in STEM 
areas, and NASA Explorer Schools conducted instructional and enrichment 
activities that reached over 105,000 students. The March 2009 STS-119 
mission also provided a unique educational opportunity as two Mission 
Specialists who are science teachers, Joe Acaba and Richard Arnold, 
were part of the crew. NASA Education continues to provide internships, 
fellowships, and research opportunities to help students and educators 
gain hands-on experiences in a range of STEM-related areas. These 
opportunities provide students with the motivation, inspiration, and 
experience needed to serve the Nation's current and future workforce 
needs. In FY 2008, the Agency provided more than 3,000 summer 
internships, reached 5,331 students through significant research 
experience or grants, and provided 139 grants to under-represented and 
under-served institutions.
    NASA will also engage elementary and secondary school and informal 
education audiences by using Earth and deep space observations, the 
flight experience of Educator Astronaut Dorothy Metcalf-Lindenburger 
aboard STS-131, as well as future missions to the Moon and other 
destinations. New technologies such as social networks, Internet 
collaborations, a new virtual magnet school, and remote control of 
science instruments will expand and enhance these efforts. In FY 2010, 
NASA also plans to provide an online professional development system 
for students training to become educators, in-service teachers, and 
informal educators. Additionally, NASA will promote continuous public 
awareness of its mission and improvement to STEM literacy by partnering 
with informal education providers, which allows Agency partners to 
share the excitement of NASA missions with their visitors in meaningful 
ways.

Cross-Agency Support

    NASA Cross-Agency Support provides critical mission support 
activities that are necessary to ensure the efficient and effective 
operation and administration of the Agency, but cannot be directly 
aligned to a specific program or project requirement. These important 
functions align and sustain institutional and program capabilities to 
support NASA missions by leveraging resources to meet mission needs, 
establishing Agency-wide capabilities, and providing institutional 
checks and balances. Cross-Agency Support includes Center Management 
and Operations, Institutional Investments, and Agency Management and 
Operations. The FY 2010 budget request includes $3,400.6 million for 
Cross Agency Support.
    Center Management and Operations funds the critical ongoing 
management, operations, and maintenance of nine NASA Centers and major 
component facilities. NASA Centers continue to provide high-quality 
support and the technical talent for the execution of programs and 
projects. The FY 2010 budget request includes $2.084 million for Center 
Management and Operations.
    Institutional Investments funds design and execution of non-
programmatic revitalization construction of facilities projects, 
demolition projects for closed facilities, and environmental compliance 
and restoration activities. The Construction of Facilities Program 
makes capital repairs and improvements to NASA's critical 
infrastructure to improve safety and security and improve NASA's 
operating efficiency by reducing utility usage. NASA continues to right 
size the infrastructure by demolishing facilities that are no longer 
needed. Emphasis has been placed on energy and water conservation. 
Currently, NASA has five buildings that are certified under the 
Leadership in Energy and Environmental Design (LEED) criteria, three 
additional buildings that are built and awaiting certification as LEED 
Silver facilities, and 13 buildings in various stages of design and 
construction as High Performance Buildings and are expected to be LEED-
certified when completed. The FY 2010 budget request includes $355.4 
million for Institutional Investments.
    NASA's FY 2010 request includes $961.2 million for Agency 
Management and Operations, which funds the critical management and 
oversight of Agency missions, programs and functions, and performance 
of NASA-wide activities, including five programs: Agency Management, 
Safety and Mission Success, Agency Information Technology Services, 
Innovative Partnerships Program, and Strategic Capabilities Assets 
Program.
    The FY 2010 budget request provides $412.7 million for Agency 
Management, which supports executive-based, Agency-level functional and 
administrative management requirements. Agency Management provides for 
the operational costs of Headquarters as an installation; institutional 
and management requirements for multiple Agency functions; assessment 
and evaluation of NASA program and mission performance; strategic 
planning; and independent technical assessments of Agency programs.
    The FY 2010 budget request provides $183.9 million for Safety and 
Mission Success activities required to continue strengthening the 
workforce, training, and strengthening the fundamental and robust 
cross-checks applied on the execution of NASA's mission, and to improve 
the likelihood for safety and mission success for NASA's programs, 
projects, and operations. The engineering, safety and mission 
assurance, health and medical independent oversight, and technical 
authority components are essential to NASA's success and were 
established or modified in direct response to many of the key 
Challenger and Columbia accident board recommendations for reducing the 
likelihood for future accidents. Included under Safety and Mission 
Success is the Software Independent Verification and Validation 
program.
    The FY 2010 budget request for Agency Information Technology 
Services is $150.4 million, which encompasses cross-cutting services 
and initiatives in IT management, applications, and infrastructure 
necessary to enable the NASA Mission and improve security, integration 
and efficiency of Agency operations. NASA plans significant emphasis on 
continued implementation of five major Agency-wide procurements to 
achieve the following: (1) consolidation of IT networks leading to 
improved network management, (2) consolidation of desktop/laptop 
computer services and mobile devices to improve end-user services, (3) 
data center consolidation to provide more cost-effective services, (4) 
Agency public web site management to improve access to NASA data and 
information by the public, and (5) Agency business systems development 
and maintenance to provide more efficient and effective business 
systems. NASA will also continue to improve security incident 
detection, response, and management through the Security Operations 
Center.
    The request for the Innovative Partnerships Program (IPP) is $184.8 
million. IPP works with all four Mission Directorates to provide 
innovations meeting NASA's technology needs, and transfers NASA 
technology for broad Spinoff applications that improve quality of life 
and contribute to economic growth. Included in the IPP portfolio are: 
NASA's SBIR/STTR Programs seeking out innovative high-technology small 
businesses; a new Innovative Technology Project seeking high-impact 
revolutionary research and technology projects; a Seed Fund to address 
technology needs through cost-shared, joint-development partnerships; 
use of commercial flight services by the FAST program to demonstrate 
new technologies; Innovation Ambassadors to exchange ideas; and the 
Centennial Challenges prize program for the citizen inventor. IPP seeks 
partnerships through offices at all 10 NASA Centers.
    Finally, NASA is requesting $29.4 million in FY 2010 for the 
Strategic Capabilities Assets Program (SCAP). This program funds the 
costs required to sustain key Agency test capabilities and assets, such 
as an array of flight simulators, thermal vacuum chambers, and arc 
jets, to ensure mission success. SCAP ensures that assets and 
capabilities deemed vital to NASA's current and future success are 
sustained in order to serve Agency and national needs. All assets and 
capabilities identified for sustainment either have validated mission 
requirements or have been identified as potentially required for future 
missions.

Conclusion

    The President's FY 2010 budget request for NASA supports the 
Administration's commitment to deploy a global climate change research 
and monitoring system, funds a robust program of space exploration 
involving humans and robots with a goal to return Americans to the Moon 
by 2020 and explore other destinations, and funds the safe flight of 
the Shuttle to complete assembly of the ISS through its retirement, 
planned for the end of 2010. The FY 2010 budget request funds continued 
use of the ISS to enable the Agency to develop, test, and validate 
critical exploration technologies and processes and, in coordination 
with our international partners, to make the ISS available support 
other government entities, commercial industry and academic 
institutions to conduct unique research in the microgravity environment 
of space. It will also stimulate private sector development and 
demonstration of vehicles that may support NASA's cargo and crew 
requirements. And it renews NASA's commitment to aeronautics research 
to address fundamental aeronautics, aviation safety, air traffic 
management, and mitigating the impact of aviation on the environment. 
NASA's diverse portfolio of science, technology, engineering and 
mathematics (STEM) educational activities is also aligned with the 
Administration's goal of improving American innovation and global 
competitiveness. NASA looks forward to working with the Committee on 
implementation of the detailed FY 2010 budget request.
    Mr. Chairman, thank you for your support and that of this 
committee. I would be pleased to respond to any questions you or the 
other Members of the Committee may have.

                  Biography for Christopher J. Scolese

    Since January 20, 2009, Mr. Christopher J. Scolese has been serving 
as the Acting Administrator of the National Aeronautics and Space 
Administration (NASA). As the Acting Administrator, Mr. Scolese is 
responsible for leading the development, design, and implementation of 
the Nation's civil space program. As such, Mr. Scolese provides overall 
leadership for NASA's multiple field installations, works closely with 
the Executive and Legislative branches to ensure that NASA is 
supporting appropriate national policy, and leads an international 
collaboration in carrying out high-profile space missions including the 
Space Shuttle, the International Space Station, the Hubble Space 
Telescope, and a multitude of other scientific and technological 
efforts.
    In addition, Mr. Scolese is still serving in the position of 
Associate Administrator, NASA's highest-ranking civil servant. As 
Associate Administrator, Mr. Scolese is responsible for the oversight 
and integration of NASA's programmatic and technical efforts to ensure 
the successful accomplishment of the Agency's overall mission.
    Previously, Mr. Scolese served as NASA's Chief Engineer. As Chief 
Engineer, Mr. Scolese was responsible for ensuring that development 
efforts and mission operations within the Agency were planned and 
conducted on a sound engineering basis, as well as for the long-term 
health of the NASA engineering workforce.
    Formerly, Mr. Scolese was the Deputy Director of the Goddard Space 
Flight Center where he assisted the Director in overseeing all 
activities. He also served as the Deputy Associate Administrator in the 
Office of Space Science at NASA Headquarters. In this position, he was 
responsible for the management, direction and oversight of NASA's Space 
Science Flight Program, mission studies, technology development and 
overall contract management of the Jet Propulsion Laboratory. Mr. 
Scolese also served as the Earth Orbiting Satellite (EOS) Program 
Manager and the Deputy Director of Flight Programs and Projects for 
Earth Science at Goddard. In these positions, he was responsible for 
the operation and development of all Earth Science missions assigned to 
Goddard. While there, he also served as the EOS Terra Project Manager. 
In addition, Mr. Scolese was the EOS Systems Manager responsible for 
the EOS system architecture and the integration of all facets of the 
project. During his tenure at Goddard, he chaired the EOS Blue Team 
that re-scoped the EOS Program; he supported the EOS investigators in 
the development of the EOS payloads in the restructured EOS; and he has 
been responsible for the adoption of common data system architecture on 
EOS and some other Earth orbiting spacecraft. Prior to his 1987 
appointment at Goddard, Mr. Scolese's experience included work in 
industry and government. While a senior analyst at the General Research 
Corporation of McLean, Va., he participated in several SDIO programs. 
He was selected by Admiral Hyman Rickover to serve at Naval Reactors 
where he was associated with the development of instrumentation, 
instrument systems and multi-processor systems for the U.S. Navy and 
the DOE while working for NAVSEA. Mr. Scolese is the recipient of 
several honors including the Presidential Rank Award of Meritorious 
Executive, Goddard Outstanding Leadership, two NASA Outstanding 
Leadership Medals and the American Institute of Aeronautics and 
Astronautics (AIAA) National Capital Section Young Engineer/Scientist 
of the Year award. He was recognized as one of the outstanding young 
men in America in 1986, was a member of college honor societies 
including Eta Kappa Nu and Tau Beta Pi, and was recipient of the 1973 
Calspan Aeronautics award. He is a Fellow of the AIAA and a member of 
the Institute of Electrical and Electronics Engineers. He also served 
as a member of the AIAA Astrodynamics Technical Committee and chaired 
the National Capitol Section Guidance Navigation and Control Technical 
Committee.

                               Discussion

    Chairman Gordon. Well, we are down to a little over seven 
minutes, so I think probably--on this coming vote, so I think 
the best thing for us to do is to recess, and I would ask all 
of our Members to try to come back as promptly as they can 
after this series of votes, and we will then move forward with 
the questions.
    [Recess.]
    Chairman Gordon. All right. We will reconvene, and we thank 
you, Mr. Scolese, for your patience, and at this point we will 
start a round of questionings, and the Chairman recognizes 
himself for five minutes.

                            ISS Re-supplying

    Mr. Scolese, as you know, Congress has made significant 
contribution to the International Space Station in our--and at 
the same time we really don't have a clear path to re-supplying 
the Space Station other than hoping that the private sector is 
going to move forward.
    Is there a plan B, and is there any type of discussion 
going on with international partners in case this does not work 
out?
    Mr. Scolese. Well, as you know, the plan for re-supplying 
the station goes through part of the eight flights that we 
have----
    Chairman Gordon. Right.
    Mr. Scolese.--of the Shuttle, and then we do have our 
international partners that do have--on the European side the 
ATV and the Japanese side the HTV that provided, but to fill 
the gap between what they can provide and progress we are 
relying on the commercial sector to go off and do that, and at 
this stage there is no plan B.
    Chairman Gordon. And so how long do you see us having 
there?
    Mr. Scolese. Well, we are not anticipating a gap. Right now 
with the eight Shuttle flights, if we complete them, you know, 
roughly in the 2010 timeframe, we will have pre-positioned 
enough of the large spares and other resources that we need 
that will carry us through as we anticipate the commercial 
capability coming on board, assuming that the ATV, the HTV, and 
the Progress vehicles are performed per planned.
    Chairman Gordon. And when are they--what is the timeframe 
on those?
    Mr. Scolese. The ATV has already demonstrated its 
capability to rendezvous with the Station last year. I believe 
the next flight is next year. The HTV is scheduled for this 
fall. That will be the first flight of the Japanese module, the 
Japanese capability, and of course, Progress has been going for 
some time and the commercial capability is expected in the 2012 
timeframe, I believe.
    Chairman Gordon. Okay.
    Mr. Hall, you are recognized for five minutes.
    Mr. Hall. Thank you, Mr. Chairman, and I will try to be as 
brief as I can.
    As I said in my opening remarks, I am not in favor of more 
deficit spending, but I believe we have to prioritize, and I 
think in my opinion closing the gap in our human space flight 
capability is a goal that should have been given a higher 
priority in the fiscal year 2009 Recovery Act, and as it is I 
am encouraged that the fiscal year 2009 stimulus funding 
combined with the fiscal year 2010 request ought to give the 
exploration system an increase of about $630 million.
    By that is not, that is over two years, and it is critical 
to keeping the Constellation on schedule but it doesn't do a 
lot about those four years that we are losing.

                 Negative Effects of Insufficient Funds

    Mr. Scolese, if--I will give you one you can knock out of 
the park here. If the 302B budget allocations are not 
sufficient or if NASA is not appropriated the money that you 
are asking for, why don't you just explain to the Committee and 
to those that will read it, and actually, this is made 
available to all Members of Congress and anybody anywhere can 
read it, what are the negative effects to exploration goals if 
sufficient funds are not allocated as we have asked for?
    Mr. Scolese. Well, frankly, sir, we won't make IOC.
    Mr. Hall. What will that do to our partners, worldwide 
people that believe in us and join with us in pursuits?
    Mr. Scolese. I think we will let them down. I mean, 
frankly, you know, the plan is that we will be able to start 
carrying crew up to the Space Station in 2015, so we would have 
to rely even further on the Russians to carry crew up and down 
from the Station. That clearly isn't good for our international 
partners, it is not good for this country, and it would further 
delay the, you know, the human lunar return, and it, depending 
on how severe the reduction was, it may even impair what we 
were just talking about now with the commercial cargo re-
supply. So it could potentially impact the Space Station's 
liability for the future as well.
    Mr. Hall. And probably would.
    Mr. Scolese. And probably would.
    Mr. Hall. And in your wildest estimation or maybe outright 
guess, can you envision some time in the future, sometime, 
somewhere a situation where we might need all the 
sophistication in space we can to defend a war?
    Mr. Scolese. Sir, I think we need it today.
    Mr. Hall. Yes, sir, and I do, too.
    Mr. Scolese. And, I mean, we--if you look at what space 
provides us in terms of communications, our understanding of 
the weather and climate and preventing natural disasters and 
just tracking hurricanes as an example, plus the capabilities 
that we get by having, you know, the ability of humans to go 
off and do things in space as we have just seen over the last 
couple of weeks with Hubble.
    So I think we are already a space-dependent civilization, 
and we cut back, we are going to lose significantly.
    Mr. Hall. You are giving us the negative effects, and I 
think, I hope those that think three percent is a gross amount 
of the budget to allocate to something as important as space 
are daydreaming.
    Thank you. I yield back.
    Chairman Gordon. Ms. Giffords is recognized for five 
minutes.
    Ms. Giffords. Thank you, Mr. Chairman, and thank you, Mr. 
Scolese, for being here and for your service to NASA and to our 
country.

                       Budget Plan for 2020 Goal

    Norm Augustine, of course, who is heading up the human 
space flight review, testified before our committee in 2004, 
and he said it would be a grave mistake to try to pursue a 
space program on the cheap. To do so in my opinion is an 
invitation to disaster. And I don't mean to beat a dead horse, 
but obviously we are really concerned that the 2010 budget 
looks positive, but I am more concerned, as the Members are, 
about the out-year budget that would cut more than $3 billion 
for the Exploration program, adding to cuts made in previous 
years and essentially halting the work on the Ares V Heavy-Lift 
Launch Vehicle and the Altair Lunar Lander.
    Your testimony confirms, and we have heard the President 
talk about the mission of going back to the Moon by 2020, but I 
don't know how we are going to be able to achieve this, given 
the budget plan.
    So Mr. Scolese, how does NASA plan to achieve the 2020 goal 
under the budget that is being proposed, and also, based on the 
fiscal year 2010 budget request, do you have sufficient funding 
to maintain the current schedule for completion of Ares I and 
Orion?
    Mr. Scolese. On the last part first, we believe with the 
current budget we can complete Ares I and Orion and the 
associated elements by 2015. You may recall in previous 
testimony by Administrator Griffin that we needed additional 
resources to try and accelerate and hold the 2015 date, and we 
needed those resources in 2008, '09, and '10. We received them 
in '09 and '10, so that helps us, you know, considerably with 
Ares I and Orion and all the associated elements. And in fact, 
you can see a lot of those coming together. Anybody that visits 
Kennedy Space Center will see that going on today, as well as 
our other facilities.
    As far as the other elements, we are in the process of 
evaluating what that means. We have not stopped work on Ares V. 
We are still doing some work on that, and some of that work 
comes from the development of Ares I, the solid rocket motor 
and the J-2 engine, are both integral to the Ares V, plus some 
additional work that is going on.
    But the overall impact, we are in the process of assessing 
what that will mean in terms of our ability to do 2020, and 
what we do by 2020.
    So I don't have a good answer for the impact but clearly 
the situation as it stands right now means that we couldn't do 
the program of record, putting humans on the Moon by 2020. We 
may be able to do something lesser in that timeframe, but we 
haven't completed the work to answer that question fully.

                        ITAR and Export Controls

    Ms. Giffords. I know other Members are probably going to 
drill down a little bit harder on the budget, but I would like 
to shift gears. The Science and Tech Committee held a hearing 
earlier this year that looked at the current export controls 
regime that is current in our commercial space industry and the 
competitiveness factor for science and technology. I also serve 
on the Foreign Affairs Committee, and we are currently 
considering legislation that relates to export controls.
    So I would be interested in your thoughts on how big an 
impact ITAR and export controls are having on NASA's ability to 
carry out our international space collaborations and joint 
research projects, and are there some problems that you can 
specifically talk about and ways that we could improve the 
situation?
    Mr. Scolese. Yes. There are issues with ITAR. It does make 
our ability to work with our international partners more 
difficult from a NASA perspective. We have issues in how we can 
frankly go off and communicate issues, you know, technical 
information because we have to protect information and 
technologies that frankly are widely available. So it adds some 
additional complexities to what we do.
    The bigger impact is probably to our industry where they 
have less opportunity to compete for work due to the delays 
that it takes to get licenses and the ability to sell on the 
market whatever they have. That, of course, hurts our industry, 
but it also hurts us because it provides us with less--the 
industry is doing less, therefore, our products are costing 
more as we become the main customer for industry rather than 
them sharing it. There is statistics on communication 
satellites where we held 60, 70 percent of the market, and we 
are down to 25 percent today. That has an impact on the 
industry obviously, but it has an impact on us because they 
were building satellites that we could take advantage of to buy 
down our costs for scientific satellites and other activities.
    So it has impacts all the way across the board, and 
finally, there is an impact in our ability to work with people 
because it takes longer for us to get the authority to work 
with internationals that may have dual citizenship. So right 
across the spectrum it is an issue for us.
    Ms. Giffords. Thank you, Mr. Scolese. Thank you, Mr. 
Chairman.
    Mr. Hall. The gentlelady yield?
    Ms. Giffords. Yes.
    Mr. Hall. The President, I think, stated about three weeks 
ago that all of research and development ought to be three 
percent. I think that is vastly underrated. I think NASA alone 
needs one percent, and if that, if you escalate that up and put 
the other two points there out of the three percent, I think he 
is under-guessing maybe by a full percent or maybe two percent.
    But NASA is terribly under-funded, and if we don't do 
something, we are going to be at Russia's mercy. I don't want 
to be there, and they are not going to finish the Constellation 
on time. We need to fly one bird and borrow off the other three 
and get that to go a couple of years and then have 
Constellation funded properly to where they could escalate the 
finishing, the completion of that.
    You know, I hate to talk about World War II, but in World 
War II we had one aircraft carrier when we knew the Japanese 
was going to bomb Midway, and they were going to attack Midway. 
There was another aircraft carrier that came into Pearl Harbor 
several days after the Battle of the Coral Sea, it took seven 
months to repair it, but when they found out they was going to 
bomb Midway, they said do this in seven days, not seven months, 
and they did, and we had two carriers at Midway or we might not 
have won the battle in the Pacific. We need to tell the folks 
that are down, that are not sufficiently taking care of NASA 
that this is an emergency, too. This is very much an emergency 
because the next war might be fought out of space.
    I yield back. Thank you.
    Ms. Giffords. Thank you, Mr. Hall. I believe I can speak 
for the Members of the Committee that we love your passion and 
having you on this committee, and it is an honor to serve with 
you. Thank you.
    Chairman Gordon. Mr. Olson is recognized for five minutes.
    Mr. Olson. Thank you very much, Mr. Chairman, and Mr. 
Scolese, I just want to first of all say I applaud you for 
doing an outstanding job under some very trying circumstances. 
The task of leading NASA is difficult under normal situations, 
but the position you found yourself in is something that is not 
to be envied, and aside from the budgetary and the programmatic 
challenges you have overseen have been extremely successful and 
above all else we have got a safe Shuttle Mission which is 
going on as we speak. Front page here of the Washington Post.
    Mr. Scolese. Thank you, sir. Yeah.
    Mr. Olson. There you go. Great, great stuff. And, again, I 
want to thank you and say congratulations on a job well done.
    Mr. Scolese. Thank you, sir.

              Transition From the Shuttle to Constellation

    Mr. Olson. In terms of my questions I want to talk about 
could you please give us an update on the transition from the 
Shuttle to the Constellation? For example, I knew that we had 
to keep both of the launch pads at Kennedy in configuration for 
the Shuttle until this mission was complete, so one of them 
should be getting transitioned to the Ares I-X, and I just want 
an update on those type issues if you don't mind, sir.
    Mr. Scolese. Certainly. The transition is going per plan. 
We are in the process of flying out the Shuttle Manifest. We 
have eight more flights now that Hubble is almost done. The 
workforce is starting to transition as some of the Shuttle 
people working Shuttle are also working on the Constellation 
or--sorry, on Ares or Orion.
    As far as the progress that you can visibly see, at all of 
our centers it is probably most visible at the Kennedy Space 
Center when you look at--we have two pads, 39A and 39B. We 
launched the Shuttle off of 39A to go up to Hubble. Sitting on 
the adjacent pad, 39B, is the rescue vehicle, and we won't 
release that until we are ready to return to Earth with this 
mission.
    But when you look at that pad, you can already see that is 
different. We have the lightning towers up, and once we roll 
that Shuttle back, we will turn it completely over to the 
Constellation Program. We have turned one of the mobile launch 
platforms over already to support to Ares I-X test that will 
happen later this year. We have had to delay it because we kept 
39B. When you walk into the vehicle--the vertical assembly 
building at Cape, you will see the Ares I-X vehicle being 
built. It is being stacked. Every time I go down there I look 
at it, and I am absolutely impressed by the progress that the 
people are making on that. It is scheduled for launch later 
this year.
    Go out the back of the VAB, and you will see the mobile 
launch platform, the new mobile launch platform, being built 
for the Ares I, and as you visit our various facilities at 
Johnson or Marshall or the contractor facilities in Denver, you 
can see some great progress going on on the Orion vehicle, the 
ground support equipment, the launch site--excuse me, the 
launch site equipment. So we are making some very good progress 
on Orion and Ares as we speak.

                    NASA Perspective on Review Panel

    Mr. Olson. Thank you very much for that answer.
    Shifting gears a little bit to the new Human Spaceflight 
Review Panel, just wanted to get a sense for what so the 
employees at NASA from your perspective sort of think about 
that review panel? I mean, are there concerns, are they pleased 
that it is proceeding? Just want to sort of get your kind of 
lay of the land on how that is with the personnel.
    Mr. Scolese. Well, I think it is fair to say it is mixed. 
No one likes to take a test, and this is a test. Some people 
clearly recognize the value of the review given some of the 
questions that have been opened, and they clearly are relieved 
and recognize the objectivity and openness of Norm Augustine 
leading the panel, you know, identifies the seriousness that 
the Administration takes in coming up with a good answer.
    What I can say is that while people are concerned, I am 
sure they are, they are going to go off and demonstrate that 
they are making the right progress and they are doing the right 
things, and they will be fully open with the team and provide 
them with whatever information that they need. And I think in 
the end we will have a good outcome, and I think the team 
recognizes that, too.
    Mr. Olson. Thank you very much for that question. I agree 
with that. I mean, I think our problem has been not a vision 
but just a lack of commitment on our part to put the resources 
we need to it, but thank you, and I yield back my time.
    Chairman Gordon. We will move from Houston down to Marshall 
Spaceflight Center and Dr. Griffith.

                       International Competition

    Mr. Griffith. Thank you very much. Appreciate you being 
here. I think America had this conversation about a half a 
century ago when we were challenged by the Russians. We are 
having it again, and the question is are we committed. Can we 
do it again? Are we ready to accept the challenge?
    China is walking in space, six weeks ago Russia is up, 
India is going up, Iran has launched its satellite, and in my 
opinion, although the Saturn is the 8th wonder of the world, we 
have another one on the drawing board, and that is our Ares V. 
I don't think it is an option for America. I think it is an 
essential for America to maintain its position. I think it has 
to happen. I think Norm Augustine's commission should not be 
reviewing whether or not human space exploration is a 
possibility, feasibility. We are the wealthiest country in the 
world. We know that it is. What we want him to say is how can 
we get there and explain to the public and to the 
Administration that we are under-funded.
    And so with that you have done a great job, and we 
appreciate you very much and all of the team that is working on 
the Constellation Project.
    Thank you.
    Mr. Scolese. Thank you, sir.
    Chairman Gordon. Where do you stand on that?
    Mr. Griffith. I have watched too many space flights.
    Chairman Gordon. Dr. Ehlers.

                         Mars and Moon Programs

    Mr. Ehlers. Thank you, Mr. Chairman. It is good to be--you 
recognize someone who doesn't, whose district doesn't benefit 
materially from the activities of NASA.
    Just a couple of questions. On the Mars Exploration 
Program, you mentioned the MSL and what you are doing there, 
but what else do you have going in the Mars Program? Do you 
have more robotic satellites planned, and is there still any 
discussion at all of manned venture or human ventures to Mars?
    Mr. Scolese. Yes, sir. We have besides MSL we recently 
selected the MAVEN Mission, which is a competitively-selected 
mission in our Scout Program to go off and look at the 
atmosphere of Mars and understand its composition. In addition, 
we have started a partnership with the Europeans to do an 
aggressive mission on Mars and in orbit around Mars for the 
2016 opportunity. That will start building up more and more 
towards greater and greater capability at Mars.
    As you know, we already have a number of satellites around 
Mars, and we have vehicles on the surface of Mars. We are 
trying to get Spirit unstuck, and we are working on that, but 
we have two rovers that are still on Mars. And they are doing 
the reconnaissance that--as well as the exploration to 
understand more about Mars. They are also doing the 
reconnaissance for potential human missions.
    And the program of Constellation that we were just talking 
about with the heavy-lift launch vehicles and the capabilities 
that we are developing has as its ultimate goal to get humans 
to Mars at some time in the future.
    So we are still looking towards Mars and looking how to do 
that with humans. As you know, Mars presents more biological 
challenges almost than the physical ones to keep a crew alive 
for three or four years in space is quite a challenge, but that 
is a goal of the program, to take humans to Mars.
    Mr. Ehlers. I assume you also hope to return them to Earth.
    Mr. Scolese. Yes, we do. Alive.
    Mr. Ehlers. You haven't mentioned that part. That is where 
all the expense really comes in.
    Mr. Scolese. That is right.
    Mr. Ehlers. Maintaining and the coming back. You could 
probably find lots of volunteers who don't mind whether they 
come back.
    Mr. Scolese. Go one way. No. I don't think you want to do 
that.
    Mr. Ehlers. No. I agree. I do also incidentally want to 
thank you for the work on the Hubble. I was one of the chief 
agitators against the initial decision not to repair it, and I 
was sort of pleased when Mike Griffin make the decision to go 
for it, and I assume it will pay off, you know. We don't know 
how long it is going to be able to continue, but it has been 
such a wonderful addition to the science and astronomy of the 
universe that it would be a shame to let it die before we get 
the next one up.
    Mr. Scolese. That is correct, sir.
    Mr. Ehlers. So I appreciate your good work on that.
    I was half serious about the manned or human mission to 
Mars. I got the impression when the President in the previous 
Administration announced that there was an attempt to give NASA 
personnel a shot in the arm, but I just didn't see much in the 
way of specifics about what we hoped to do and what we hoped to 
gain from that mission. And I am also not clear how that 
relates to the Moon exploration and why we believe it is 
important to go to the Moon at this point.
    So I would appreciate some clarification on that.
    Mr. Scolese. Well, there hasn't been much on the Mars, the 
human Mars mission because of the distances involved, and as I 
said, the, you know, keeping the crew alive for that amount of 
time. We have been focusing on getting the new capability 
developed, but as we develop that capability, we are 
recognizing that the things that may be needed to carry a crew 
to Mars, as well as other destinations that are out there in 
the solar system, as well as other capabilities that are 
provided for by a vehicle like an Ares V.
    Why go back to the Moon? There is lots of reasons for going 
back to the Moon. One is to practice. We have not landed with 
humans on another planetary body since Apollo 17 in the early 
1970s, and we need to go off and develop those skills again as 
a very minimum if we are going to go there.
    And, of course, you know, the Moon provides an opportunity 
to practice those capabilities in a relatively safer 
environment where you are only three days away from Earth as 
opposed to months or years away from Earth, as well as the 
scientific benefits and the potential commercial benefits of 
the Moon that we will be looking at.
    Mr. Ehlers. Well, let me just comment that I think--you 
haven't mentioned anything about new propulsion systems. I 
think that is basically your biggest problem. Trying to use 
chemical propellants to get to Mars and back, particularly to 
get the crew back off the surface. It is a huge problem and a 
huge expense.
    Mr. Scolese. Absolutely.
    Mr. Ehlers. Are you investigating other systems that might 
be far better than using chemical propellants?
    Mr. Scolese. For in-space propulsion? That is one of the 
areas that, unfortunately, we don't have as much investment in 
as we would like. The activities looking at alternative types 
of propellants, nuclear propulsion, and nuclear electric have 
mostly been for smaller missions, but that is an area that 
clearly we could--we would like to do it, but we don't have the 
resources right now.
    Chairman Gordon. Thank you, Dr. Ehlers, and Ms. Fudge is 
recommended--is recognized.
    Ms. Fudge. Thank you, Mr. Chairman. Good afternoon.

                         Glenn Research Center

    Just a couple of questions. One is I happen to come from an 
area where NASA Glenn is located, so my questions will be about 
NASA Glenn.
    I was very interested to read in your prepared statement 
that you are looking at and addressing some computational 
models and experiments in the Icing Research Tunnel at NASA, at 
Glenn Research Center, and I am just curious, do you think that 
if the Glenn Icing Research Tunnel, which is a very, very old 
structure, it was built right after World War II, would be more 
productive if it were modernized?
    Mr. Scolese. We are looking at modernization of various 
facilities. I am not 100 percent sure if that is one of them, 
so I couldn't say sitting here, but we can get back to you on 
that.
    Ms. Fudge. Okay.
    Mr. Scolese. But we are looking at revitalizing and 
upgrading facilities where possible and when needed.
    Ms. Fudge. Well, additionally, are you making use of other 
aviation safety issues that--you know, Glenn has, does have an 
expertise in propulsion. Are you using that expertise in any 
other way?
    Mr. Scolese. We--if the question is are we using Glenn's 
capabilities to develop improved propulsion systems for 
aviation----
    Ms. Fudge. Yes.
    Mr. Scolese.--the answer is yes and in a broad spectrum of 
areas so we are. We have the test capabilities there. Also in--
actually in rocket propulsion, electric propulsion Glenn is the 
leader there, so they are working on capabilities there for 
electric propulsion.
    Also in a small way for robotic systems. Although it is not 
directly propulsioned, it is providing power. Glenn is leading 
the effort to develop new and improved ways of developing RTGs, 
where we work with the Department of Energy, and they provide 
radioactive source, and we more efficiently convert that heat 
into electricity that can be used for propulsion or used for 
keeping the systems alive, particularly when they are far away 
from the sun.
    And let us see. I have a note here that says that we are, 
in fact, using some Recovery--of the Recovery Act funds to 
repair the refrigeration systems on the Icing Research Tunnel 
at Glenn.
    Ms. Fudge. Very good.
    Mr. Scolese. So----
    Ms. Fudge. Thank you. Thank you, Mr. Chairman. I yield 
back. Oh, Ms. Chairman. Thank you.
    Ms. Giffords. [Presiding] Thank you, Ms. Fudge.
    The Chairman recognizes Mr. McCaul.

                    Moon Program and Cyber Security

    Mr. McCaul. Thank you, Madam Chair. Welcome and good to see 
you again, and I have several NASA employees and contractors. I 
have Houston in my District. I just recently took Dr. Anna 
Fisher through my schools and a delightful astronaut. I thought 
that was a great thing to do with the kids, get their 
excitement, and they are all, they always wonder, well, we were 
on the Moon in 1969, and why are we looking at 2020 and of 
course, you have to explain you have to build a station on the 
Moon.
    A lot of the concerns that we have looking at this budget 
have already been talked about, but I wanted to reiterate them 
and that is the cut in the Constellation systems of $3 billion, 
eliminating the development of the Ares V Heavy-Lift Launch, 
and the Altair Lunar Lander.
    Is all that possible to cut those programs as severely as 
this budget does and still get to the Moon by 2020?
    Mr. Scolese. Well, that is what we are evaluating right 
now, and as I mentioned earlier, the architecture allows for 
Ares V development, if you will, to continue because the Ares I 
has a solid that is similar to what we are going to have on 
Ares V, it has the J2-X engine on its upper stage, which is 
what we want to use on Ares V, and we do have some funding in 
there to continue the studies and development of Ares V.
    Altair is something that we have to look at further. That 
is the lander, as you know, to land on the Moon. We developed a 
conceptual study, and we need to go off and refine that. It is 
impacted by this budget, and that will be part of the product 
that comes out of this study that we were talking about earlier 
that Norm Augustine is going to lead. I think once we get 
clarity on that, that will provide greater clarity as to the 
human lunar return portion and the viability of 2020 in terms 
of what we do and whether we can make 2020.
    Mr. McCaul. I look forward to hearing about that. I am also 
concerned about our aerospace industry and their strength in 
the private sector, providing procurement for you that is 
cheaper and more competitive.
    Lastly, this is a little bit outside the budget 
questioning, but I just read recently, I think in Newsweek 
Magazine, about cyber security with respect to NASA and about 
some of the intrusions that have taken place at NASA. As we 
know, to be competitive we have to have the upper hand and edge 
intellectual property wise with State secrets. How confident 
are you about the cyber security situation at NASA?
    Mr. Scolese. Well, we have had intrusions as has been 
reported, and of course, we don't really talk too much about 
our security and how we caught those and whether they actually 
took any information of significance.
    But we are constantly vigilant about it, and we work with 
our other government agencies on this because the threat is 
constantly evolving, and we have to be very careful about that. 
We have, in fact, strengthened our cyber security. We have 
created a security center out of the Ames Research Center to go 
off and monitor all of our computer activities, and at the same 
time, of course, with NASA we also have to provide resources to 
the public. That is part of what NASA does.
    So while having an open system, we also have to have a 
system that is protected so that we don't lose vital secrets 
and more importantly we don't lose our assets on--in space 
because we control them all from the ground, and we use 
computers with it.
    So I think it is--we do have an investment, we do recognize 
that it is an ever-evolving threat, and we are working with our 
other government agencies to identify that threat and to adapt 
and adjust, and it is taking resources to go off and do that.
    Mr. McCaul. I know the President is planning to launch a 
new cyber security initiative which hopefully will strengthen 
these assets, because I think the ones at NASA are perhaps the 
most valuable assets that we have.
    So thank you so much.
    Mr. Scolese. Thank you.
    Ms. Giffords. Thank you, Mr. McCaul.
    Mr. Lujan.
    Mr. Lujan. Thank you very much, Madam Chairwoman.

                        NASA's Education Efforts

    Mr. Scolese, I want to drill down a little bit into the 
educational component, commitment that NASA has. New Mexico's 
universities benefit most from the education programs through 
the science budget specifically, which shows an increase of 
approximately $500 million between now and 2014.
    Can you just discuss briefly the plans that NASA has with 
how they plan to expend those educational opportunities, with 
their university system in that specific regard?
    Mr. Scolese. The--from the science side, our science 
mission directorate and our science missions, of course, play 
directly into it through providing opportunities for graduate 
students and for, you know, improving the tax as we, as 
professors are involved in it and what have you. And also in 
providing opportunities for them to build experiments. We have 
a number of opportunities. We have sounding rockets and balloon 
experiments where oftentimes students with their professors 
will go off and propose an experiment, develop it, fly it, all 
within three years so they get the experience of designing and 
developing an experiment, building the experiment, flying the 
experiment, analyzing the data, all within the timeframe that 
it takes to get a degree.
    The--as we get to the bigger missions, of course, we try 
and do competitive missions where universities are engaged in 
those missions, and they are longer term, so they may be, you 
know, five or ten years and longer if you are going to 
someplace like Jupiter or Saturn where the transit time is 
considerably longer. So we have those types of activities.
    In addition we have the direct educations activities where 
we work in partnerships with universities to get grants for 
students and for professors to conduct work, and we can get you 
more information on all of those, but that is sort of a summary 
of it at the very top level.
    Mr. Lujan. Madam Chairwoman, thank you very much. Mr. 
Scolese, the area where I had a concern, and although I saw an 
increase in the budget in the science portion of this with the 
projected decrease in the educational component, of which I 
believe there is a program called MUST, Motivating 
Undergraduates in Science and Technology, which is funded by 
NASA in a joint partnership currently between the Hispanic 
College Fund, the United Negro College Fund, special programs 
in the Society for Hispanic Professional Engineers, which is a 
competitive program to be able to offer opportunities open to 
all children but targeted in each of these specific areas. Is 
there a commitment from NASA that this program specifically 
will not be reduced? Is there something that we can do to help 
ensure that this program will remain at the same levels, if not 
strengthen them, acknowledging that we do need to make sure 
that we are providing opportunities especially educational 
opportunities for students to get into these fields so we can 
continue to provide NASA the support that they need?
    Mr. Scolese. Those are all--that is very important. I am--I 
would have to go off and look to see if it is being reduced. 
MUST is one of the activities that we do definitely support, 
and it is one of our critical activities in the education 
enterprise. I will have to go off and look and see if there is 
any reduction to it in the future years, but that is not the 
intent.
    Mr. Lujan. Thank you, and lastly, Mr. Scolese, New Mexico 
is home to White Sands Missile Range. Just if you could briefly 
discuss what the future plans and support that we should expect 
in New Mexico for White Sands through NASA.
    Mr. Scolese. Well, we see a continued need for White Sands. 
In fact, later this year we are going to have the first test of 
our abort system for the Orion Ares stack. It is called Cad 
Abort I, and it is scheduled for this fall. So--fall or winter 
timeframe depending on when all the hardware arrives. So we are 
going to continue to do testing out of White Sands, and it will 
be a little bit different because we--as the Shuttle moves off, 
we will have some different components there, but we still need 
White Sands to do some of our testing. So it will continue to 
be an active system, and of course, we have the communications 
for TDRS are located there as well, and that will continue to 
be there for the foreseeable future.
    Mr. Lujan. Thank you, Mr. Scolese.
    Madam Chairwoman, I yield back my time. Thank you.
    Ms. Giffords. Thank you, Mr. Lujan.
    Mr. Rohrabacher.

                      Climate Change and Asteroids

    Mr. Rohrabacher. Thank you very much, and appreciate the 
fact that you folks at NASA do not now have the leadership to 
be making major policy directions decisions and even to be 
advocating new policy directions, but I am disappointed in one 
aspect of what your budget seems to reflect, and that is that 
with all the, you know, we have here certainly ample spending 
by NASA to yet again prove global warming. Okay. That is fine. 
Those of us who believe it is solar activity and chart all 
these changes in the world's temperature with the Sun. Okay. 
Forget us but let us keep spending money to prove that people 
are changing the climate.
    But spending all of that money but yet we can't spend money 
on something that absolutely--we know is a potential threat to 
this world. I mean, we are totally ignoring, while we are 
looking over here at global warming, which more and more 
scientists every day are saying, no, it is solar activity, it 
is not human activity, but everybody knows there are objects 
out in space that could well hit this planet and causes tens of 
thousands, hundreds of thousands, millions of lives to be lost.
    In March Asteroid DD-45 came within 38,000 miles of our 
planet, was not detected until it went by, and had that object 
hit this Earth, we would--it could well have caused hundreds of 
thousands of people to lose their lives, maybe millions. What 
is it, Apophis?
    Mr. Scolese. Uh-huh.
    Mr. Rohrabacher. There is an asteroid that we know could do 
incredible damage to this planet, maybe not destroy all life on 
the planet but kills millions of people. It is going to come 
around in 2029, but the people that we have talked to have told 
us that we won't know until it comes through that time whether 
or not it might come back to the second time in 2036, and then 
be on a course to hit the Earth.
    I do not understand that--why we cannot put at least a 
little money into trying to mitigate this real threat that is 
out there, but we don't have, we haven't identified exactly 
what it is yet. I mean, there is no money, correct me if I am 
wrong, there isn't even a couple million dollars to keep the 
Arecibo Telescope going in this budget. We got all this money 
to study global warming, which as I say, which most, a lot of 
us believe solar activity is responsible for, but nothing, not 
even a couple million dollars for the Arecibo Telescope, which 
is essential to tracking some object far enough away so that we 
might be able to do something about it.
    Mr. Scolese. Well, let me try and address parts of those. I 
have----
    Mr. Rohrabacher. Okay.
    Mr. Scolese.--some good news on the near-Earth asteroids. 
We were asked awhile back to go off and catalog 90 percent of 
the one kilometer or larger asteroids.
    Mr. Rohrabacher. Yeah. You are looking at the guy who asked 
you to do that.
    Mr. Scolese. I know that.
    Mr. Rohrabacher. I am the Chairman of that committee.
    Mr. Scolese. I know. That is why I thought I would 
mention----
    Mr. Rohrabacher. You did a good job at 90 percent of them.
    Mr. Scolese. And we are going to finish earlier as a matter 
of fact. We believe that we will have accomplished that goal by 
next year in working with partnerships with other 
organizations, and as far as Arecibo, you know, we worked in 
partnership with the Air Force and with NSF. Arecibo is I 
believe in the NSF budget, so I wouldn't--we didn't have 
anything in the NASA budget on that.
    So we haven't ignored the near-Earth asteroids or near-
Earth objects, and we are working it, and as I said, I think we 
have made some good progress over the last couple of years, and 
we will address the one kilometer or larger earlier than we 
thought, and we are starting to look at the smaller ones now.
    Mr. Rohrabacher. Well, there is ample evidence that these--
about every year now something comes through and we miss it, 
and if it would have been just like one degree different 
trajectory, it could end up creating a tidal wave off of my 
district in southern California. And being a surfer that might 
be good for one wave. It might not be after that.

                          Russian Cooperation

    One--and then over to space transportation. The--we are 
going to be spending more and more money with the Russians, and 
I think we ought to thank our lucky stars that the Russians are 
even willing the way we have been treating them diplomatically 
for the last 10 years, treating them as if they are the enemy, 
we are lucky they are even willing to do it. But aren't there 
some people in the private sector that we might be able to give 
contracts to for some of the space station missions that the 
Russians are going to help us with?
    Mr. Scolese. Well, we are on the cargo portion. We 
definitely are. We have signed two contracts this past year for 
cargo supply to the Space Station, and we are relying on that. 
In this budget request or operating plan request with the 
stimulus funds, we are looking to stimulate interest in 
commercial crew to the Space Station.
    Mr. Rohrabacher. Yeah, because we are going to spend a 
billion point two with the Russians for transporting our people 
up there. It seems to me that that would be a mighty strong 
incentive for some of our private sector people to develop an 
alternative that might go up on things like the Atlas V or 
other rockets that we already have.
    Mr. Scolese. Yes, sir.
    Mr. Rohrabacher. Okay. Well, thank you very much.
    I yield back my time.
    Ms. Giffords. Thank you, Mr. Rohrabacher.
    Mr. Grayson.
    Mr. Grayson. Thank you.

                         Shuttle Program Future

    Mr. Scolese, what options have you given to the White House 
concerning extending the Shuttle Program?
    Mr. Scolese. I am sorry. Can you----
    Mr. Grayson. What options have you given to the White House 
concerning extending the Shuttle Program?
    Mr. Scolese. We have not been asked for options to extend 
the Shuttle Program.
    Mr. Grayson. Have you offered any?
    Mr. Scolese. No.
    Mr. Grayson. Well, I understand that there are pros and 
cons in favor of and against extending the Shuttle Program. Can 
you lay out for us some of the pros?
    Mr. Scolese. Well, we would keep on flying the Shuttle. It 
would provide us some opportunities clearly to keep the Station 
re-supplied and obviously the jobs in the various districts 
that are impacted by the Shuttle. However, the concern, of 
course, is that a lot of those people who are working on 
Shuttle are also working on Constellation, and that would take 
them away from working those programs, plus without additional 
resources we would be taking funds away from developing the 
Next Generation System so we would just be moving the gap out 
as opposed to resolving the gap.
    The other aspect of the Shuttle, of course, is it doesn't 
relieve us of our dependence on Soyuz or any other system 
because we can't do crew rescue with the Shuttle. It cannot 
stay on orbit for longer than a few weeks based on its design. 
So we would still have to have a Soyuz attached to the Station 
or some other vehicle attached to the Station for the duration 
that the crew is there if they had to escape.
    So those are the reasons that we haven't in the course 
provided that. Even if we were to start up today to do it, 
though, we still have, would have to restart some lines, the 
external tank and the solid rocket motors in particular. It 
would be about three years before you could get another 
external tank if we start it today.
    So there is--there would still be a gap in the program 
along those lines.
    Mr. Grayson. If the White House asked you to figure out a 
way to extend the program for a certain period of time, what 
would you recommend to them about how to do that?
    Mr. Scolese. We would have to, you know, ask for more 
budget, I guess, would be the answer. Or we would have to delay 
the Constellation Program. Those would be the only real things 
we could do.
    Mr. Grayson. Now, you said you were moving employees from 
one program to the other, but you--in your testimony you have a 
projection that there is 6,400 contractor employees in one 
fiscal year and 1,600 in the next. So that is a 4,800 
contractor employee drop. Those people aren't going to be 
working on Constellation. Right?
    Mr. Scolese. We don't know. I mean, when it comes to the 
contractors, it is a little bit more difficult for us to say 
because the contractors do the work assignments on those, and 
it depends, of course, on what work those people get. We make 
our projections based on when we stop doing this work, this is 
how many people will leave on the contractor side and then if 
they win work, those same people may be brought back to do 
other jobs.
    So we have a hard time telling you what the actual net 
impact will be given our understanding of where contracts are 
going to be awarded and where they are not.
    Mr. Grayson. Have you had any discussions with the White 
House concerning spacing out the remaining launches?
    Mr. Scolese. We have recently changed, if you noticed, the 
wording based on discussions that have occurred to say that we 
intend to fly out the remaining manifest, and we have not put a 
date on it. Now, we believe we can fly out that manifest by 
September of next year, but the requirement now is that we will 
fly out the remaining eight missions without a date specific.
    Mr. Grayson. What would be some of the benefits of 
expanding that timetable, spacing out the missions more 
broadly?
    Mr. Scolese. Well, again, it comes down to budget. We do 
not have the resources to go beyond 2010, beyond September, 
2010, so it is going to require additional resources that will 
have to either be added to the NASA budget or have to be 
removed from other portions of the budget with, you know, 
impact to those portions of the budget.

                            Benefits of NASA

    Mr. Grayson. Let me ask you a different kind of question. 
People often ask what is the benefit of this program, what is 
the benefit of NASA in general to our society, and I think that 
we Members of this panel have an answer to that, but I wanted 
to ask you looking forward, looking into the future, and I 
understand as Yogi Berra said, ``Predictions are hard to make, 
particularly about the future,'' looking into the future, what 
kind of scientific discoveries do you see being possible 
through NASA's work? I guess one place to start would be the 
discovery of life on other planets, on Mars, on Europa perhaps. 
That is one.
    Tell us what other possible scientific discoveries you see 
from NASA's work.
    Mr. Scolese. Well, that is a difficult one to answer, as 
you said. Clearly, you know, one of the things that we look for 
is the search for life that would have some significant changes 
to what we do, and we look out in the universe already we have 
seen some, you know, incredible changes that we didn't expect. 
We found water almost everywhere we looked. You mentioned Mars, 
you mentioned Europa. We also found it in Enceladus at Titan, I 
mean, at Saturn. We have discovered planets outside of our 
solar system, something that was, you know, science fiction 
just 20 years ago. Finding a planet that is similar to Earth 
will be, you know, a possibly as we develop the missions to go 
off and do that. Kepler has recently been launched and is going 
to go off and start cataloging, not observing, the sizes of 
planets near our solar system, if you will.
    Looking more down to Earth, our missions are going off and 
helping us to better understand the Earth, better predictions 
of weather, better predictions of climate will help markedly on 
the Earth as we come up with better agricultural predictions, 
as we develop, you know, a better understanding of where 
hurricanes will go, we can do more with natural disasters, 
already looking at ways to mitigate the impacts of volcanic 
activity by understanding the flows of volcanoes and 
identifying escape routes using satellites, fire mitigation to 
go off and support that. Using orbital assets plus UAVs that 
NASA has gone off and developed.
    Chairman Gordon. Excuse me. With respect to Mr. Grayson, as 
well as you, Mr. Scolese, we only have two days. There are 
many, many benefits of NASA, and I think we could catalog those 
for quite some time.
    Mr. Grayson. Great. Thank you.
    Chairman Gordon. And the gentleman's time is well over. So 
with--if there is no objection, we will then yield to Mr. 
Ehlers for five minutes.
    Mr. Grayson. Thank you, Mr. Chairman.
    Mr. Ehlers. Thank you. As I commented earlier, we are still 
waiting for more of those benefits to come to Michigan, which 
is in worse shape than any other state. That is not my 
question.

                              Aeronautics

    My question is NASA is National Aeronautics and Space 
Agency. All the discussion here has been about space. I really 
worry about aeronautics at NASA. You have some outstanding 
people there, and I have been very impressed with them in a 
number of ways. We desperately need their help, which means you 
need more money as we go into NextGen. I respect the FAA and 
their research efforts, but I also recognize the unique 
capabilities you have at NASA, and I am not asking you to solve 
this overnight, but I am very concerned about NASA being able 
to fulfill what should be required of it, the NextGen, and 
frankly, in a lot of other aeronautical areas. As you know, we 
have a huge battle for market share between our aeronautics 
manufacturers, our various plane manufacturers, and Europe, and 
the Chinese are now beginning to manufacture airplanes.
    So I don't want you to go at great length on this, but I 
would very much appreciate some comments from you about the 
future direction you see for the aeronautics and where the 
Congress should put more money in view of the problems I 
outlined. These are not immediate problems, but they are 
pressing problems, and we are going to be very sorry if we 
don't provide adequate support for the aeronautics part of 
NASA, because it is going to come back and bite us in the next 
five or ten years.
    So I would appreciate your comments on that.
    Mr. Scolese. Yes, sir. I think it is probably worth just 
mentioning the new program that we have in the Agency, the 
Environmentally Responsible Aviation Program, which is going 
off and working to develop more efficient utilization of the 
air space, more efficient aircraft operation, and working on 
the technologies both to make those systems more efficient but 
also working to understand with our colleagues in the FAA and 
others to make the airspace system more efficient.
    So it is more than just making an aircraft better or making 
the air traffic control system better but to make the whole 
system improved. That is a new initiative in this budget that 
is proposed in fiscal year 2010. We have--it builds upon all of 
our other activities in fundamental aviation and other areas, 
so I think that is a new area that goes off and recognizes the 
needs for the future, to have more fuel efficient air system, 
to have a safer air system, and those are the types of things 
that we will be working on in that activity.
    Mr. Ehlers. And how much new money are you getting for this 
new endeavor?
    Mr. Scolese. I would have to look exactly, but I believe it 
is in the order or--maybe David you can give me the exact 
number. We have $60 million in fiscal year 2010 to start that 
program off.
    Mr. Ehlers. Okay. I hope you get considerably more than 
that because I think the need is really there, and it is not 
just for NASA, and it is not just for science. It is--I think 
it is a major item for our country as well.
    With that I thank the gentleman.
    Chairman Gordon. Thank you, and Ms. Kosmas from Florida is 
recognized.

                       NASA Workforce During Gap

    Ms. Kosmas. Thank you, Mr. Chairman. Thank you, Mr. Scolese 
for being here. I, too, appreciate your service, and I would 
echo the comments of my colleague, Dr. Griffith about the 
importance of this and during my short time here I have tried 
to be very vocal and my expressions for my respect and passion 
for the Manned Space Program.
    And I wanted to ask some questions that have already been 
asked. I won't re-ask but specifically because, as you know, 
Kennedy Space Center is in my district, and I represent the 
workforce there. I am most concerned about the gap in terms of 
the workforce. During the time period that we have suggested 
that we intend to procure up to 24 seats per astronauts on the 
Russian Soyuz, is there an alternative for us during that time 
period where we would not be--and I think according to Aviation 
Week, the price has risen to $51 million per seat for 2012. 
This means, as was earlier suggested, $1.2 billion creating 
jobs for Russians as opposed to in the United States.
    Has there been an alternative discussed between you and the 
Administration with regard to how we might keep that revenue 
source inside our borders?
    Mr. Scolese. Well, with the current plan there is no 
alternative to doing it. As I mentioned earlier, we need the 
Soyuz not just for getting the crews to the Space Station or 
back from the Space Station, we need the Soyuz for crew rescue 
as well. So we need it to stay on orbit, and we don't have any 
other vehicle that--at this stage that can do that.
    I am certain this is going to be addressed as part of the 
review that is going on this summer, but at this stage of the 
game the Soyuz is really the only opportunity that we have that 
can address all three of those things; taking the crew to the 
Space Station, returning the crew from the Space Station, and 
serving as a rescue vehicle in the event that we need to remove 
crew from the Station for any reason.
    Ms. Kosmas. Okay. Thank you. I appreciate also the 
commitment to finishing the Shuttle manifest and removing the 
hard deadline for having that occur, because I think that is 
very important for the safety of the program.
    But given the fact that we are going to have a gap between 
the Shuttle Program and the Constellation or whatever comes 
next, I assume according to our discussion you are continuing 
not slowing down anything on that front, how do we intend to 
keep our astronauts engaged, or I understand we are getting 
ready to select a new class of astronauts. And how do we intend 
to make that work during the time, keep our core engaged or 
attract new ones during that time period?
    Mr. Scolese. Well, of course, we will still be flying the 
Space Station, we will still be going to the Space Station, so 
there will still be crew there, and we will need our astronauts 
to train for that and fly to that. So we will continue to need 
that core. In addition, as we are building and testing the new 
vehicle, we will need the astronauts to be intimately involved 
with the design and test of that vehicle.
    So there will be still be ample opportunities and ample 
jobs for the astronauts both on the Space Station and in 
developing the new hardware as we get ready to--and as we get 
ready to fly it.
    Ms. Kosmas. Thank you. The only other question I had at the 
moment is with regard to the workforce at the Kennedy Space 
Center. We have heard the numbers projected of what I think 
will be the loss of a very big number of professional folks 
during that gap, and what I am wondering is that Kennedy Space 
Center has been viewed as an operations center only, and there 
is much discussion in my District and among others about the 
opportunities to increase the amount of research and 
development that would go on at Kennedy Space Center, 
particularly perhaps with regard to the Constellation and the--
all that goes along with that.
    In fact, former Administrator Griffin stated last year that 
the work on the Altair Lunar Lander would be conducted at KSC, 
and I am wondering whether you have had any further discussion 
about that in particular.
    Mr. Scolese. I think we are continuing to do things at 
Kennedy Space Center, and of course, it has been operations in 
the past several years, but as you know, we are doing a lot of 
development there right now as we are developing the launch 
pads and the control centers for the new vehicle. So there is 
development going on there. I am sure you are also aware that 
they are going to do manufacturing of Orion there, manufacture 
and test of it. So we do have development work that does go on 
there, plus, you know, some research work as well.
    So I think there is no change in that in seeing that 
development go on.
    Ms. Kosmas. I think we are looking to expand the operations 
there so that we are not so vulnerable to the gap and other 
time periods that have taken place historically where we have a 
shutdown in our community.
    So I would appreciate that consideration during the 
review----
    Mr. Scolese. Will do.
    Ms. Kosmas.--that is coming up. Thank you very much.
    Chairman Gordon. Okay. Thank you, Ms. Kosmas.
    And Ms. Brooks is recognized for five--I mean, Ms. Edwards 
is recognized for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you very 
much, Mr. Scolese, for your testimony.

                      Current NASA Budget Increase

    I just have a couple of questions about--and I put this to 
Mr. Holdren when we heard from him, I guess last week, and it 
has to do with the budget. We have, you know, we have a goal 
out there of going back to the Moon, we have a goal of this 
Next Generation of exploration, technology, and vehicles, but 
it just seems to me that the budget is not quite reflecting 
that goal.
    And so I wonder if you could, apart from the funding that 
we just put into the Recovery Act, which was, you know, a 
substantial $630 million for the--for fiscal year 2009 and 
2010, how critical are the activities that are going to be 
conducted with this increase, and then discuss for me the 
budget as you see it for the future as it impacts areas in 
Orion. And I am wondering if there might be an unanticipated 
risk by essentially putting on hold the budget decisions in the 
out years on our ability to retain capacity, technical, 
scientific, and research capacity for those and other programs.
    Mr. Scolese. The $630 million additional that fiscal year 
2009 and 2010 budget is absolutely critical to maintaining the 
Ares and Orion programs. The early years, '09, '10, '11, '12, 
essentially, are really focused on getting the first systems, 
the Orion and the Ares I and the associated ground systems and 
control systems ready. So that funding is critical to keeping 
us on what we call initial operational capability, the ability 
to get into low-Earth orbit, to get to the Space Station, and 
that capability is also needed in the future for when we do 
want to leave Earth orbit to rendezvous and dock with the 
vehicle that will take us beyond low-Earth orbit, to the Moon 
or wherever.
    So the first few years are absolutely critical to keep that 
in for initial operational capacity. We were doing less on Ares 
V and the landing systems in those years, so the out-year 
budgets in '13 and '14, principally, would have an impact on 
those. So as this review gets done, we will have time to 
understand, you know, what we want to accomplish by 2020 that 
will help determine what we need out there in those years.
    In addition, the heavy-lift launch vehicle is absolutely 
critical to getting out of low-Earth orbit. That was mentioned 
earlier, the Ares V. It has common elements with Ares I, which 
allows for the development that is going on today to be 
directly applicable to the Ares V. So the development on the 
solid rocket motor and development of the J-2X engine are 
directly applicable to the Ares V. So work we are doing today 
also plays into what is going to happen in 2013, and '14.
    Ms. Edwards. Do you worry at all about the loss, potential 
loss of technical capacity at all?
    Mr. Scolese. I don't think we have that issue for the 
immediate future. As I was saying, we are concentrating right 
now in the next couple of years on the initial operational 
capability. So of course we always worry about it. You want to 
make sure that people understand that there is a future out 
there so they stay, but I think we have sufficient interesting 
work and sufficient work altogether that that won't be an issue 
for a few years.
    Ms. Edwards. And related to that are you concerned at all 
that we have this couple of months that we are waiting for the 
review to take place but we are on a, you know, track to look 
at the budget, and you know, we maybe, in fact, putting the 
heart--the cart before the horse in terms of, you know, scaling 
back in some ways on those out-year budgets without actually 
understanding what the review holds for us.
    Mr. Scolese. Well, if--as I said, any change in '09 and 
'10, or '10 budget will have a significant impact on the 
program. So--and specifically we were directed not to change 
anything until the review--we, NASA, not to change anything, to 
continue working with--on Ares I and Orion and all their 
elements until told to do otherwise, and we haven't been told 
to do otherwise, so we do need that '10 funding if we are going 
to stay on that track. Otherwise there will be impacts along 
the lines of what you are talking about to the workforce as 
well as to our ability to meet the mission goals.

                      Orbiting Carbon Observatory

    Ms. Edwards. I just have one additional question, and it is 
related to the Orbiting Carbon Observatory that was lost in 
February, 2009. Any plans to replace that? I noticed it is not 
in the budget.
    Mr. Scolese. It is not in the budget. We are off reviewing 
how to go off and do that, so we didn't have a plan. Three 
parts to it. One, we don't plan for losses, so we have a review 
with science community and the operational community the value 
of that mission, and it was determined to be a valuable 
mission. So we are off evaluating two options for re-flying it. 
We hope to have that done by the end of the summer, and we will 
be able to get back to you at that point.
    Chairman Gordon. Thank you, Ms. Edwards. They are good 
questions, and Mr. Hall has some clean up he wants to do.

                       Workforce and Funding Gap

    Mr. Hall. First, I was a little astounded at your answer 
that you didn't think it was any big problem when we lose that 
workforce. Did I misunderstand you?
    Mr. Scolese. I don't think I said that, sir.
    Mr. Hall. Okay. Well, I hope you didn't.
    Mr. Scolese. No, I didn't.
    Mr. Hall. Because they are an exclusive group and the 
highest type of workforce and sophisticated, and they would be 
quickly picked up by someone else, and if we wait two years or 
four years, we are going to have a hard time finding the people 
to take those places, I think. Don't you--you agree to that?
    Mr. Scolese. Oh, absolutely. We have one of the most 
highly-motivated workforce and the most capable workforce there 
is, but I thought I said, what I intended to say was I felt 
that we had sufficient work and sufficiently-interesting work 
to retain that workforce.
    Mr. Hall. Well, good. That is great. I want to just talk a 
minute--I mentioned and talked about funds and about the gap, 
four-year gap, and it is going to take money and time, and we 
were worrying a little bit about the deficit, but I think there 
are some answers to that. We seem to spend billions of dollars 
every year on foreign assistance, you know, all over the world, 
and I sometimes wonder what we are getting out of that, and who 
knows where, when, or how this money is spent. I know that we 
sent money--we use part of NASA's budget to purchase services 
from our international partners on International Space Station, 
and I have wondered why some tiny fraction of the billions of 
dollars that the government spends on foreign assistance 
couldn't be transferred to NASA like a lot of countries that 
vote 80 to 90 percent of the time in the U.N. against this 
country that were receiving foreign aid. I think we ought to 
take a look at that, and that would be one place--I think it is 
our duty to point out where that money can come from if we are 
willing to up the budget of NASA, and I think that ought to be 
not too tough to do.
    Do you think the blue ribbon panel that is going to be 
chaired by Mr. Augustine would have the freedom to suggest or 
propose alterative funding options and from elsewhere within 
the federal budget to help reduce the gap? I know they are not 
going to want him to bust the budget or go outside that, but I 
don't believe he is the type guy you can give some parameters 
to and tell him he has got to stay within those. I think he is 
going to tell you what he really and truly thinks, and that is 
the reason that most everybody I know is very proud that we 
have him leading us to help reduce the gap and better meet our 
international obligations.
    It looks like we could use some of those sources. You don't 
have any problem with that, do you?
    Mr. Scolese. No, sir.
    Mr. Hall. I like you. I like the Chairman here, too. I like 
him so much I am going to yield back my time.
    Chairman Gordon. Thank you, Mr. Hall. We have, in effect, 
opened the second round, so Ms. Kosmas or Ms. Edwards, do you 
have a second question?
    Okay. Mr. Olson, you can close us out then.

                       U.S. Space Industrial Base

    Mr. Olson. Thank you very much, Mr. Chairman, and I have 
just a very brief question for you, Mr. Scolese, involving 
our--concerning the industrial base, and as the Acting 
Administrator, you have got a pretty broad view of all of 
NASA's programs and some insights into other governmental 
programs.
    What is your assessment of the U.S. Space Industrial Base 
and how might NASA and Congress improve the situation to make 
our aerospace industry stronger and our procurements cheaper?
    Mr. Scolese. That is--you are right. That is a very broad 
question. It is--I think we mentioned earlier that with some of 
the restrictions that happen with the ITAR that it limits our 
industry from being able to compete overseas, there is other 
portions of the activity as well. We aren't launching as many 
missions, we aren't doing as many things in this country that 
we have done in the past. So we have had a lot of 
consolidations within industry.
    The instrument industry is probably an area that is the 
easiest to go off and look at recently where we are seeing some 
significant impacts into our missions because the instruments 
are coming, you know, very, very late, and part of the reason 
is what we were talking about before. We consolidated so much 
that we lost a lot of the really high-value talent. They have 
gone off to do other things, and excuse me, and that has caused 
us to have to reinvent the wheel every time we go off and start 
a new activity, and we don't have enough new activities to keep 
any one organization sufficiently busy that they can carry the 
workforce through all of, you know, effectively from one 
development to the next.
    And that seems to be general throughout the industry. So it 
is something we need to address. In addition, we have stepped 
back from specs and standards that we used to have in the early 
'90s, and while at times they were constraining and prevented 
us from doing things, they also allowed us to go off and have a 
capability that we could draw on when we needed it.
    So today we often talk about why our spacecraft cost so 
much, we have to go off and understand our part suppliers, what 
kind of a part are we getting. Do we either invest in 
developing a new part, which isn't going to have very much 
statistics associated with it, so we have to do a lot of 
testing, or do we go off and get a commercial part and up-
screen it, which requires a lot of testing until we find a part 
that we can use.
    So we have done a number of things in terms of stepping 
back from specs and standards, reducing the number of 
activities that we have going on so that we are losing some of 
our workforce, and of course, the pipelines. I think you have 
heard, and I don't need to report, to repeat the statistics 
here, how the United States isn't putting out as many 
scientists and engineers as many other countries are, so, you 
know, putting in the pipeline to go off and fill those jobs is 
equally difficult.
    So those are the things that we have going on, and they do 
have an impact into where we are going, but what can we do 
about it is probably a question that you want to ask, and I 
think what we need and what we are working, we are working with 
our partners in the Department of Defense and in industry and 
academia to form a partnership so that we can take various 
elements of it and effectively utilize it to put the resources 
where we can maintain them over the long term, which is one 
reason why the NASA infrastructure is important, to do the R&D 
that needs to be done and NASA, being an R&D agency, is an 
ideal place to do that. There is others as well, NSF and NIST 
as examples that do R&D, and working with our industrial 
partners where they can do what they do best, which is 
manufacturing and manufacturing technologies.
    So we are trying to work together with, as I said, with our 
colleagues in industry and academia and other government 
agencies to try and bring that together and bring to you 
solutions that are in our budgets to maintain our 
infrastructure, to maintain the research and development and to 
encourage the educational system to produce more science and 
technology people.
    Mr. Olson. Well, thank you for that answer, and I have one 
comment to make, and it is probably not going to be a surprise 
to you, but I just want to assure you and everybody within the 
sound of my voice that NASA still has our Manned Space Flight 
Program, still has the ability to inspire America's youth.
    Mr. Scolese. Absolutely.
    Mr. Olson. I had the privilege to watch the launch Monday 
before last with the entire 3rd grade at Settlers Way 
Elementary School in Sugar Land, Texas, about 50 or 60 of them, 
and we started watching about 20 minutes before the launch, and 
those kids were on me for all 20 minutes, I mean, hands up, 
hands up, hands up, asking about the solid rocket boosters, 
what happens when they land and how come they don't hit ships, 
you know, all the questions, I mean, great questions for third 
graders. We got down to 25 seconds and the countdown. As kids 
would do, they all just started counting down at the top of 
their lungs, but as soon as those main engines started firing 
and that solid rocket boosters came on, and she pulled away 
from the pad, they went silent and just stared. It was a great, 
great moment, and that is why what we are doing here is so 
important.
    Mr. Chairman, I apologize for running over. I yield back.
    Chairman Gordon. That is all right, Mr. Olson. Thank you 
for your presence here today and good questions.
    Mr. Hall. Mr. Chairman.
    Chairman Gordon. Yes, sir, Mr. Hall.
    Mr. Hall. I just thought of two other places. You know, the 
$40 billion George Bush hollered back over his shoulder when he 
was leaving, that he wanted for AIDS for, I think Africa. Give 
them $30 billion and there is $10 billion that we have, and the 
Obama asked for buckets full more than $40 billion and just--I 
think the money ought to--we ought to rob those that don't 
deserve it, and we absolutely have to do something about that 
four-year gap.
    You will be a magician if you can do it, but there are some 
places it can come from, and I won't ask to be recognized 
anymore today.
    Chairman Gordon. Don't you own a bank?
    Well, there has been a lot of discussion today about the 
quality and expertise of the NASA workforce, and Mr. Scolese, 
as I said at the beginning, you have exemplified that during 
this hearing that you are a representative of that, and we 
thank you for your service, we thank you for being here.
    And the record now will remain open for two weeks for 
additional statements from the Members and for answers to any 
of the follow-up questions the Committee may ask of the 
witnesses.
    The Chairman--the witness is excused, and the hearing is 
adjourned. Thank you.
    [Whereupon, at 4:10 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              



                   Answers to Post-Hearing Questions

Responses by Christopher J. Scolese, Acting Administrator, National 
        Aeronautics and Space Administration (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  NASA's FY 2010 request provides $458 million more funding for 
NASA's Exploration program than was provided in the FY 2009 Omnibus. At 
the same time, the Administration is carrying out an independent review 
of NASA's human space flight programs this summer that could result in 
changes to NASA's Exploration program. Congress is going to be working 
on NASA's FY 2010 appropriations in the relatively near future.

        a.  For the record, why do you need increased funding for 
        Constellation at the same time that the program is under 
        review?

        b.  Specifically, how important is it for Congress to fully 
        fund Constellation, including reserves, for FY 2010?

        c.  What would be the impact of a cut to your FY 2010 
        Exploration budget request?

        d.  If Congress is being asked to fully fund the 
        Administration's budget request for NASA's exploration program 
        in FY 2010, what assurances can you give this committee that 
        the Administration is committed to continuing work on the 
        Exploration program's Constellation projects as planned during 
        the review and will not divert funding from them or slow them 
        down?

A1. As NASA and the Administration review findings of the Augustine 
Commission in the coming weeks and formulate an Administration 
recommendation for submission to Congress on the way forward for human 
space exploration, it is important that the President's FY 2010 request 
for Exploration be fully funded and flexibility be fully preserved. Any 
reductions would likely cause major negative impacts to any options 
that may emerge from the ongoing blue ribbon review of U.S. human space 
flight plans.
    Following the Review of U.S. Human Space Flight activities, the 
Administration will provide an updated request for Exploration 
activities, as necessary. In the meantime, NASA is proceeding with 
current Exploration activities, including Ares I, Orion, Commercial 
Crew and Cargo efforts, and lunar systems. For example, NASA is 
continuing to work toward completing two major test flights this year. 
The Ares I-X was the first developmental test flight to support the 
design of the Ares I Crew Launch Vehicle; and the Pad Abort 1 (PA-1) 
will be the first test of the Launch Abort System to be used on the 
Orion Crew Exploration Vehicle. NASA will continue to work with other 
nations and the commercial sector to coordinate planning, leverage 
investment, and identify opportunities for specific collaboration on 
Exploration activities.

Q2.  NASA's Earth science program received an increase of over $1.2 
billion when taking into account Recovery Act funds and FY 2010 budget 
projections through FY 2013.

Q2a.  To what extent is this increase going to enable progress on the 
Earth science missions recommended in the National Academies decadal 
survey report?

A2a. The funds will enable NASA Earth Science to make marked progress 
toward conducting the balanced program recommended by the National 
Research Council's decadal survey in Earth science, Earth Science and 
Applications from Space: National Imperatives for the Next Decade and 
Beyond. Following the Decadal Survey framework, the funds will enable 
NASA Earth Science to:

        <bullet>  Complete as rapidly as possible the foundational 
        missions that are currently in development (Aquarius, Global 
        Precipitation Measurement (GPM), Glory, Landsat Data Continuity 
        Mission (LRCM), and the NPOESS Preparatory Project (NPP) ). The 
        Decadal Survey recommendations for new missions were predicated 
        on the assumption that these foundational missions would be 
        completed and flown in advance of the new missions.

        <bullet>  Establish Earth Venture (EV) as a new element within 
        the Earth System Science Pathfinder (ESSP) Program. The 
        additional Earth Science funding enabled NASA to issue in July 
        2009 a solicitation of proposals for the first group of Earth 
        Venture (EV-1) missions.

                  Earth Venture consists of a series of regularly 
                solicited, competitively selected Earth Science 
                investigations. Earth Venture will provide competitive 
                opportunities on two-year intervals with $150M per 
                solicitation. Opportunities will alternate between 
                integrated sub-orbital investigations, instruments of 
                opportunity and small satellites.

                  The EV-1 solicitation is for complete sub-orbital 
                science investigations involving sustained data 
                acquisition from airborne (aircraft and/or unattended 
                airborne system (UAS) ) and/or balloon platforms. Each 
                sub-orbital Venture-class investigation will have a 
                life cycle of up to five years and a total 
                investigation cost of up to $30M; several 
                investigations will be selected depending upon the cost 
                of each.

        <bullet>  Accelerate progress on the new missions recommended 
        by the Decadal Survey, including the Tier 1 missions: the Soil 
        Moisture and Active Passive (SMAP) mission, the Ice, Cloud, and 
        land Elevation Satellite-2 (ICESat-2) mission, the Climate 
        Absolute Radiance and Refractivity Observatory (CLARREO) 
        mission, and the Deformation, Ecosystem Structure and Dynamics 
        of Ice (DESDynI) mission.

        <bullet>  Initiate in FY 2009 the IceBridge airborne field 
        campaign series in both the Arctic and the Antarctic to 
        mitigate the gap in observations of the polar ice caps that 
        will occur between the end of ICESat-1 and start of ICESat-2. 
        IceBridge uses various NASA aircraft and instruments to 
        characterize key areas of polar ice, including the diminishing 
        Arctic sea ice cap and rapidly changing outlet glaciers in 
        Greenland and Antarctica. The mission is planned to run until 
        the launch of ICESat-2.

        <bullet>  Maintain a balanced program of satellite and sub-
        orbital observations, research and analysis studies, and 
        societal application activities lauded by the Decadal Survey, 
        including:

                  15 operating missions that provide the world with a 
                primary source of observations and science information 
                on Earth's changing environment

                  A suite of aircraft and Unmanned Aircraft Systems 
                (UAS) with scientific instruments to fly at 100 feet 
                (30m) to 70,000 feet (21,000m) that will ensure high 
                accuracy, well calibrated observations from satellites 
                and enhance interpretation of satellite data

                  Internationally recognized state-of-the-art climate 
                models

                  The world's largest scientific data and information 
                system for collecting, processing, archiving, and 
                distributing Earth system data to worldwide users

                  Practicable applications of observations and results 
                for informed decision-making

                  Technology development investments for Tier-2 and -3 
                missions.

    The funds will enable the flight of a Thermal Infrared Sensor 
(TIRS) instrument on the Landsat Data Continuity Mission (LDCM), one of 
the foundational missions referenced by the Decadal Survey.

Q2b.  How much acceleration on those missions is this funding buying?

A2b. The funds will enable NASA Earth Science to progress from a period 
of declining budgets and the resultant reduction in satellite 
measurement capability, which the Decadal Survey raised as a serious 
concern, to carrying out its mission with improved overall 
capabilities. The funds allow NASA Earth Science to achieve many 
recommendations of the Decadal Survey, as noted in Answer 2, including 
the flight of the foundational missions.
    The Decadal Survey, in recommending launch readiness intervals of 
2010-2013, 2013-2016, and 2016-2020 for Tiers 1, 2 and 3, respectively, 
presumed a budget for NASA Earth Science of $2.013 per year (about 25 
percent higher than its current budget) and lower mission costs than 
NASA estimates are projecting. All future missions identified by the 
Decadal Survey are extremely early in their definition process, thus 
there is no substantiated basis against which acceleration can be 
compared or quantified. With that caveat, Table 1 indicates the 
estimated schedule and content changes for missions presently in 
development enabled by the additional funds that have been identified 
for the program. It also references the ICEBridge airborne campaigns 
and Earth Venture solicitation made possible by available funds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2c.  Based on what you have studied and know about what is required to 
develop the Decadal Survey missions recommended for implementation by 
NASA, what is the total level of investment that will be required? Over 
what period of time do you expect it will take to implement those 
missions?

A2c. For the Tier 1 missions (SMAP, ICESat-2, DESDynI, and CLARREO), 
NASA's current preliminary total estimate of life cycle cost (LCC) is 
$4.213. Based on the FY 2010 Budget the launch of SMAP, the only 
mission which has progressed to date into Formulation, is planned for 
2015 and the estimated mission life cycle cost (LCC) is $700M. The 
launch of ICESat-2, which will enter formulation in FY 2010, is planned 
for 2015 based on the FY 2010 Budget and the estimated LCC is $750M. 
Timing decisions for the remaining Tier 1 missions, CLARREO and 
DESDynI, will be made in FY 2010, with the expectation of launching 
these missions before the end of the decade.
    NASA Earth Science did generate a Rough Order of Magnitude (ROM) 
life cycle cost (LCC) estimate for each mission shortly after release 
of the Decadal Survey in order to provide an initial comparison with 
the Decadal Survey ROM estimates. The collective ROM LCC's for the Tier 
2 (SWOT, HyspIRI, ACE, ASCENDS, and GEO-CAPE) and Tier 3 (LIST, PATH, 
GRACE-II, SCLP, GACM and 3D-Winds) missions were $4.5B and $4.0B in FY 
2007 dollars, respectively, compared with Decadal Survey estimates of 
$2.5 billion for Tier 2 and $3.1 billion for Tier 3. The currently 
projected funding profile translates to launches of the Tier 2 and 3 
missions during the 2020's and into the 2030's.
    These estimates are ROMs because the concepts are preliminary. 
Developing a credible life cycle cost (LCC) is a challenge because it 
includes all design, development, verification, production, launch, 
operation and maintenance, and disposal costs. Because of the level of 
design maturity required to generate this information, NASA formally 
commits to LCC at KDP-C, following a Preliminary Design Review at the 
end of the Formulation phase. At that time, the work associated with 
Phase A and Phase B concept development studies is complete and NASA is 
able to establish a baseline mission concept and generate the 
associated LCC with a 70 percent confidence level.
    To help plan for these missions and reduce future schedule and cost 
risk, NASA Earth Science is providing funding within the current budget 
for preliminary workshops to discuss requirements and concepts for 
individual Decadal Survey missions and investing in efforts designed to 
ensure the technological readiness of these missions.

Q3.  The Mars Exploration Program has experienced great successes 
scientifically and technically with its lander, rover, and orbiter 
missions. The next Mars mission, the Mars Science Laboratory, has 
overrun its baseline estimate for development by 68 percent. What is 
the implication of this cost growth for the future Mars Exploration 
Program?

A3. The impact on future Mars Exploration Program missions is as 
follows:

        <bullet>  The Mars 2013 aeronomy mission Mars Atmosphere and 
        Volatile Evolution (MAVEN) is unchanged.

        <bullet>  The Mars 2016 mission budget has been reduced; NASA 
        is in negotiation for a joint mission with the European Space 
        Agency (ESA), which had also been planning a mission in 2016 
        but is also cost-constrained.

        <bullet>  Mars technology funding from FY 2010 through 2015, 
        targeted at long-lead investments for a Mars sample return 
        mission, has been drastically reduced.

    NASA is currently revising its Mars architecture for future 
missions, in an attempt to create a collaborative program with ESA, 
culminating in a joint Mars sample return mission late in the next 
decade--the National Academy's highest priority science mission for 
Mars.

Q4.  The National Academies is in the process of carrying out three 
decadal surveys in the areas of astronomy and astrophysics, planetary 
science, and biological and physical sciences in space. The decadal 
surveys will recommend the priorities for mission activities to be 
conducted over the next decade.

Q4a.  To what extent have the mission priorities from the previous 
decadal surveys been accomplished?

A4a. Taking each decadal survey area individually:

Astrophysics:

    The 2001 National Academy of Sciences ``Astronomy and Astrophysics 
for the New Millennium (AANM)'' report provided its recommended new 
initiatives for astrophysics in three categories according to the 
amount of anticipated funding required: Major, Moderate and Small 
Initiatives (AANM, page 33). The report included initiatives for both 
ground- and space-based projects, and discussed the importance of 
program balance and basic research. The top priority Major Initiative 
for space was the Next Generation Space Telescope, which has since been 
named the James Webb Space Telescope (JWST). NASA is making substantial 
progress and JWST is under development having passed its confirmation 
review in July 2008 with a launch readiness date of June 2014. The top 
priority Moderate Initiative for space was the Gamma-ray Large Area 
Space Telescope, now renamed the Fermi Gamma-ray Space Telescope. Fermi 
was launched in June 2008 and is producing excellent data. The top 
priority Small Initiative was funding for the National Virtual 
Observatory, now called the Virtual Astronomical Observatory (VAO). 
NASA is coordinating the VAO funding with the National Science 
Foundation, which has recently announced the selection of the VAO 
provider.
    For each of these categories there were numerous other activities 
recommended, but at lower priority. In the Major Initiatives category 
the second priority was the Constellation-X Observatory. Mission-level 
studies and early technology development activities have been 
accomplished throughout this decade. NASA was unable to start the 
mission because there were insufficient funds to begin development of 
the mission once its costs were better understood. The third priority 
was mission studies and technology development funding for a 
Terrestrial Planet Finder mission. NASA devoted the recommended level 
of funding to this activity and gained a better understanding of what 
such a mission would cost. These activities have positioned the 
community and NASA to provide the current decadal survey panels more 
accurate information on the technical challenges and likely costs for 
such. a mission. The final Major Initiative priority was for early 
study of and technology development for a large aperture sub-millimeter 
optimized space mission (SAFIR). Only a small amount of funding for a 
SAFIR mission-level study has been expended during this decade.
    For Moderate Initiatives at lower priority than Fermi the NAS 
report listed the Laser Interferometry Space Antenna (LISA), Solar 
Dynamics Observatory (SDO), Energetic X-ray Imaging Survey Telescope 
(EXIST) and Advanced Radio Interferometry between Space and Earth 
(ARISE). For LISA, a collaborative mission with the European Space 
Agency, mission studies and technology development were funded 
throughout the decade. NASA was unable to start the mission because 
there were insufficient funds to begin development of the mission once 
its costs were better understood. The SDO satellite has completed 
development under the management of NASA's Heliophysics Division, and 
is awaiting launch in Fall 2009. NASA funded a mission-level study for 
EXIST. There were no mission-level activities for the ARISE activity 
this decade.
    In the Small Initiative category lower priority activities included 
recommendations for augmented funding in various areas of basic 
research at NASA and for the Advanced Cosmic-ray Composition Experiment 
for the Space Station (ACCESS). Agency policy decisions regarding usage 
and access to the International Space Station shifted the focus of 
cosmic-ray experiments to balloon borne payloads. NASA flew several 
such payloads during the decade. NASA has kept the level of funding for 
Theory and Laboratory astrophysics essentially constant throughout the 
decade despite several directed reductions in the broad area of 
research and analysis [out of which Theory and Laboratory astrophysics 
are funded]. The Astrophysics Division has recently augmented its 
funded postdoctoral programs to levels at or above those recommended in 
the decadal survey. Finally, this past year saw a successful test of 
the first Ultra-long Duration Balloon. NASA is now considering what 
payloads would be good candidates for this type of balloon platform.
    The report also endorsed continuation of a vigorous Explorer 
program (page 9). Since the 2001 decadal survey, NASA has launched the 
GALEX and Swift missions, as well as the Kepler mission in March 2009 
(the Kepler mission to search for Earth-sized planets was selected in 
the Planetary Science Division's Discovery Program, which like the 
Explorer Program is a line of competitively-selected Principal 
Investigator-led missions). The Wide-field Infrared Survey Explorer 
(WISE) is planned for launch this December, and the Nuclear 
Spectroscopic Telescope Array (NuSTAR) is being developed for launch in 
2011.
    In addition to these new initiatives the AANM report reaffirmed the 
community's interest in NASA completing projects initiated in the 
previous decades: the Stratospheric Observatory For Infrared Astronomy 
(SOFIA), the Space Interferometry Mission (SIM), and the fifth Hubble 
Servicing Mission (HST-SM4). SOFIA will be conducting early science 
flight in 2010 and is expected to reach full operational readiness in 
2014. Extensive study and technology development efforts for SIM were 
conducted throughout the decade. As a result of these efforts NASA 
better understood the SIM mission and its costs and determined that 
there were not sufficient funds to fully develop the mission within the 
decade. In May 2009 HST-SM4 was successfully completed with all mission 
objectives being achieved. In addition, all early instrument tests are 
going well and HST is expected to be returning science again later this 
summer.

Planetary Science:

    In contrast to the Astrophysics decadal survey, the 2003-2013 
decadal survey for planetary science, entitled ``New Frontiers in Solar 
System Exploration'' (NFSSE, published in 2003) started its list of 
mission priorities with smaller missions and moved to medium and large. 
In today's terms, it proceeds from Discovery missions to New Frontiers 
missions to Outer Planets Flagship missions. In addition, it 
prioritized Mars missions separately from other Planetary Science 
missions.
    As recommended in NFSSE, NASA has continued the existing series of 
Discovery missions. Dawn is on its way to the asteroids Vesta (arriving 
in 2011) and Ceres (arriving in 2015). The MErcury Surface, Space 
ENvironment, GEochemistry, and Ranging mission (MESSENGER) mission 
completed its very successful second flyby of Mercury in October 2008, 
with its third flyby scheduled for September 2009, and its insertion 
into Mercury's orbit on schedule for March 2011. The Gravity Recovery 
and Interior Laboratory (GRAIL) mission is on track for launch in 2011. 
In addition, NASA is preparing a Discovery Announcement of Opportunity 
for release later this year to begin planning the next Discovery 
missions. Also in the ``small'' investment category, the NFSSE 
recommended an extended mission for Cassini. The Cassini Extended 
Mission is underway and is providing excellent data about Saturn and 
its moons, rings, and magnetosphere. The Mars Science Laboratory, 
recently renamed Curiosity after a national naming contest, is now 
scheduled for launch in late 2011.
    NASA also fulfilled the recommendation in NFSSE to establish the 
New Frontiers Program within NASA's Planetary Science budget. The New 
Horizons and Juno missions were selected via the first two New Horizons 
Announcements of Opportunity. The New Horizons mission, which is 
addressing the science objectives of the NFSSE's Kuiper Belt-Pluto 
Explorer, will rendezvous with Pluto in 2015: NASA's Juno mission, a 
Jupiter polar orbiter (without probes), is progressing toward its 
planned launch, also in 2011.
    Proposals for other missions in this class included in NFSSE for 
launch between 2003-2013 (including South Pole-Aitken Basin Sample 
Return, Venus In Situ Explorer, Comet Surface Sample Return) as well as 
several `candidate missions for flight after 2013' (Geophysical Network 
Science, Asteroid Rover/Sample Return, to Observer, Trojan/Centaur 
Reconnaissance Flyby) are currently being solicited under the New 
Frontiers 3 Announcement of Opportunity (AO), with proposals due on 
July 31, 2009. These and other candidates mentioned in NFSSE were re-
affirmed by the NRC prior to the release of the NF-3 AO.
    NASA announced in January 2009 that the Europa mission will be the 
next Outer Planet Flagship (OPF) mission (the survey's highest priority 
large mission), to be followed by a Titan mission which was highlighted 
in the NFSSE report as a candidate mission for beyond 2013. NASA is 
working closely with the European Space Agency (ESA) on plans for a 
joint OPF mission that may also include an ESA-provided Ganymede 
observer similar to what was also included in the `candidates for 
flight after 2013' list in NFSSE.
    For Mars missions, the NFSSE recommended missions in small, medium, 
and large categories. In the small category, the report recommended 
continuation of the Mars Scout line of competed, Principal 
Investigator-led missions, and a Mars Upper Atmosphere Orbiter. The 
Mars Scout mission Phoenix successfully landed in the northern polar 
region of Mars and completed its mission in 2008. The next Mars Scout 
mission is the Mars Atmosphere and Volatile Evolution (MAVEN) mission, 
which also fulfills the upper atmosphere orbiter recommendation.
    NFSSE recommended the Mars Science Laboratory mission, and this 
mission is in development for a 2011 launch. The NFSSE identified MSL 
as a medium-class mission, as it did not include the cost of 
radioactive power supplies, a launch vehicle, or complete operations 
costs; nor had the instrument complement been selected. The other NFSSE 
medium class Mars mission concept was a long-lived lander network; this 
concept has been studied, but has not been initiated as a mission in 
this decade.
    Finally, NFSSE recommended beginning planning on a Mars Sample 
Return (MSR) mission for implementation in the decade 2013-2023. MSR 
concepts have been studied, but mission formulation and implementation 
have not yet begun. The cost of an MSR mission is such that major 
international collaborations and contributions will be required. But 
MSR remains the goal of NASA's Mars Exploration Program.

Life and Physical Sciences Space Research:

    Pursuant to direction in the Explanatory Statement accompanying the 
FY 2008 Omnibus Appropriations Act (P.L. 110-161), NASA has asked the 
NRC to conduct a decadal survey to establish priorities and provide 
recommendations for life and physical sciences research in microgravity 
and partial gravity for the 2010-2020 decade. The decadal survey report 
will provide updated strategic planning advice from representatives of 
the U.S. research and Technology community to help NASA to define 
appropriate investments in life and physical sciences research. This 
study will be the first of its kind regarding this research arena.
    Recommendations on the timeline and sequence of research from the 
NRC decadal study will allow NASA to develop an implementation plan 
that will impact future exploration missions. The specific objectives 
of this NRC decadal survey are the following:

        <bullet>  Define research categories that are required to 
        enable exploration missions or those that are enabled or 
        facilitated because of exploration missions;

        <bullet>  Define and prioritize an integrated life and physical 
        sciences research portfolio;

        <bullet>  Develop a timeline from 2010-2020 and define inter-
        dependencies for objectives;

        <bullet>  Identify terrestrial, airborne, and space-based 
        platforms and facilities that could most cost-effectively 
        achieve the objectives;

        <bullet>  Explain how achieving the objectives will enable 
        exploration, produce knowledge, or provide benefits to space 
        and other applications;

        <bullet>  Identify potential research synergies between NASA 
        and other U.S. Government agencies, as well as with commercial 
        entities and international partners; and,

        <bullet>  Summarize future research objectives beyond 2020.

    Although this is the first NRC decadal study in this research area, 
past NASA studies have been instrumental in helping to set NASA's 
research priorities. A recent example is related to establishing 
research priorities for NASA's space biomedical research program that 
includes ISS research activities as a central component to reducing the 
risks to crews for future exploration missions. The National Academies 
through the Institute of Medicine completed its review (July 2008) of 
the potential hazards and health issues related to long-duration space 
flight. These risks frame the research to be undertaken by NASA to 
mitigate the health dangers to crew members. ISS biomedical research is 
critical to mitigating 17 of the 28 human health risks relevant to 
exploration. This review builds on the previous National Academies work 
done for the Bioastronautics Roadmap--a framework developed and used by 
NASA to assist in identifying research priorities and technology 
development, establishing exposure standards, and guiding resource 
allocation. The resulting IOM report, A Risk Reduction Strategy for 
Human Exploration of Space: A Review of NASA's Bioastronautics Roadmap 
(IDM, 2006), focused its findings and recommendations on accelerating 
countermeasure and technology development; establishing a safe 
radiation exposure level for all relevant risks; and improving the 
process by which the content of the Roadmap was represented, 
communicated, and kept current.

Q4b.  To what extent does the FY 2010 budget request include funding to 
begin work on priorities to be recommended in the next three decadal 
surveys?

A4b. In the FY 2010 President's budget request the NASA sustains 
support for mission candidates being considered by the decadal survey, 
such as SIM Lite, IXO, LISA and JDEM, until the decadal survey report 
is issued in summer 2010. Out-year projections in the FY 2010 request 
position the division to begin supporting results of the decadal survey 
through funding available in Future Missions lines. The distribution of 
funds among the Cosmic Origins program, Physics of the Cosmos program, 
ExopIanet Exploration program, and basic research and technology will 
be adjusted to reflect decadal survey priorities and the estimated 
costs of high priority missions in the FY 2012 and subsequent budget 
requests. The Agency has requested that the decadal survey recommend 
how future investments might be balanced among new small, medium, and 
large mission initiatives, extending on-orbit operations of existing 
missions, mission enabling technology investments, and research grants.
    NASA has funding in the competed mission lines (i.e., Discovery, 
Mars Scout, and New Frontiers) to support Planetary Science missions 
identified in the next decadal survey. The final amount of funds 
available, however, will depend on the timing and content of the next 
Planetary Science decadal survey. The next Planetary Science decadal 
survey will not be released until 2011 and will cover the period from 
2013 to 2023. However, only 2013 and 2014 are within the five-year 
budget horizon in the President's FY 2010 budget request.
    The President's FY 2010 budget request provides out-year funding to 
support new missions recommended in the next decadal survey, however, 
the ability of the FY 2010 budget request to meet the mission 
recommendations of a future decadal survey will depend on several 
factors. First and foremost, a lot depends on what the National Academy 
of Sciences recommends in the form, size (small, medium or large) and 
complexity of the missions. In addition, NASA and ESA are discussing 
how to more closely collaborate on both Mars missions and the Jupiter 
Outer Planet Flagship. The outcome of those NASA-ESA discussions could 
affect the amount of NASA funds available to support missions 
recommended in the future decadal survey. The more the Europeans are 
willing to contribute to the joint Mars and OPF missions, the more NASA 
funding is freed up to support missions recommended in the next decadal 
survey.
    NASA has worked with the National Academy of Sciences (NAS) to 
improve the cost realism of missions recommended in the various decadal 
surveys. Cost estimates from NASA center-proposed missions will be 
concurred in by NASA Headquarters before they are submitted to the NAS. 
Further, we are requiring the NAS to contract for independent cost 
analysis to ensure that each decadal survey-considered mission has some 
fidelity to its budget estimate.
    Finally, since the first-ever decadal survey for life and physical 
sciences space research is currently under development by the NRC, it 
is not possible to identify recommended priorities that are contained 
in the FY 2010 budget. The results of this decadal survey will assist 
in defining and aligning NASA's space life and physical sciences 
research based on external experts from the U.S. research and 
technology community. Further, the recommendations regarding the 
timeline and sequence of research will allow NASA to develop a research 
plan and define appropriate investments in life and physical sciences 
research consistent with national space policy and goals.

Q5.  Shuttle transition and retirement costs are quantified in this 
budget request on the order of about $400 million with possible 
unfunded threats of $200 million to $300 million. This is a far cry 
from the $2-$3 billion level mentioned a few years ago. What enabled 
NASA to make such a big reduction in its estimate? Are there any 
assumptions, if not realized, that could increase your $400 million 
estimate?

A5. The NASA estimates of the cost of Shuttle transition and retirement 
(T&R) have decreased consistently over the past few years. This is due 
in part because the Agency's Constellation Program requirements are 
becoming more and more refined, and NASA has gained an improved 
understanding of which assets may be transferable to that program. NASA 
treated the first estimates as approximations and chose not to 
implement these estimates in formal budgets. This allowed the team to 
understand the cost drivers and systematically remove, refine, and 
reduce the cost drivers. The Government Services Administration has 
been helpful in supporting NASA with disposition requirements 
interpretation and changing processes to allow for more the effective 
disposition of retired assets. These practical approaches have reduced 
the estimates for transition. In addition, NASA has explored options 
for disposing of unassigned assets more cost effectively (e.g., using 
the DOD approach of dismantling, rather than destroying, certain pieces 
of equipment).
    The Agency's estimates for T&R costs could change depending on the 
results of the ongoing Review of U.S. Human Space Flight Plans and the 
Administration's subsequent decisions.

Q6.  If the Augustine committee does not recommend continuing to 
operate the ISS beyond 2015, what, if any, alternative facilities does 
NASA have for conducting the type of microgravity research needed to 
enable human space flight beyond low-Earth orbit?

A6. NASA recognizes the value of undertaking research in gravitational 
and space biology, and as such, NASA utilizes both ground-based and 
space-based experiments to try to document the health risks to future 
explorers. Recently, NASA was directed by Congress to have the National 
Research Council conduct a Decadal Survey to help the Agency establish 
priorities and provide recommendations for life and physical sciences 
research in microgravity and partial gravity for the 2010-2020 decade. 
NASA expects the report to be completed by fall 2010. This report, 
along with the findings of the Augustine Commission, will influence 
future Agency plans for microgravity research.
    If the ISS is retired, the Agency would plan to continue depending 
on a variety of platforms that offer varying amounts of time to 
simulate microgravity: 1) Sounding Rockets; 2) Drop Towers; 3) 
Parabolic flights; and, 4) Domestic and International free-flyers. In 
addition, some of the human research and countermeasures validation 
would be conducted in analog environments such as long-duration bed 
rest studies. As noted earlier, NASA currently uses these research 
platforms to develop and validate countermeasures for a large number of 
human health risks and to conduct high priority research in other life 
and physical science disciplines to gain an insight of the underlying 
phenomenon associated with gravity dependent processes.

Q7.  In FY 2010, the Aeronautics Research Mission Directorate plans to 
realign its NextGen work to distinguish research conducted on concepts 
and technologies from that focused on systems analysis, integration, 
and evaluation. Will these changes result in accelerating transition of 
NASA's research to FAA operational use?

A7. The intent of the changes to the projects within the Airspace 
Systems Program is to provide a structure that will allow more 
efficient and effective management of efforts to conceive and develop 
advanced NextGen technologies while reducing risk and accelerating 
timely transition those technologies to implementing organizations. The 
new structure will support and enhance existing efforts to initiate 
integrated system research in key areas of R&D gaps identified by JPDO 
and will include the collaborative engagement with the FAA as planned 
within the recently created Research Transition Teams to accelerate 
progress for NextGen advancements.
    The work will transition, from the laboratory to the field, key 
concepts within the baseline Airspace Systems Program integrating 
surface, terminal, transitional airspace and en route capabilities to 
enable operational enhancements envisioned by NextGen. Since the 
technical maturity of research concepts will largely take place within 
the Concept and Technology Development project, resources must be well 
invested there to generate the research products to transition at later 
points as part of integrated systems. In fact, some capabilities are 
expected to be transferred at low maturity levels directly from the 
Concept and Technology Development project, because the FAA has 
expressed a need for some advanced algorithms for early incorporation 
in current air traffic control tools.
    The development of infrastructure for systems analysis, 
integration, and evaluation will be managed within the Systems 
Analysis, Integration, and Evaluation project. It will assess and 
validate collective impact of technologies using fast-time modeling, 
simulation, and field evaluations and will feed back results into the 
baseline program to enhance and validate research concepts. This 
validation and integration of research products in relevant 
environments will be a multi-year process, and will accelerate and 
reduce the risk of transition of research products to the implementing 
agency.

Q8.  The Committee expressed concern that adequate maintenance and 
upgrading of facilities be performed on a regular basis in the 2008 
NASA Authorization Act. In that legislation, the NASA Administrator was 
directed to determine and prioritize the maintenance and upgrade 
backlog at each of NASA's Centers and associated facilities and 
``develop a strategy and budget plan to reduce that maintenance and 
upgrade backlog by 50 percent over the next five years.'' In view of 
the projected funding for facilities and maintenance projected through 
FY 2014, how long will it likely take to eliminate this backlog?

A8. NASA will present the requested data as part of the FY 2011 budget 
request.

Questions submitted by Representative Gabrielle Giffords

Q1.  Another impact of the tight budgets you have been given in recent 
years is that a number of your programs appear to have very thin 
reserves. For example, the FY 2010 budget request for the Space Shuttle 
program has minimal reserves at the same time that NASA is 
acknowledging that the Shuttle program has cost and schedule threats 
that it must guard against. Thus the budget request assumes that the 
flight schedule can be maintained but with almost no leeway to deal 
with uncertainties. What options does NASA have if unforeseen events do 
materialize?

A1. Operational programs typically have much lower levels of funding 
reserves than do development programs simply because of the steady-
state nature of the work being done. In addition, the potential 
technical challenges to operational programs tend to be better 
understood than those of programs still in development. The Space 
Shuttle Program has sufficient resources to fly out the remaining 
manifest, including the flight of the Alpha Magnetic Spectrometer 
(AMS), before the end of FY 2010. NASA intends to fly out the Shuttle 
manifest safely as possible until its retirement. However, as there is 
no budget for flying into FY 2011, the Agency would have to determine 
the optimal approach for providing resources to support missions 
delayed beyond this point.

Q2.  An important part of NASA's portfolio is its science program. What 
are the most significant challenges in space science and Earth science 
over the period covered by the President's FY 2010 five year budget 
runout? To what extent can those challenges be addressed with the 
resources requested in the FY 2010 budget? Where are the shortfalls 
that will need attention in future budget requests?

A2. NASA faces the challenge of implementing the 27 innovative science 
missions, including NOAA reimbursable GOES missions the Agency has in 
formulation or development, but these are fully funded in the FY 2010 
budget request and run out.
    NASA's science priorities are guided by NRC decadal surveys, one of 
which (Earth Science) was received for the first time in 2007 and three 
of which will be updated and delivered over the next three years 
(Astrophysics, Planetary Science, and Heliophysics). These surveys 
convey science community priorities, and their results influence budget 
submissions. The FY 2010 budget request, along with resources provided 
in the American Recovery and Reinvestment Act allows for steady 
progress in achieving the priorities recommended in the current decadal 
surveys in Earth science, planetary science, astrophysics, and 
heliophysics. While NASA expects the forthcoming surveys to continue to 
guide these programs, managing scientists' expectations that NASA will 
be able to fund all of their priorities consistent with the budget 
horizon will be a challenge.

Q3.  The FY 2010 budget request for Earth Science does not include 
resources to fly a replacement of the Orbiting Carbon Observatory, 
which was lost due to a launch failure in February 2009, or a similar 
sensor. What impact would a decision to develop a replacement for OCO 
have on the overall Earth Science program if additional funds for an 
OCO replacement were not provided?

A3. Following the loss of OCO in February 2009, the mission's science 
team concluded that an OCO reflight or a functionally equivalent 
mission was necessary to advance carbon cycle science and to provide 
the basis for thoughtful policy decisions and societal benefits. In 
response, NASA evaluated a range of options to develop and launch a 
replacement instrument or acquire data from international missions. Of 
the options under consideration, the most mature and best-understood 
option is to rebuild an OCO mission with as few changes as possible and 
launching the so-called ``Carbon Copy'' into its planned orbit as an 
element of the ``A-Train.'' Such a mission could have a minimum 
development time of 28 months and cost approximately $331M.
    NASA is working to implement the balanced program recommended by 
the National Research Council's Decadal Survey in Earth Science, Earth 
Science and Applications from Space: National Imperatives for the Next 
Decade and Beyond. In preparing its recommendations, the NRC assumed 
the successful launch of OCO and therefore did not recommend any near-
term carbon monitoring missions which would be included in NASA's 
budget. If a decision was made to re-fly OCO and if the required 
funding for an OCO replacement would come from within the Earth Science 
portfolio, it would delay the development and launch readiness dates of 
existing or new missions.

Q4.  The FY 2010 budget request for NASA's Education programs 
represents a reduction of $43M from the FY 2009 enacted budget. What is 
the reason for the reduction and what was cut?

A4. The President's budget request of $126.1M for NASA Education 
reflects the funding required to execute the Agency's education plan in 
FY 2010. The FY 2010 budget request for NASA Education is an increase 
of $10.5M from the FY 2009 budget request.
    The FY 2010 budget request does not contain the Congressional plus-
ups of FY 2009 for the National Space Grant College and Fellowship 
Program (Space Grant) and the Experimental Program to Stimulate 
Competitive Research (EPSCoR), nor does the FY 2010 budget request 
include funding for other Congressionally-directed activities added in 
FY 2009.
    The FY 2009 budget request was $115.6M, with $169.2M enacted.
    The enacted FY 2009 budget included the following Congressional 
modifications from the original budget request:

+53.6M, Funds four Congressionally-directed projects (Competitive 
Educational Grants Program; Global Climate Change Education; Science 
Museums and Planetariums Grants; and NASA visitor centers) and 
increases two existing projects (Space Grant and EPSCoR).

        <bullet>  +$16M, Fund a Competitive Educational Grant project 
        as directed

        <bullet>  +$10M, Fund a Global Climate Change Education project 
        as directed

        <bullet>  +$7M, Fund a Science Museums and Planetarium Grants 
        project as directed

        <bullet>  +$7M, Fund Education projects at the 10 NASA visitor 
        centers as directed

        <bullet>  +$11.7M, Increase EPSCoR to $20.0M as directed

        <bullet>  +$11.3M, Increase Space Grant to $40M as directed

        <bullet>  -$8.9M, Elementary, Secondary and e-Education core 
        programming

        <bullet>  -$1.0M, Informal Education core programming

        <bullet>  +$0.1M, Minority University Research and Education 
        Program

        <bullet>  +$0.5M, Higher Education programming

Q5.  What specific insight do you have in the progress of the two COTS 
vendors? Is simply meeting the scheduled contract milestones to justify 
vendor payment enough to give you confidence that each vendor can 
perform agreed to flight demonstrations?

A5. NASA is pleased with the progress that our funded COTS partners 
have made to date in meeting the terms of their Space Act Agreements 
(SAAB). Both commercial partners continue to make steady progress in 
achieving their cargo demonstration milestones. While each has 
experienced some milestone delays, this is not unexpected, since both 
partners have aggressive, success-oriented schedules, and are facing 
challenges typical of a space flight development program. As such, NASA 
sees no reason to doubt either company's ability to achieve its desired 
objectives--that of demonstrating commercial cargo delivery to and from 
the International Space Station (ISS).
    As of July 2, 2009, SpaceX had completed the first 14 of 22 
milestones and has received a total of $234M in payments with $44M 
available for the retraining milestones. SpaceX has completed the 
majority of Dragon capsule qualification testing. Technical progress is 
being made and qualification testing is progressing on the Falcon 9 
launch vehicle as well. SpaceX has begun manufacturing the flight 
Dragon capsule and Falcon 9 to be used for the COTS demonstration 
flight 1.
    Recently, SpaceX notified NASA that the company expects delays in 
completing its three demonstration flights. According to the terms of 
the current SAA, SpaceX was supposed to complete its first 
demonstration flight in June 2009 so as to allow additional time for 
Falcon 9 manufacturing and testing programs. SpaceX now expects to 
complete its first demonstration flight in January 2010, with the 
second and third flights now planned for June 2010 and August 2010, 
respectively.
    The Orbital demonstration flight is currently planned for March 
2011 due to the company's decision to change its cargo transportation 
architecture from an unpressurized (external) cargo system to a 
pressurized (internal) cargo system. However, delays such as these are 
not unexpected since both partners have aggressive, success-oriented 
schedules, and are facing challenges typical of a space flight 
development programs. It is important to note that NASA will not pay 
for any milestone missed until the milestone is successfully completed 
per the SAA and approved by NASA. Should a milestone be missed, NASA 
will evaluate partner progress made and recommend future actions that 
are in the best interest of the government.
    Although meeting existing SAA milestones is a primary indicator of 
progress, and completion does increase our confidence levels, it is not 
the only indicator. The Commercial Crew & Cargo Program Office (C3P0) 
maintains technical, programmatic, and schedule insight into the COTS 
partners' progress. The program office includes representation from the 
Safety Technical and the Engineering Technical Authorities who provide 
independent progress insight for each partner. The ISS program office 
maintains independent insight into partner progress as well, in order 
to verify ISS visiting vehicle interface and safety requirement 
compliance.
    The C3PO has established the COTS Advisory Team (CAT) comprised of 
approximately 100 NASA technical experts from across the Agency. These 
experts review partner technical and programmatic progress for each 
milestone and provide progress assessments to the C3PO. Additionally, 
they participate in all major design reviews providing technical review 
comments back to our partners. The CAT provides another method by which 
NASA gains confidence that our partners will be able performs their 
flight demonstrations.
    As mentioned above, each COTS partner must successfully verify they 
comply with a detailed set of ISS interface and safety requirements 
prior to their planned ISS berthing missions. These requirements are 
imposed on all Visiting Vehicles wishing to dock to the ISS. Both COTS 
partners are currently working with the ISS program on a daily basis to 
ensure they meet the ISS Visiting Vehicle requirements, providing 
independent insight into their progress and building confidence.
    Please see milestone charts on attached pages.

Q6.  After the successful Hubble servicing mission, it seems that the 
ability to perform human repair is something worth keeping. What plans 
are there, if any, for including provisions in the design for putting 
some sort of robotic arm on Orion or its service module?

A6. The Orion Crew Exploration Vehicle was designed from the beginning 
to be a versatile spacecraft, with the possibility that additional 
capabilities not included in the current baseline design could be added 
at a later date, depending on mission need and funding availability. 
Currently, NASA does not have a requirement for a robotic arm for 
Orion's missions to the International Space Station and the Moon. 
However, should a requirement arise, and additional funding becomes 
available, the Orion could be adapted via future upgrades or ``kits'' 
to include a robotic arm, for example. The baseline Orion architecture 
has already allocated mass and volume for ``unpressurized cargo,'' 
which will accommodate such kits and thereby precluding the need for a 
redesign of the Orion vehicle architecture should such upgrades be 
required at a later date.

Q7.  Now that the Exploration strategy is essentially put on hold for 
three months, how is NASA proceeding with attempting to secure 
international participation in future exploration activities? How is 
NASA's experience with the ISS informing discussions with potential 
exploration partners?

A7. During the Review of the Human Spaceflight Plans, NASA did not 
initiate any new human lunar exploration activities. That said, NASA 
has continued to pursue its four pronged international engagement 
strategy related to establishing interest in lunar exploration 
cooperation. Specifically, NASA continued to: (1) meet NASA's 
commitments to its International Space Station (ISS) Partners; (2) 
conduct multilateral dialogue with space organizations which have 
expressed interest in the Moon; (3) conduct bilateral technical 
discussions and identify areas of potential cooperation; and, (4) seek 
other complementary initiatives that support NASA's plans to explore 
beyond Low Earth Orbit with humans and robots.
    NASA's early decision to meet its ISS commitments after the Space 
Shuttle's return to flight and NASA's leading role in the development 
of common principles for exploration among 14 space agencies under the 
banner of the ``Global Exploration Strategy (GES)'' have convinced 
potential international partners that NASA is serious about 
international cooperation in exploration. Multilaterally, NASA led the 
development and release in May 2007 of the Global Exploration Strategy 
Framework Document as well as its follow-on, 13-agency coordination 
mechanism called the International Space Exploration Coordination Group 
(ISECG). Under NASA's leadership, the ISECG is continuing work to 
define candidate human and robotic lunar architectures.
    Bilaterally, NASA has had initial significant successes in 
completing lunar robotic cooperative agreements with India 
(Chandryaan), Japan (Selene/Kaguya), and Russia (LRO). Other 
discussions and precursor activities are underway with space agencies 
in such countries as Canada, ESA, Germany, India, Italy, Japan, Korea, 
Russia, and the United Kingdom. Finally, NASA is seeking other 
complementary initiatives such leading the development of a 
multilateral set of lessons learned from ISS to help exploration, 
advocating more research using the ISS as a testbed that feeds forward 
to human lunar exploration, and stimulating international scientific 
interest in the Moon through the NASA-led International Lunar Network 
(ILN) concept.
    NASA's success in its international discussions continues to help 
lay the foundation for future sustained and affordable space 
exploration activities by the United States.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Question submitted by Representative Ben R. Lujan

NASA's participation in NM spaceport:

Q1.  Last year NASA examined whether the NM space flight program could 
carry NASA instruments and investigators into space cost effectively. 
The Ames Research Center briefed NM on the potential of NASA's use of 
the NM spaceport for sub-orbital research. Does NASA intend to pursue 
this potential, or continue studying the use of sub-orbital passenger 
carrying capabilities in the NM spaceport?

A1. NASA is studying the use of commercially available, passenger 
carrying sub-orbital rockets as a science platform, and has created a 
Human Sub-orbital Flight Program led by the Space Operations Mission 
Directorate (SOMD). The SOMD will work with service providers as 
capabilities become available to acquire services to support NASA users 
selected through a competitive process.
    The NASA Science Mission Directorate (SMD) is always interested in 
any platform that enables science. The SMD has issued multiple calls 
for Earth and space science investigation ideas. SMD issued two 
Requests for Information (RFIs) (Feb/Mar 2008; Sep/Dec 2008) seeking 
expressions of interest in potential NASA science investigations and 
payloads/experiments taking advantage of the new platforms. The 
response was low for both RFIs, totaling only six responses suggesting 
a concept for an Earth or space science investigation (14 responses 
suggested Exploration Systems Mission Directorate-relevant 
investigations).
    A NASA Research Announcement was issued (Aug/Dec 2008) seeking 
proposals for funded concept studies in Earth and space science using 
any capability of the new platforms. Again, the number of responses was 
low--17 compliant proposals. These were subjected to standard community 
peer review. Most proposals fared poorly in peer review, rated as poor 
science or poor use of the platform. The only highly rated proposal was 
selected for a one-year funded concept study--``Firefly on Demand,'' 
PI: Joanne Hill, USRA/GSFC, for study of terrestrial gamma-ray flashes 
emitted during thunderstorms and their impact on upper atmosphere 
energetics.
    While these efforts have not identified uses for such platforms for 
the space and Earth sciences, NASA is continuing to explore this 
concept and the potential benefits it might bring to other areas of 
research and technology development. Since the vehicles to provide 
these services are still in various stages of development and testing, 
it will take time for this activity to mature.

Questions submitted by Representative Charles A. Wilson

Q1.  How is NASA working with DOD, DOE, FAA, and other agencies to 
enable aircraft to operate with non-petroleum based fuels?

A1. NASA is working with a number of agencies to investigate non-
petroleum fuels for aircraft use. The Agency is performing research to 
develop combustors with reduced emissions capable of operating on a 
wide range of fuels. While recent flight demonstrations have shown that 
current aircraft engines can operate with alternative fuels, NASA 
intends to develop methods to maximize the efficiency of combustors 
regardless of the type of fuel. In addition, NASA will ensure that the 
differences between the fuels are well understood and that there are no 
long-term detrimental issues with utilizing alternative fuels. In this 
activity, NASA is actively engaged in a number of research activities. 
Some of the main ones include developing and evaluating advanced 
combustion concepts using conventional and alternative fuels, improving 
computational combustion codes to improve emissions predictive 
capability to enable better combustion systems to be designed, and 
emissions testing of aircraft engines. Other aspects of this research 
includes characterizing new fuels to insure they meet the minimum 
requirements (e.g., freeze point, flash point, etc.) and that lab 
burner and engine tests prove feasibility of safely operating on 
alternative fuels.
    The Air Force has a very large program to certify and investigate 
the use of non-petroleum fuels for their fleet. NASA has benefited from 
collaborating with the Air Force on this alternative fuel research. The 
Agency has purchased two Fischer-Tropsch (F-T) fuels in conjunction 
with the Air Force and is currently involved in a new purchase to 
obtain a substantial quantity of biojet fuel for our research 
activities. NASA has also collaborated with the Air Force in exchanging 
fuel property data for a number of alternative fuels. The Air Force has 
provided data to NASA on their engine emissions measurements using 
alternative fuels. NASA and the Air Force recently collaborated on 
emissions testing using a Pratt and Whitney 308 engine with F-T fuel 
and the Aviation Alternative Fuel Emissions Experiment (AAFEX) using a 
NASA DC-8 aircraft with two F-T fuels. The Air Force was an active 
participant in both of these tests and sent a research team and 
instrumentation to participate in the tests. NASA has also teamed with 
the Air Force Research Laboratory for combustion flame tube testing 
using a CFM-56 sector with a Fischer-Tropsch fuel. Some of NASA 
sponsored work on alternative fuel chemical kinetics was recently 
provided to the Air Force for their use.
    NASA also works with the FAA for non-petroleum fuels. NASA 
participates as a member of the FAA Commercial Aviation Alternative 
Fuel Initiative (CAAFI) and attends CAAFI meetings, serves on a number 
of CAAFI teams, and participates in road mapping exercises. Through the 
CAAFI coalition NASA also learns what research others are performing, 
learns what fuel and emissions characteristics data are needed for 
alternative fuel certification and then develops roadmaps for NASA 
alternative fuels research aimed at obtaining and disseminating the 
required information.
    NASA has also worked with The EPA on sampling emissions from 
aircraft in the Aircraft Particle Emissions Experiment and AAFEX 
measurement campaigns to evaluate emissions from numerous aircraft 
engines. EPA sent a research team and participated in these experiments 
at various locations across the country. NASA is also working with DOE 
in the biofuels area. The Agency currently has a space act agreement in 
process for DOE to characterize oil samples obtained from various 
biofeedstock sources.

Q2.  How can NASA's capabilities in aerospace power technologies and 
systems be applied to help solve our nation's energy challenges?

A2. As a research and development agency, NASA has a unique role in 
government to support civil aeronautics research. Therefore, the Agency 
can have the most significant impact by focusing on improving the 
efficiency (and coincidently minimizing the environmental impact) of 
the air transportation system. The NASA Aeronautics program conducts 
cutting-edge, long-term research in areas that are well aligned with 
the National Aeronautics R&D Policy guidance and with the high-priority 
national aeronautics R&D goals and time-phased objectives established 
by the National Plan for Aeronautics R&D and Related Infrastructure.
    Much of NASA's civil research can also directly benefit military 
aircraft. Through close partnership with the DOD, NASA also helps to 
improve the efficiency of military aircraft. The impact of this 
research is most profound for the U.S. Air Force because fuel costs 
have a major impact on the service.
    While it is important for NASA to focus on air transportation 
challenges, other sectors can benefit from NASA's technologies. Since 
the restructuring, there has been a renewed emphasis on the publication 
of research results, preferably in peer reviewed venues. A primary 
reason for this emphasis is to help ensure technical excellence of 
NASA's work, but another significant benefit is the dissemination of 
knowledge to the broader community. Such dissemination facilitates the 
transfer of knowledge in areas such as computational fluid dynamics, 
materials and structures, and aerothermodynamics that may help meet the 
broader energy challenges that face the Nation.
    From a space perspective, as part of the NASA Exploration 
Technology Development Program (ETDP), NASA is developing advanced 
lithium-ion batteries and hydrogen-oxygen fuel cells to store energy at 
the lunar outpost, and to power lunar rovers and space suits. These 
energy storage technologies could help to increase the driving range of 
terrestrial electric vehicles, and to increase the battery life of 
portable consumer electronic devices such as cell phones and laptop 
computers. Work on these technologies is taking place at the NASA Glenn 
Research Center (GRC) in Ohio and the NASA Jet Propulsion Laboratory in 
California. As part of the ETDP, GRC also is developing Stirling power 
convertors for small nuclear reactors and radioisotope power systems to 
generate power for the lunar outpost. Stirling convertors could be used 
for Earth-based power generation systems that use concentrated solar 
energy or waste heat from power plants.
    The NASA Johnson Space Center in Texas, in coordination with other 
NASA centers, has the lead for developing lunar electric rovers that 
will be used by the Constellation Program during human lunar missions. 
The largest of the rovers, named the Lunar Electric Rover, is designed 
to carry two astronauts hundreds of miles across the lunar surface. 
These rovers share many common technology development requirements with 
electric vehicles on Earth (energy storage like batteries, electric 
motors, recharging systems, new tires, etc.). Because of this need, 
NASA is pursuing partnerships both with other government agencies and 
U.S. industry partners to ensure NASA is at the forefront of electric 
vehicle technology development. The technologies developed for the 
Lunar Electric Rover may be helpful in enabling technologies for 
electric cars and electric heavy equipment used on Earth.
    NASA's Innovative Partnerships Program has also supported renewable 
energy research and partnerships, with 76 projects recently, including 
45 from Small Business Innovation Research (SBIR), 18 partnership 
projects, seven jointly-funded Seed Fund technology development 
projects, five Small Business Technology Transfer (STTR) projects and 
one Centennial Challenges competition. The projects involved many 
technologies including solar power, fuel cell technology, laser power, 
and nano-material and cryogenic applications.
    The attached summary was developed in March 2009, in response to a 
request from the House Subcommittee on Space and Aeronautics for 
information to support the Subcommittee's planned round table regarding 
renewable energy.

Q3.  Given the history of NASA in spinning out commercializations, does 
the committee feel NASA is receiving adequate funding for support of 
patent protection, licensing, and commercialization activities with 
companies to develop new technologies?

A3. The NASA Innovative Partnerships Program (IPP) conducts technology 
development to meet the Agency's needs and technology transfer for a 
broad spectrum of technologies having applicability across key U.S. 
industrial sectors. In addition, IPP provides and facilitates a 
grassroots opportunity for U.S. businesses, academia and citizens to 
apply their innovations to NASA missions. Funding for IPP activities 
pays dividends toward U.S. industrial competitiveness in global 
markets, and in sparking young people's interest in STEM disciplines.
    The current budget plans for FY 2010 and out years in the IPP 
budget will lead to a reduction in current service levels, especially 
in Partnership Development. Partnership Development includes licensing 
out of NASA technology and facilitating the protection of the 
government's rights in its inventions, as mandated by a long history of 
legislation, as well as partnering with external entities for joint 
development of critical, near-term, cutting edge technologies having 
both NASA mission use and commercial applicability.

Q4.  What are NASA's plans to invest in technologies to improve the 
efficiency of turbine engines to reduce carbon emissions?

A4. The most direct way to reduce carbon emissions in the near-term is 
to improve the efficiency of jet aircraft engines since approximately 
20 pounds of carbon dioxide are emitted for each gallon of aviation 
fuel burned. The key to quiet, efficient aircraft propulsion is to move 
large amounts of air at velocities that are not much higher than the 
aircraft's forward flight speed. To date NASA has been moving in this 
direction with ever-larger turbofan engines. However, we are 
approaching the point where nacelle size, weight, and drag are 
offsetting the noise and efficiency gains. We are currently performing 
research aimed at lowering the weight and drag of nacelles for ultra-
high bypass turbofans and increasing the fuel-burn efficiency of the 
core engine which powers the large fan. One of the next steps in 
improving engine efficiency is open-rotor technology which removes the 
nacelle and uses large-diameter prop-fan rotors, but that too has its 
limitations. Currently, open-rotors are noisier than large turbofans 
and we are performing research aimed at significantly reducing the 
noise in order to capitalize on the fuel-burn benefits which open-
rotors offer compared to large turbofans. Technology improvements to 
ultra-high bypass turbofans and open-rotor engines are expected to 
enable new engines in the 2020 time frame which burn 25 percent less 
fuel than today's engines. Aircraft engine manufacturers as well as 
Airbus and Boeing are considering open-rotor propulsion systems for the 
next generation of single-aisle commercial transport aircraft, expected 
to enter service around 2020. Part of their decision on whether to 
adopt open-rotor technology rests on the success of our current efforts 
at reducing the noise of open-rotors. More advanced propulsion 
technologies are expected to involve hybrid propulsion systems in which 
gas turbine engines drive electric generators which in turn power 
electrically-driven fans, with many fans distributed along the 
airframe. Other changes might involve embedding engines in the airframe 
to eliminate the large nacelles which cause drag, or coupling gas 
turbine engines with fuel cells to generate electric power for fans. In 
general we envision propulsion architectures which no longer feature 
just two or four large engines suspended below the aircraft wing. 
Embedded-engine and distributed propulsion technologies are not 
currently expected to be ready for entry into service until 2030 or 
beyond.
    In addition, NASA will continue to invest in advanced combustor 
technologies that are more efficient than today's systems. An important 
aspect of this work is to enable the development of combustors that can 
operate at peak efficiencies with a variety of fuel types, including 
alternative fuels such as biofuel. NASA has unique expertise with the 
understanding and predicting the impact of these fuels on combustor 
systems, and these contributions will help ensure that aircraft engines 
can operate effectively if these new fuels become viable.

Q5.  Current program plans for human space flight assign significant 
roles and responsibilities and provide for commensurate funding and 
workforce participation for a number of NASA Centers including the 
Glenn Research Center. What will NASA do to insure that any changes in 
plans resulting from the independent review of human space flight 
activities will be implemented in a manner which continues to 
effectively utilize the capabilities of the various Centers supporting 
NASA's Exploration Mission?

A5. When Center exploration-related work assignments were determined in 
2007, NASA followed a formal process in which current and future 
potential center skills were assessed. The proposed lunar work 
assignments were then coordinated with NASA senior management and 
formally presented at the Senior Management Council for final Agency 
approval. If changes are made following the Administration's response 
to the independent Review of U.S. Human Space Flight Plans, NASA will 
ensure that each Center contributes appropriately to the revised plan.

Q6.  NASA is to be commended for its acknowledgement that industry, 
academia, and non-profit organizations will be the implementers of 
technology into products. The maturing and integrating of Aeronautics 
technologies for accelerated transition to practical application is 
important for both environmental and economic competitiveness reasons. 
The Budget Request describes an acquisition strategy for the Integrated 
Systems Research Program which allocates only $10 million of the $62.4 
million of FY 2010 funding for grants, contracts, and cooperative 
agreements with industry, academia, and non-profit organizations. 
Please describe why such a small percentage of the budget is designated 
for this effort, as well as the smaller sum, contained within that 
figure, for grants, contracts, and cooperative agreements. What are the 
plans to increase this amount in the future?

A6. The FY 2010 budget request for NASA Aeronautics Research of $507M 
is adequate to support a healthy program that addresses aviation's 
effect on the environment. This funding level allows the Agency to 
continue the fundamental research approach that conducts cutting-edge, 
long-term research in areas that are well aligned with the National 
Aeronautics R&D Policy guidance and with the high-priority national 
aeronautics R&D goals anal time-phased objectives established by the 
National Plan for Aeronautics R&D and Related Infrastructure. In 
addition, with the approximately $60M increase in funding request above 
the FY 2009 President's budget request run-out, we will add a 
significant systems-level research component centered on 
environmentally friendly technologies. The Integrated Systems Research 
Program (ISRP) will conduct research at an integrated system-level on 
promising concepts and technologies and explore, assess and demonstrate 
the benefits in a relevant environment. The goal of the first project 
in ISRP, the Environmentally Responsible Aviation (ERA) project, is to 
explore and document the feasibility, benefits, and technical risks of 
vehicle concepts and enabling technologies identified to have the 
potential to mitigate the impact of aviation on the environment.
    NASA's overall Aeronautics program achieves its expected role and 
contributions within the current budget by focusing on NASA's unique 
capabilities and by maximizing coordination and collaborations with 
industry, academia, and other government agencies. We are able to fund 
a workforce at four NASA research centers (Ames, Dryden, Glenn, and 
Langley) that allows for robust implementation of our research programs 
in such a manner that our workforce is sustained as a premier technical 
organization and a true national asset. NASA has put many mechanisms in 
place to engage academia and industry, including industry working 
groups and technical interchange meetings at the program and project 
level, Space Act Agreements (SAAB) for cooperative partnerships, and 
the NASA Research Announcement (NRA) process that provides for full and 
open competition for the best and most promising research ideas. It is 
anticipated that these mechanisms, as well as competitive procurements, 
will be utilized to involve the private sector in ISRP and ERA. NASA 
plans to allocate $15M towards NRA in FY 2010, which equates to 
roughly 24 percent of the program budget, which is greater than the 
amount allocated by the other research programs. In addition to the 
NRA, it is anticipated that a significant amount of the remaining funds 
within the program will be used for out-of-house procurements on 
advanced concepts and testing. An acquisition strategy plan will be 
developed in FY 2009 to identify and outline the strategy for the 
larger procurements and collaborative efforts of the project.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions submitted by Representative Ralph M. Hall

Q1.  On many occasions the previous NASA Administrator discussed 
potential advantages of flying small NASA-research experiments aboard 
human sub-orbital launch vehicles which are anticipated to be 
operational within the next few years. It was his belief that this 
could help reduce the cost of sub-orbital flight research by leveraging 
the private sector and also bolstering the industry with an additional 
market, as well as provide a cost-effective way to test micro-gravity 
research payloads before being launched to the Space Station. This 
committee has been a longtime supporter of micro-gravity research, and 
is concerned about reductions in ISS research utilization in the coming 
years. Last year there was some discussion within NASA as part of the 
Planning, Programming, Budgeting and Execution (PPBE) process about 
budgeting approximately $5 million in FY 2010 to establish a Human Sub-
orbital Flight Program to enable and conduct scientific research aboard 
human-tended launch vehicle services. What is the status of this 
effort, and how much is in the FY 2010 budget for this purpose? Will 
NASA provide funds this year so scientists can begin developing 
experiments that could fly once these new vehicles become available?

A1. NASA is studying the use of commercially available, passenger 
carrying sub-orbital rockets as a science platform, and has created a 
Human Sub-orbital Flight Program led by the Space Operations Mission 
Directorate (SOMD). The SOMD will work with service providers as 
capabilities become available to acquire services to support NASA users 
selected through a competitive process.
    The NASA Science Mission Directorate (SMD) is always interested in 
any platform that enables science. The SMD has issued multiple calls 
for Earth and space science investigation ideas. NASA issued two 
Requests for Information (RFIs) (Feb/Mar 2008; Sep/Dec 2008) seeking 
expressions of interest in potential NASA science investigations and 
payloads/experiments taking advantage of the new platforms. The 
response was low for both RFIs, totaling only six responses suggesting 
a concept for an Earth or space science investigation (14 responses 
suggested Exploration Systems Mission Directorate-relevant 
investigations).
    A NASA Research Announcement was issued (Aug/Dec 2008) seeking 
proposals for funded concept studies in Earth and space science using 
any capability of the new platforms. Again, the number of responses was 
low--17 compliant proposals. These were subjected to standard community 
peer review. Most proposals fared poorly in peer review, rated as poor 
science or poor use of the platform. The only highly-rated proposal was 
selected for a one year funded concept study--``Firefly on Demand,'' 
PI: Joanne Hill, USRA/GSFC, for study of terrestrial gamma-ray flashes 
emitted during thunderstorms and their impact on upper atmosphere 
energetics.
    While these efforts have not identified uses for such platforms for 
the space and Earth sciences, NASA is continuing to explore this 
concept and the potential benefits it might bring to other areas of 
research and technology development. Since the vehicles to provide 
these services are still in various stages of development and testing, 
it will take time for this activity to mature. NASA is currently 
assessing the level of resources to be committed to this effort in FY 
2010.

Q2.  Aeronautics research at NASA has suffered funding reductions over 
the last ten years. As a consequence, the agency ``reshaped'' its 
aeronautics R&D program to do more collaborative, foundational research 
with industry, other federal agencies, and research institutions. To 
what degree are industry, research institutions, and other federal 
agencies collaborating with NASA? It is too soon yet to assess the 
development and adoption of new technologies under this structure? If 
so, when will NASA be better able to evaluate its progress?

A2. NASA is very pleased with the degree of collaboration that exists 
with other government agencies, industry and the academic community. 
NASA has established strong partnerships with other government agencies 
and organizations, including the Federal Aviation Administration (FAA), 
Department of Defense (DOD), and the Joint Planning and Development 
Office (JPDO). As a member of the National Science and Technology 
Council (NSTC) Aeronautics Science and Technology Subcommittee, NASA is 
pursuing a coordinated approach with its government partners to 
managing and utilizing the Nation's research, development, test, and 
evaluation (RDT&E) infrastructure, which includes test facilities as 
well as computational infrastructure. An example of how this 
partnership is performing is exemplified by the Research Transition 
Teams that have been established between NASA and the FAA. These teams 
help ensure that the fundamental research that NASA leads can be 
effectively transitioned to the FAA and ultimately implemented into the 
air transportation system.
    The Aeronautics Research Mission Directorate (ARMD) NASA Research 
Announcement (NRA) process has also been very successful. Since 2006, 
NASA has issued awards for more than 380 research proposals from 
organizations across the country. These efforts span from focused 
research topics that involve a few researchers to complex 
investigations that involve very large teams from industry and 
academia. A key attribute of the ARMD NRA process is the focus on 
collaboration. Almost every solicitation promotes collaboration and 
encourages external researchers to propose work that is collaborative 
with NASA researchers. Because of this focus, very few grants have been 
issued. Instead, there is a large proportion of cooperative agreements 
that are utilized because of the close interactions between NASA and 
external personnel.
    In addition to funded activities, NASA is engaged in a number of 
non-reimbursable space act agreements with industry partners. ARMD has 
established more than 68 of these Space Act Agreements since 2006. 
While these collaborative efforts are important for advancing the 
aeronautics technologies, they are also important mechanisms to 
facilitate the transfer of knowledge between NASA and U.S. industry.
    NASA utilizes the ``N+1, N+2, and N+3'' notation to indicate the 
generation of aircraft that are expected to primarily benefit the long-
term cutting edge research that is conducted today. There is a 
significant focus on technologies for the N+2 generation of aircraft 
which are expected to enter service around 2025-2030. Therefore, there 
is not an expectation that much of this research will be adopted today. 
In fact, the development timelines for aircraft are so long that it is 
unlikely that many of the technologies be developed by NASA today will 
be implemented on the next generation of civil transports. However, 
NASA has established challenging goals for future systems and is making 
the high risk investments today that are needed to realize such 
profound improvements in capabilities in the future. ARMD has refrained 
from establishing definitive transition metrics because these tend to 
promote the development of more incremental technologies. Instead the 
focus is on enabling significant improvements to capabilities. If 
successful these will be adopted and will make a difference. The ARMD 
portfolio is quite broad, and while most technologies will not be 
implemented in the near future, there are examples where some 
technologies may make a difference in the near-term. For example, as a 
result of collaboration under the NRA process, a new scheduling tool 
has been developed that is estimated to save approximately $2.8M per 
year for airlines operating into San Francisco.

Q3.  The budget establishes a new Integrated Systems Research Program 
within the Aeronautics Directorate. What is the role of this program, 
and to what degree will it be able to validate or demonstrate promising 
technologies?

A3. The Integrated Systems Research Program (ISRP), a new $62.4M 
program effort beginning in FY 2010, will conduct research at an 
integrated system-level on promising concepts and technologies and 
explore/assess/demonstrate the benefits in a relevant environment. The 
integrated system-level research in this program will be coordinated 
with on-going long-term, foundational research within the three other 
research programs, and will focus specifically on maturing and 
integrating technologies in major vehicle and operational systems and 
subsystems for accelerated transition to practical application.
    The goal of the first project in ISRP, the Environmentally 
Responsible Aviation project, is to explore and document the 
feasibility, benefits, and technical risks of vehicle concepts and 
enabling technologies identified to have the potential to mitigate the 
impact of aviation on the environment. Through system-level analysis, 
promising vehicle and propulsion concepts and technologies will be 
down-selected based on their potential benefit towards simultaneously 
reducing fuel burn, noise and emissions. NASA will provide much more 
informed trade space with validation in relevant environments for the 
selected concepts and technologies by 2015, so that industry can 
accelerate the introduction of these promising ideas in future product 
development.

Q4.  What provisions does NASA have in place if the two COTS 
contractors are not able to develop their launch systems in time to 
meet ISS cargo requirements by 2012? How will the void of cargo 
services be filled?

A4. In the post-Shuttle era, the ISS will be supplied by domestically 
developed commercial cargo services under the Commercial Resupply 
Services (CRS) contract, the Russian Progress, the European Automated 
Transfer Vehicle (ATV), and the Japanese H-II Transfer Vehicle (HTV). 
NASA is relying on U.S. industry to develop cargo transportation 
capabilities that will be able to support the ISS and intends to 
purchase cargo transportation from the U.S. commercial market. The 
major uncertainty will be the schedule. The contracts are fixed price 
with milestone driven payments. The total cost will be fixed but the 
payment schedule will vary. NASA realizes that the commercial industry 
is evolving, and choosing two CRS providers increases the probability 
of success of commercial ISS resupply services. While international 
partners' vehicles do provide some capabilities, it remains vital to 
the full utilization of the ISS that the CRS contractors attain the 
capability of supporting the Space Station's full, six-person crews in 
the future.

Q5.  What do you consider the three highest technical risks to 
maintaining the Ares I and Orion IOC, and what steps are being taken to 
address them? Include details of how the $630M provided by the Recovery 
Act will be allocated within the program to reduce schedule and 
programmatic risk.

A5. NASA has identified clear mitigation strategies for the key 
technical challenges that have been identified, such as those listed 
below. All launch vehicle development efforts encounter technical 
challenges as the design evolves. This is part of the design process 
and normal engineering practices. As such, NASA is actively working 
these risks, and has made great progress in mitigating many of them.

        <bullet>  Ares I Thrust Oscillation: Thrust oscillation is a 
        characteristic within solid rocket motors based on internal 
        geometry. Early Ares I structural analyses indicated that 
        thrust oscillation, unless corrected, could result in high 
        dynamic G force levels in the upper stage and the Orion. This 
        is not an uncommon problem in solid rocket motors. In November 
        2007, NASA chartered the Thrust Oscillation Focus Team to 
        precisely define the frequency spectrum and oscillation 
        amplitudes that the five-segment motor is expected to produce. 
        The team's analysis has led to several mitigation strategies, 
        including propellant dampening, spring isolator concepts, and 
        an aft skirt tuned vibration absorber. The team's final 
        analysis and recommendations for incorporation of thrust 
        oscillation mitigation designs will be presented during the 
        Constellation Preliminary Design Review, which is scheduled to 
        begin late this year and continue through early next year.

        <bullet>  Orion Mass: Orion, like all spacecraft, has a mass 
        limit, and will not be able to accomplish its mission if it 
        goes over it. The Orion team continues to refine its design and 
        has made several changes that reduce the overall spacecraft 
        mass. For example, the power distribution system was redesigned 
        to a distributed system configuration achieving considerable 
        mass reduction. Also, a passive loads attenuation system for 
        contingency land landing was selected, thereby eliminating the 
        weight of an airbag system.

        <bullet>  Common bulkhead manufacturing risk: The common 
        bulkhead was employed to reduced mass of the upper stage, but 
        has a complex manufacturing process. The Ares Project continues 
        to perform subscale and full scale testing of manufacturing and 
        inspection techniques for the common bulkhead to mitigate any 
        development risks.

    With regard to the second question about funding, the President's 
FY 2010 budget request for Exploration Systems is $3.963B, an increase 
of $457.6M above the FY 2009 appropriation and $225.4M above the 
planned FY 2010 level in last year's request. Based on the $400M in 
Recovery Act funds and the increase in the FY 2010 President's budget 
request over last year's levels, the Exploration Systems budget plan 
includes about $630M more in FY 2009 and FY 2010 than the previous 
plan. The $400M in Recovery Act funds for Exploration Systems includes 
$310M which will be applied to Constellation Systems and $90M which 
will be applied toward the Commercial Crew and Cargo Program.
    Pending potential changes due to the results of the Review of U.S. 
Human Spaceflight plans, the Recovery Act funding for Constellation 
Systems will be allocated to critical activities related to the 
successful completion of the Orion, Ares I and Ground Operations 
projects. The Constellation Program plans to use the funds to 
accelerate its test schedule and the procurement of long-lead items, 
thereby mitigating risk. More specifically, the funding will:

        <bullet>  Increase fidelity in the Orion Ground Test Article 
        providing better understanding of the loads environment and 
        reducing risk as the Project moves forward with design. 
        Additional risk reduction is provided by tasks that will 
        demonstrate and test materials and spacecraft systems to better 
        understand the potential failure limits. Overall schedule risk 
        reduction is being accomplished through use of the Recovery Act 
        funds for Orion Engineering Development Units and efforts to 
        begin Long Lead Procurement activities earlier.

        <bullet>  Design the specialized systems and equipment for the 
        Mobile Launcher, which are a critical part of the overall 
        structure. The Mobile Launcher is a large platform with a tower 
        used to transport, service, and launch the next generation 
        launch vehicle and spacecraft (Ayes I and Orion).

        <bullet>  Accelerate development of J-2X engine components.

        <bullet>  Develop Ares Upper Stage tooling for common bulkhead 
        and the Upper Stage Vertical Assembly Tool.

        <bullet>  Development and outfitting A-3 test stand.

    The remaining $90M will support plans to stimulate efforts to 
develop and demonstrate technologies that enable commercial human space 
flight capabilities. These efforts are intended to foster 
entrepreneurial activity leading to job growth in engineering, 
analysis, design, and research, and to economic growth as capabilities 
for new markets are created. It is important to note that some of these 
funds will support the commercial space industry as well as the 
Constellation Program. A portion of the funds will be used for 
competitive awards for commercial development of crew concepts and 
technology demonstrations and investigations. A portion of the funds 
will be used to accelerate an International Space Station docking 
interface that could be utilized by both the commercial space community 
as well as the Orion project. A portion of the funds will support 
investments in launch site and test infrastructure at various Centers 
that will benefit both government and commercial interests. A portion 
of the funds will be used for human rating requirements development 
that will be applicable to the Constellation Program as well as 
commercial partners, and will reduce the complexity associated with 
human rating a space flight system.

Q6.  Last year, GAO issued a report suggesting that NASA had not 
adequately budgeted for Shuttle transition and retirement costs. The FY 
2009 Omnibus Appropriations Conference Report included language 
directing the agency to better define these costs and incorporate them 
into future budget requests. The FY 2010 budget request includes $47.1M 
in FY 2011 and FY 2012 for Shuttle transition and retirement costs. 
Although that figure is higher than the $96M proposed in last year's 
budget, it is still low compared to NASA's previous estimate of $1.2B. 
Given the costs associated with contract closeouts, employee retention 
or termination, disposition or transition of real property and flight 
qualified hardware, as well as other costs associated with such a 
large, geographically diverse program, what has changed that permits 
NASA to achieve these savings? Please provide a breakdown of how the 
$471 million will be spent.

A6. NASA has been transitioning from the Space Shuttle Program to the 
next generation of human space flight vehicles since 2005. Each time 
the Agency has refined its Transition and Retirement (T&R) cost 
projections, they have decreased. In large part, this is due to an 
increasing understanding of all of the elements of this undertaking; 
NASA has not retired a major human space flight system since the mid-
1970s, and the Space Shuttle is far more complex than its predecessors. 
In addition, the Agency continues to find ways to put Shuttle assets to 
effective use in the Constellation Program, further reducing T&R costs.
    The President's Budget Request for FY 2010 includes $470.6M in the 
Space Shuttle Program for T&R activities for FY 2011 and 2012. This 
funding is to be allocated as below (numbers do not add to $470.6M due 
to rounding).

        <bullet>  $114.3M--Personal Property

        <bullet>  $49.7M--Major Flight Assets

        <bullet>  $55.6M--Real Property

        <bullet>  $11.2M--Records Management

        <bullet>  $2.0M--Software Disposition

        <bullet>  $55.7M--Contract Closeout

        <bullet>  $44.2M--Oversight and Integration

        <bullet>  $42.3M--Civil Service Labor and Travel

        <bullet>  $95.7M--Severance and Retention

Q7.  What does this budget assume with regard to Shuttle retirement, 
especially with regard to personnel actions, schedule, and facilities? 
What are NASA's plans for the actual disposition of the Orbiters and 
other flight and ground artifacts of the Shuttle program?

A7. The President's Budget Request for FY 2010 supports Shuttle 
operations through the end of FY 2010; there is currently no funding to 
support flights beyond FY 2010, though the Agency plans to fly out the 
remaining missions even if the manifest slips. The decision has been 
made by the Administration to fly the remaining International Space 
Station assembly flights, including the Alpha Magnetic Spectrometer 
flight, while supporting the goal to fly the Space Shuttle safely as 
possible until its retirement, which we believe can be accomplished by 
the end of 2010.
    The Space Shuttle Program is now moving forward with the retirement 
plans previously established and notified to Congress. This includes 
plans to transition workforce from the Shuttle program to follow-on 
efforts where possible, as well as plans to utilize Shuttle facilities, 
where appropriate, to support such efforts. NASA provides updates to 
its Workforce Transition Strategy twice a year to ensure that Congress 
is kept informed of the Agency's personnel transition activities. In 
November 2008, the Agency reported to Congress on efforts to 
disposition the Shuttle Orbiters and related artifacts in the Space 
Shuttle Program Transition and Retirement Personal Property Disposition 
Plan. On December 17, 2008, NASA issued a ``Request for Information'' 
(RFI) to obtain market research from educational institutions, science 
museums, and other appropriate organizations regarding the community's 
ability to acquire and display a Space Shuttle Orbiter. NASA received 
about 20 responses to the RFI, which closed on March 17, 2009. The 
responses will inform the development of strategies for placement of 
the Orbiters anti Space Shuttle Main Engines after conclusion of the 
Space Shuttle Program.

Q8.  Many of NASA's science missions have been launched on the Boeing 
Delta 11, which has proven to be one of the most reliable rockets ever 
built. Unfortunately, production of Delta 11's is coming to an end. How 
will this impact the cost of launching future science missions? What 
steps is NASA taking to ensure continued access to an affordable, 
reliable medium-lift launcher? What would be the cost impact if NASA 
were to purchase launchers provided by the United Launch Alliance 
(Delta 4 and Atlas 5)?

A8. NASA's strategy for providing domestic commercial launch services 
in support of NASA's medium-class missions is linked to the 
International Space Station (ISS) Commercial Resupply Services (CRS) 
contracts that were awarded on December 23, 2008. The CRS vendors are 
developing vehicles that could be available for medium-class NASA 
science missions on a NASA Launch Services (NLS)-type contract, for 
potential launches in the 2013-2014 timeframe. At this time, the CRS 
launch vehicles are in an early stage of development, and have not yet 
been demonstrated. This will establish a larger business base for 
medium-class launch vehicles, which should help reduce launch prices 
for NASA's space and Earth science missions in this class.
    However, it is important to note that the CRS providers are not 
currently developing the full range of capabilities (e.g., high 
inclination launch site, upper stage for Earth escape missions, Dual 
Payload Attach Fitting) typically utilized by NASA science missions. 
Therefore, some additional costs will be incurred to fully meet NASA's 
science needs. NASA has not yet finalized the funding estimate for 
these capabilities, but the contract(s) which follows NLS will be used 
to definitize service options to meet NASA's science needs.
    NASA provided more information on the state of small- and medium-
class launch vehicles in its report to the Committee on the topic, 
delivered in August 2009.

                                   

</pre></body></html>
